NO. 20-5086

IN THE SUPREME COURT OF THE UNITED STATES
JOHNNY MACK SKETO CALHOUN,

PETITIONER,
V.

STATE OF FLORIDA,

RESPONDENT.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF FLORIDA
RESPONDENT’S APPENDIX

ASHLEY MOODY
ATTORNEY GENERAL OF FLORIDA
CAROLYN M. SNURKOWSKI
Associate Deputy Attorney General

Counsel of Record

Jason William Rodriguez
Assistant Attorney General
Office of the Attorney General
PL-01, The Capitol
Tallahassee, FL 32399-1050
Carolyn.Snurkowski@myfloridalegal.com
(850) 414-3300
COUNSEL FOR RESPONDENT

INDEX TO APPENDIX
Postconviction Court’s Order................................................................................... 1–53
Petitioner’s Initial Brief in the Florida Supreme Court..................................... 54–175
State’s Answer Brief in the Florida Supreme Court ........................................ 176–265
Petitioner’s Habeas Petition in the Florida Supreme Court .............................. 266–91
State’s Habeas Response in the Florida Supreme Court ................................. 292–312
State’s Motion to Recall the Mandate ............................................................... 314–319
Florida Supreme Court’s Stay Order ........................................................................ 320

001

002

003

004

005

006

007

008

009

010

011

012

013

014

015

016

017

018

019

020

021

022

023

024

025

026

027

028

029

030

031

032

033

034

035

036

037

038

039

040

041

042

043

044

045

046

047

048

049

050

051

052

053

Filing # 75160408 E-Filed 07/18/2018 03:48:59 PM

IN THE SUPREME COURT OF FLORIDA
Case No. SC18-340
Lower court Case No. 2011-CF-11A
______________________________________________

RECEIVED, 07/18/2018 03:53:25 PM, Clerk, Supreme Court

JOHNNY MACK SKETO CALHOUN,
Appellant,
v.
STATE OF FLORIDA,
Appellee.
______________________________________________
ON APPEAL FROM THE CIRCUIT COURT
OF THE FOURTEENTH JUDICIAL CIRCUIT, IN AND
FOR HOLMES COUNTY, STATE OF FLORIDA
______________________________________________
INITIAL BRIEF OF THE APPELLANT
______________________________________________

KATHLEEN PAFFORD
Assistant CCRC – North
Florida Bar No. 99527
ELIZABETH SALERNO
Assistant CCRC-North
Florida Bar No. 1002602
OFFICE OF THE CAPITAL
COLLATERAL REGIONAL COUSNEL
– NORTH
1004 DeSoto Park Drive
Tallahassee, Florida 32301
COUNSEL FOR APPELLANT

054

TABLE OF CONTENTS
REQUEST FOR ORAL ARUGMENT………………………………..…………...v
PRELIMINARY STATEMENT…………………………………………….......…v
TABLE OF AUTHORITIES ………...……..…………………………………..…vi
STATEMENT OF THE CASE AND FACTS……………………………………..1
I.

PROCEDURAL HISTORY…………………………………………………1

II.

CALHOUN’S TRIAL…………………………………………………….…3
A. The murder of Mia Brown……………………………………………….3
B. The State’s Case………………………………………………………….3
C. The Defense’s Case…………………………………………………...….9

III.

THE EVIDENTIARY HEARING…………………………………………11
A. Newly discovered evidence implicates Doug Mixon as a viable
suspect……………………………………………………………….….11
B. Doug Mixon’s alibi has been conclusively refuted and his alleged alibi
witness says Mixon confessed to murdering Mia Brown………………12
C. Expert witnesses have cast doubt on the veracity of the State’s evidence
and arguments…………………………………………………………..13
D. Trial counsel was unable to articulate strategic reasons or a strategy
based on sound, professional judgment, for most of the alleged errors and
omissions………………………………………………………………..14

IV.

THE CIRCUIT COURT’S DENIAL OF RELIEF……………………...…14

SUMMARY OF THE ARGUMENT…………………………………………..…15
ARGUMENT……………………………………………………………………...19

055

I.

CALHOUN WAS DEPRIVED OF HIS FUNDAMENTAL RIGHT TO
EFFECTIVE COUNSEL AND A FAIR TRIAL DUE TO COUNSEL’S
ACTIVE CONFLICT OF INTEREST……………………………………..19

II.

NEWLY DISCOVERED EVIDENCE REGARDING DOUG MIXON SO
WEAKENS THE CASE AGAINST CALHOUN THAT IT CREATES A
REASONABLE DOUBT AS TO HIS GUILT…………………………….24
A. The newly discovered evidence……………………………………...…26
1. Natasha Simmons……………………………………………………26
2. Robert Vermillion……………………………………………...……28
B. The newly discovered evidence gives rise to a reasonable doubt about
Calhoun’s guilt………………………………………………………….30
C. The circuit court erred by denying relief……………………………..…34

III.

CALHOUN’S TRIAL WAS AFFLICTED WITH VIOLATIONS OF
BRADY V. MARYLAND…………………………………………………34

IV.

CALHOUN’S APPOINTED TRIAL COUNSEL RENDERED
INEFFECTIVE ASSISTANCE OF COUNSEL…………………………...40
A. Counsel’s failure to investigate Doug Mixon’s alibi was deficient
performance that prejudiced Calhoun………………………………..…42
1. Counsel’s failure to investigate Doug Mixon’s alibi was deficient
performance…………………………………………………………42
2. Counsel’s failure to investigate Doug Mixon’s alibi was deficient
performance that prejudiced Calhoun……………………………….48
B. Counsel’s failure to consult with and hire forensic experts was deficient
performance that prejudiced Calhoun………………………..…………53
1. Counsel’s failure to consult with or hire a forensic pathologist
constitutes deficient performance…………………………..……….53

056

2. Counsel’s failure to consult with or hire a forensic pathologist
prejudiced Calhoun……………………………………...…………..57
3. Counsel’s failure to consult with or hire a digital forensic expert
constitutes deficient performance……………………………...……61
4. Counsel’s failure to consult with or hire a digital forensic expert
prejudiced Calhoun…………………………………………...……..64
C. Counsel’s failure to subject the State’s case to adversarial testing through
investigation, cross-examination, the utilization of available
impeachment evidence and proper objections was deficient performance
that prejudiced Calhoun……………………………………...…………67
1. Counsel’s failure to object to improper testimony constitutes deficient
performance……………………………………………..…………..67
a. Charles Howe…………………………………………….………67
b. Dr.Swindle………………………………...………........………..70
c. Dick Mowbry…………………………………………………….70
2. Counsel’s failure to investigate, effectively cross-examine witnesses
and utilize available impeachment evidence was deficient
performance that prejudiced Calhoun………………….……………72
a. Brandon Brown……………………………..……………………73
b. Sherri Bradley……………………………………………………76
c. Darren Batchelor……………………...………………………… 79
d. Brittany Mixon…………………………….……………………..81
e. Tiffany Brooks…………………………..……………………….83
f. Glenda Brooks……………………………...……………………85
g. Jennifer Roeder……………………………..……………………86
h. Michael Raley………………………………..…………………..87
i. Harvey Glen Bush………………………………………………. 91

057

D. By eliciting harmful evidence in the defense’s case in chief, counsel
rendered deficient performance that prejudiced Calhoun…………..…..92
1. Counsel rendered deficient performance that prejudiced Calhoun by
eliciting harmful evidence from Glenda Brooks………………….…92
2. Counsel rendered deficient performance that prejudiced Calhoun by
eliciting harmful evidence from Michael Raley…………………….94
V.

THE CIRCUIT COURT ABUSED ITS DISCRETION BY NOT
ALLOWING CALHOUN TO AMEND HIS MOTION FOR
POSTCONVICTION RELIEF………………………………………....…. 96
A. Newly discovered evidence regarding Robert Vermillion………….…..96
B. Newly discovered evidence regarding Keith Ellis………………….…..98

VI.

THE STATE VIOLATED CALHOUN’S DUE PROCESS RIGHTS BY
PRESENTING MISLEADING EVIDENCE AND ADVANCING FALSE
AND MISLEADING ARGUMENT IN CONTRAVENTION OF
GIGLIO/NAPUE………………………………………...………………103

VII. THE CIRCUIT COURT VIOLATED CALHOUN’S RIGHT TO DUE
PROCESS WHEN IT ADOPTED THE STATE’S PLEADINGS IN LIEU
OF CONDUCTING AN INDEPENDENT AND IMPARTIAL
ANALYSIS……………………………………………………...…..……107
CONCLUSION AND RELIEF SOUGHT……………………………..………..111
CERTIFICATE OF FONT…………………………………………………..…..112
CERTIFICATE OF SERVICE…………………………………………..………112

058

REQUEST FOR ORAL ARGUMENT
Johnny Mack Sketo Calhoun has been sentenced to death. Resolution of the
issues presented will determine whether he lives or dies . This Court has not
hesitated to allow oral argument in other capital cases in a similar posture. A full
opportunity to address the issues through oral argument would be more than
appropriate, given the seriousness of the claims at issue and the stakes involved .
Calhoun, through counsel, respectfully requests this Court hear oral argument in
this appeal.
PRELIMINARY STATEMENT
This proceeding involves the appeal of the circuit court’s denial of
Calhoun’s motion for post-conviction relief following an evidentiary hearing. The
motion was brought pursuant to Fla. R. Crim. P. 3.851. The following symbols will
be used to designate references to the record in this appeal:
“R.” – record on direct appeal to this Court;
“T.” – trial transcript on direct appeal to this Court;
“PCR.” – postconviction record on appeal to this Court;
“EH.” – evidentiary hearing transcript on appeal to this Court
Additional citations will be self-explanatory.

059

TABLE OF AUTHORITIES
Cases
Aguirre-Jarquin v. State, 202 So. 3d 785 (Fla. 2016)………………………..…..102
Babb v. Edwards, 412 So. 2d 859 (Fla. 1982)………………………………….…21
Ballard v. State, 923 So. 2d 475 (Fla. 2006)……………………………………....33
Barber v. State, 775 So. 2d 258 (Fla. 2000)………………………….……………69
Bell v. State, 965 So. 2d 48 (Fla. 2007)………………………………………...…74
Blake v. State, 180 So. 3d 89 (Fla. 2014)………………………………………….78
Bogle v. State, 213 So. 3d 833 (Fla. 2017)…………………………………….…..47
Bouie v. State, 559 So. 2d 1113 (Fla. 1990) ………………………………………21
Brady v. Maryland 373 U.S. 83 (1963)………………………………...…….passim
Brown v. State, 892 So. 2d 1119 (Fla. 2d DCA 2004)……………………….……56
Bruton v. United States, 391 U.S. 123 (1968). ………………………………...…91
Butler v. State, 100 So. 3d 638 (Fla. 2012)………………………………………..78
Calhoun v. Florida, 135 S. Ct. 236 (2014) ………………………………………...2
Calhoun v. State, 138 So. 3d 350 (Fla. 2013)……………………….………..passim
Cardona v. State, 826 So. 2d 968 (Fla. 2002)………………….…………….……35
Code v. Montgomery, 799 F. 2d 1481 (11th Cir. 1986)……………………..…….41
Commonwealth v. Beasley, 967 A.2d 376 (Pa. 2009)……………………………108
Connor v. State, 979 So. 2d 852 (Fla. 2008)………………………………………78
Cuthbertson v. Biggers Bros., Inc., 702 F. 2d 454 (4th Cir. 1983)………………108
Cuyler v. Sullivan, 446 U.S. 335 (1980) …………………………….……20, 21, 22
Dausch v. State, 141 So. 2d 513 (Fla. 2014)………………………………………33
Davis v. State, 136 So. 3d 1169 (Fla. 2014)…………………………………...…..78
Duckett v. State, 231 So. 3d 393 (Fla. 2017)………………………………...…..103
Eure v. State, 764 So. 2d 798 (Fla. 4th DCA 2000)……………………………….67

060

Ex Parte v. Scott, 2011 WL 925761 (Ala. 2011)………………………………...108
Everett v. State, 54 So. 3d 464 (Fla. 2010)………………………………………..40
Fitzpatrick v. State, 118 So. 3d 737 (Fla. 2013)……………………….……..passim
Gaskin v. State, 822 So. 2d 1243 (Fla. 2002)…………………………………….111
Giglio v. United States………………………………………………...103, 105, 107
Glock v. Moore, 776 So. 2d 243 (Fla. 2001)…………………………….……….109
Grim v. State, 971 So. 2d 85 (Fla. 2007)………………………………………….78
Groover v. State, 640 So. 2d 1077 (Fla. 1994)…………………………………..109
Guzman v. State, 868 So. 2d 498 (Fla. 2003)………………………...……..103, 106
Garcia v. State, 622 So. 2d 1324 (Fla. 1993)…………………………….………..36
Hildwin v. State, 141 So. 3d 1178 (2014) ………………………………...………25
Hodges v. State, 885 So. 2d 338 (Fla. 2004)………………………………………67
Hoffman v. State, 800 So. 2d 174 (Fla. 2001)………………………….………….35
Huff v. State, 622 So. 2d 982 (Fla. 1993) ………………………………...…….2, 97
Hurst v. Florida, 136 S. Ct. 616 (2016) ………………………………...….2, 3, 109
Ingram v. State, 51 So. 3d 1119 (Ala. 2010)……………………………...……..108
Johnson v. State, 117 So. 3d 1238 (Fla. 3d DCA 2013)…………………………..69
Jones v. State, 709 So. 2d 512 (Fla. 1998) ……………………………..…25, 30, 37
Kegler v. State, 712 So. 2d 1167 (Fla. 2d DCA 1998)………………….…………73
Kelly v. State, 198 So. 3d 1077 (Fla. 5th DCA 2016)…………………..…………73
Kilgore v. State, 55 So. 3d 487 (Fla. 2010)……………………………………..…78
Kyles v. Whitley, 514 U.S. 419 (1995)………………………………………...…..35
Kormondy v. State, 983 So. 2d 418 (Fla. 2007)………………………..………….78
Larzelere v. State, 676 So. 2d 394 Fla. 1996) ………………….………..………..22
Lightbourne v. State, 742 So. 2d 238 (Fla. 1999) ……………………..….………30

061

Magill v. Dugger, 824 F. 2d 879 (11th Cir. 1987)……………………..………….80
Moore v. State, 820 So. 2d 199 (Fla. 2002)…………………………………...…..96
Napue v. Illinois, 360 U.S. 264 (1959)…………………………..………………103
Nelson v. State, 123 So. 3d 1195 (Fla. 4th DCA 2012)……………………….….41
Occhicone v. State, 768 So. 2d 1037 (Fla. 2000)………………………….………40
Patton v. State, 784 So. 2d 380 (Fla. 2000)………………………………..…….109
Phillips v. Ficarra, 618 So. 2d 312 (Fla. 4th DCA 1993)……………….………..69
Pritchett v. State, 884 So. 2d 417 (Fla. 2d DCA 2004)………………………….102
Puglisi v. State, 112 So. 3d 1196 (Fla. 2013)…………………………………..….52
Ramirez v. State, 854 So. 2d 805 (Fla. 2d DCA 2003)…………………………..102
Reed v. State, 875 So. 2d 415 (Fla. 2004)……………………………….…….59, 60
Rogers v. State, 782 So. 2d 373 (Fla. 2001)……………………….…………..35, 37
Rompilla v. Beard, 545 U.S. 374, 383 (2005)…………………………….……….74
Rose v. State, 675 So. 2d 567 (Fla. 1996)………………………………...……….56
Ross v. State, 726 So. 2d 317 (Fla. 2d DCA 1988)…………………….………….67
Sochor v. State, 883 So. 2d 766 (Fla. 2004)…………………………..……….42, 69
Smith v. State, 213 So. 3d 722 (Fla. 2017)………………………………….……..96
Spann v. State, 985 So. 2d 1059 (Fla. 2008)…………………………..…………..78
Spencer v. State, 615 So. 2d 688 (Fla. 1993) …………………………...………….1
State v. Coney, 845 So. 2d 120 (Fla. 2003)………………………………………..19
State v. Gad, 27 So. 3d 768 (Fla. 2d DCA 2010)…………………………....…….31
State v. Glatzmayer, 789 So. 2d 297 (Fla. 2001)………………………...………107
Strickland. Washington, 466 U.S. 668 (1984) ……………………….………passim
State v. Williams, 127 So. 2d 890 (Fla. 1st DCA 2013)……………..…………….69
Strickler v. Greene, 527 U.S. 263 (1999)……………………………………...…..35

062

Swafford v. State, 125 So. 3d 760 (Fla. 2013) ………………………...……..passim
Tanzi v. State, 94 So. 3d 482 (Fla. 2012)………………………………...……96, 97
Tyler v. State, 793 So. 2d 137 (Fla. 2d DCA 2001)……………………….………72
United States v. Campbell, 491 F. 3d 1306 (11th Cir. 2007) ……………………..22
United States v. Agurs, 427 U.S. 97 (1976)……………………………………...103
United States v. Bagley, 473 U.S. 667 (1985)…………………………….………35
United States v. Scheer, 168 F.3d 445 (11th Cir. 1999)…………………………..36
Wiggins v. Smith, 539 U.S. 510 (2003)………………………………….…….40, 42
Williams v. Taylor, 529 U.S. 362 (2000)………………………………………….35
Williams v. Thaler, 864 F. 3d 597 (5th Cir. 2012)…………………….…………..61
Young v. State, 739 So. 2d 553 (Fla. 1999)………………………………………..35
Statutes
Fla. Stat. § 90.401 (2011)……………………………………………………….....71
Fla. Stat. § 90.608 (2011)………………………………………………………….78
Fla. Stat. § 921.141(7) (2011)……………………………………….…………….68
Other Authorities
ABA guidelines for the Appointment and Performance of Defense Counsel in
Death Penalty Cases ………………………………………………………….…..23
Fla. R. Crim. P. 3.112 …………………………………………….…………….…23
Fla. R. Crim. P. 3.851…………………………………….………….………..passim
Rule Regulating the Florida Bar 4-1.7(a)(2)………………………..……………..21
Rule Regulating the Florida Bar 4-1.10…………………………………………...22

063

STATEMENT OF THE CASE AND FACTS
I.

PROCEDURAL HISTORY
The Circuit Court of the Fourteenth Judicial Circuit in and for Holmes County,

Florida entered the judgments of conviction and sentence at issue.
On December 10, 2010, Calhoun was arrested in Bonifay, Florida, four days
after he and the victim, Mia Brown, were reported missing. Calhoun was indicted
for the first-degree murder of Mia Brown on February 18, 2011. The circuit court
appointed the Office of the Public Defender to represent Calhoun.
Calhoun pled not guilty to all charges. (R. 42). Trial commenced on February
20, 2012, merely a year after Calhoun was indicted. (T. 2). On February 28, 2012,
the jury returned a verdict finding Calhoun guilty as charged . (R. 960). The penalty
phase of Calhoun’s trial started on February 29, 2012. (T. 1276).

The jury

recommended death by a vote of 9-3 the same day. (T. 1373). A Spencer1 hearing
was held on August 4, 2012. (T. 1251). The circuit court followed the jury’s
recommendation and sentenced Calhoun to death on May 18, 2012. (T. 1308). This
Court affirmed Calhoun’s convictions and sentence on direct appeal . Calhoun v.
State, 138 So. 3d 350 (Fla. 2013). Relying on the mostly unchallenged evidence of
the State, the Court, applying a special standard of review unique to cases based
wholly on circumstantial evidence, found that the evidence was inconsistent with

1

Spencer v. State, 615 So. 2d 688 (Fla. 1993).
064

Calhoun’s hypothesis of innocence that another individual committed the murder .
Id. at 367. Calhoun filed a Petition for Writ of Certiorari in the United States
Supreme Court, which was denied on October 6, 2014. Calhoun v. Florida, 135 S.
Ct. 236 (2014).
Calhoun filed his Motion to Vacate Judgments of Conviction and Sentence
with Special Request for Leave to Amend pursuant to Fla. R. Crim. P. on September
25, 2015. (PCR. 460).2 The State filed its response on November 24, 2015. (PCR.
1138). The circuit court held a Huff3 hearing on April 21, 2016. (PCR. 3928).
Following the Huff hearing, the circuit court issued an order, granting Calhoun an
evidentiary hearing on some issues and denying a hearing on the remaining issues .
(PCR. 1343).
An evidentiary hearing commenced on September 15, 2017, and continued on
September 19 and 20. On November 1, 2017, Calhoun filed a sixth Motion to
Amend, seeking to amend with a claim of newly discovered evidence. (PCR. 2418).

2

Calhoun filed the following Motions to Amend: (1) February 11, 2016 Motion to
Amend with a claim premised upon Hurst v. Florida, 136 S. Ct. 616 (2016) (PCR.
1138); (2) August 16, 2016 Motion to Amend with a claim based on a conflict of
interest (PCR. 1378); (3) May 22, 2017 Motion to Amend with an additional claim
of ineffective assistance of counsel (PCR. 1535); (4) June 22, 2017 Motion to
Amend seeking to add one claim based on a Brady v. Maryland, 83 S. Ct. 1194
(1963)violation and a second claim based on newly discovered evidence (PCR.
1845); (5) September 1, 2017 Motion to Amend with a claim based on newly
discovered evidence. (PCR. 2003).
3
Huff v. State, 495 So. 2d 145 (Fla. 1986).
065

Calhoun also sought to reopen the evidentiary hearing to present evidence related to
the claim. The circuit court filed an order denying relief on all claims on January 3,
2018. (PCR. 2557).
II.

CALHOUN’S TRIAL4
A. The murder of Mia Brown
In December of 2010, Mia Brown worked as a clerk at Charlie’s Deli in

Esto, Florida. (T. 545). On the afternoon of December 16, 2010, Harvey Glen Bush
was at Charlie’s, talking to Mia. According to Bush, Calhoun arrived around 1:30
p.m., interrupting his conversation with Mia to ask her for a ride later that evening,
which she agreed to provide. (T. 593-94). Jerry Gammons testified that on the
evening of December 16, around 8:40 p.m., a young lady in a light-colored car
knocked on his door looking for Calhoun’s residence . (T. 606; 612). This was the
last time she was seen alive. Four days later, her burned car was found in the woods
in Alabama, with her remains in the trunk.
B. The State’s case
The State’s theory was that after asking Mia Brown for a ride in broad
daylight and in front of witnesses, Calhoun proceeded to kidnap and murder her. The
State did not introduce any evidence of a motive. The State told the jury that, “We

4

The circuit court granted Calhoun a new penalty phase pursuant to Hurst v. State,
202 So. 3d 40 (Fla. 2016). Accordingly, Calhoun’s recitation of the facts and
argument are all focused on the guilt phase of his capital trial.
066

can’t know what happened that night; the evidence doesn’t tell us.” (T. 1151).
Motive aside, the State did not introduce any direct evidence implicating Calhoun,
either in the form of an eyewitness testimony, an admission, or otherwise .
The State opened its case by establishing that Mia Brown was a sweet and
pretty girl. Bush was the only witness who testified to actually seeing Calhoun and
Mia together, twelve hours before they both went missing . (T. 595). The State put
on the testimony of Jerry Gammons to place Mia in the vicinity of Calhoun’s trailer
that evening. No witnesses placed Mia Brown inside Calhoun’s trailer.
To place Mia inside Calhoun’s trailer the State relied upon DNA evidence and
a photograph found on an SD card belonging to Brown . Trevor Seifret, a crime
laboratory analyst with the Florida Department of Law Enforcement (FDLE)
testified regarding the DNA evidence collected from Calhoun’s trailer . (T. 862).
Seifret testified that there was no way to establish when DNA is deposited on an
item, nor is there any way to establish how long DNA has been on an item. (T. 89293). Seifret also testified there is no way to establish where an item was located
when the DNA in question was deposited on it. (T. 893).
Seifret testified that, through known samples, he was able to develop DNA
profiles for Brittany Mixon, Calhoun, and Mia Brown.5 Seifret testified that Mia

5

Seifret was also able to develop a DNA profile for Doug Mixon through a buccal
swab taken by law enforcement. (EH. 174). Mixon was included as a possible
contributor to the DNA mixture found on State’s exhibit 21-X, a pink shirt that
067

Brown’s DNA was on a duct tape roll and a quilt found inside Calhoun’s trailer .6
Both tested positive during presumptive testing for the presence of blood . (T. 870,
876). Mia Brown’s DNA was found on roughly eight hairs found on various pieces
of clothing taken from Calhoun’s trailer. (T. 881, 883, 885, 887, 890). Seifret
testified that there is no way to establish the force necessary to remove a hair that
still contained DNA from a person’s head. (T. 895). The State did not call any
witnesses to established that that duct tape belonged to Calhoun, or that Mia Brown’s
DNA was deposited on it while she was inside Calhoun’s trailer . No witnesses
testified that Mia Brown’s hair was actually pulled out of her hair, or pulled out by
Calhoun on the night of December 16, 2010. The DNA evidence was the only
evidence the State introduced to put Calhoun and Mia Brown together, and to
support its theory that Brown made it inside Calhoun’s trailer, where a violent
struggle then ensued.
The State presented a photograph taken from an SD card belonging to Mia
Brown. (T. 937). The lead investigator, Lt. Raley testified that he located the SD
card during a search of Calhoun’s trailer. By the time the SD card was seized, at

also yielded four hairs belonging to Mia Brown. (T. 886-87; EH. 176) The jury
remained unaware of this fact throughout trial.
6
Calhoun was included as a possible minor contributor to the mixture found on the
roll of duct tape. (T. 872). Seifret also testified that there was a possible third
contributor.
068

least four people had been inside Calhoun’s trailer, if not more. (T. 628, 1011, 1013,
1018)7. None of those four people reported seeing an SD card.
After seizing the SD card, Lt. Raley placed it in his laptop and accessed the
photographs. (T. 936). At trial. Lt. Raley testified, without objection, that the
photograph in question was of the ceiling of Calhoun’s trailer. (T. 937). The State
then called FDLE analyst Jennifer Roeder, who worked in the digital evidence
section as a crime laboratory analyst. (T. 915). Roeder, using a known photograph
also taken from the SD card, opined that the photograph purported to be of Calhoun’s
trailer was taken on December 17, 2010, between 3:30 and 4:00 a.m. (T. 921). This
evidence, which helped form the basis of the State’s timeline, went unchallenged by
the defense.
Mia Brown’s car and body were both found in Alabama . No witnesses
testified to seeing Calhoun in Alabama with Mia. The State called Sherry Bradley,
a clerk who worked at a convenience store near Hartford, Alabama. Bradley testified
that on the morning of December 17, 2010, Calhoun came into her store to buy a
pack of cigarettes. She testified that he was covered in scratches and dried blood,
and that he was driving a white car with Florida plates. (T. 649, 651-52).8 The State

7

John Sketo, Terry Ellenburg, Brittany Mixon and Deputy Chuck White, in that
order, all made entry into Calhoun’s trailer before Lt. Raley seized the SD card.
8
Bradley provided this information to law enforcement on December 29, 2010,
over a week after Calhoun’s arrest and after she saw the missing persons flier and
read about the case in the newspaper. (EH. 107-108; EH. Exhibit 12).
069

also presented Darren Batchelor, who testified that he too saw Calhoun at the
convenience store on the morning of December 17. (T. 677). Batchelor claimed to
know Calhoun from school, despite the fact that Batchelor was 12 years older than
Calhoun. (T. 677).9
The State put on Tiffany Brooks and Glenda Brooks, a mother and daughter
who lived in Alabama. Tiffany testified that on the morning of December 18, 2010,
she found Calhoun sleeping in her family’s shed. (T. 780). She also testified, without
objection, that she received a telephone call from her boyfriend, Steven Bledsoe,
who informed her that Calhoun was featured in a missing persons flier, along with
Mia Brown. (T. 784) The State then elicited from Tiffany that Calhoun claimed to
not know who Mia Brown was. (T. 784). Glenda Brooks testified to nearly the same
thing as Tiffany, including Bledsoe’s telephone call and Calhoun’s response .
Counsel lodged no hearsay objections, and the State went on to argue that this was
evidence of Calhoun’s consciousness of guilt. (T. 1158-60).
Calhoun was arrested on December 20, 2010, after he was located in his trailer
by Officer Harry Hamilton. (T. 928). After he was taken into custody, he was
subjected to an interrogation by Ofc. Hamilton and Lt. Raley. (T. 952). It was during
this interrogation that Calhoun told law enforcement, “[Y]’all was tightening up the

9

The jury never knew about the vast age difference between Batchelor and
Calhoun, which would have placed Calhoun in kindergarten while Batchelor was a
senior in high school. (EH. 113).
070

noose last night [December 19, 2010] when I was in the woods man” and “I’d say
more than three times a deputy could have reached out and done like that .” (EH.
Exhibit 5). Lt. Raley asked Calhoun where he was when this happened, to which
Calhoun responded that he was “Down there, close to the Bethlehem Campground .”
(EH. Exhibit 5). However, this is not what the jury heard. The State elicited a
handful of lines from Calhoun’s and objected to the entire interrogation being
entered into evidence. Lt. Raley testified that Calhoun confessed to evading and
hiding from law enforcement. (T. 955). Lt. Raley also testified that Calhoun “leaned
over and he made the statement that there were three times that he was close enough
to (tapping on desk) he tapped the side of my leg with his foot.” (T. 955). Calhoun’s
counsel did not clarify when and where Calhoun said this occurred during crossexamination. Without that clarification, the State argued in closing that Calhoun
confessed to being in the woods with law enforcement the afternoon of December
17, 2010, close to Mia Brown’s car, hours after it was set on fire. (T. 1210-11).
Additionally, the State also presented two witnesses who testified to seeing
smoke in Alabama on December 17, 2010, during the late morning hours . (T. 752,
759). The State argued that the smoke these witnesses spotted was from Mia
Brown’s burning car. The State did not introduce any other evidence to link the
smoke these witnesses saw with Brown’s burning car.

071

The State relied on the above-mentioned witnesses, as well as several law
enforcement witnesses who conducted various searches and seizures, to prove its
case. The State did not present the jury with a motive, nor did it present the jury
with an admission or any direct evidence to tie Calhoun to Mia Brown’s murder .
C. The Defense’s case
Calhoun was represented by the Office of the Public Defender for the
Fourteenth Judicial Circuit. At the time of appointment, Walter Smith was the de
facto chief of capital, yet Kimberly Jewell was assigned to Calhoun’s case. (EH. 12).
At trial, Calhoun called ten witnesses in his defense, two of which were state
witnesses that counsel re-called in the defense’s case. Through these witnesses,
Calhoun presented evidence that there were suspicious activities at the junkyard
where Calhoun lived on the evening of December 16 and the early morning hours of
December 17, 2010. Three neighbors testified to hearing loud noises coming from
the junkyard. (T. 992, 996, 998). One of these neighbors, Darlene Madden, testified
that the noise sounded like “a car wreck.” (T. 999).
Calhoun’s father, John Sketo, testified that there was evidence of foul play at
the junkyard when he arrived to work on the morning of December 17, 2010 .10
According to Sketo, the door to Calhoun’s trailer was wide open, as was the door to

Terry Ellenburg, John Sketo’s nephew and business partner, testified to similar
information. (T. 1049).

10

072

a truck parked in front of the trailer. (T. 1006-07). It appeared that somebody had
thrown the contents of the truck on the ground . (T. 1007). The junkyard’s Bobcat
had been hotwired and moved, and there were suspicious tire tracks that indicated a
vehicle had been pushed off the loading dock. (T. 1010). When he inspected the
inside of Calhoun’s trailer it looked like it had been ransacked. (T. 1011). Sketo then
testified that as he was waiting for law enforcement to arrive, Brittany Mixon
showed up. (T. 1016). Despite telling Brittany not to go into the trailer because it
had been burglarized, she went in and remained inside for a minute or two . (T. 1019).
After emerging from the trailer, Brittany grabbed a puppy, threw it in the back of her
truck, and left. (T. 1020).
After Brittany left, Deputy White arrived. (T. 1022). Sketo asked Deputy
White to take fingerprints from the Bobcat, which he failed to do . (T. 1023). Sketo
then took Deputy White into Calhoun’s small trailer and noticed for the first time, a
shotgun. (T. 1026). Sketo testified that the shotgun was not in the trailer before
Brittany went inside. (T. 1026).
Counsel then called Glenda Brooks, who had already testified during the
State’s case in chief. During the defense’s case, counsel elicited from Brooks that
after she heard about the missing persons flier, she became uncomfortable with
Calhoun being in the house, so she asked him to leave. (T. 1076). Counsel also called
Lt. Raley, who had already testified twice during the State’s case in chief . Counsel

073

elicited from Lt Raley that a piece of a tag bracket and a piece of cardboard with an
oil stain was found at a property in Alabama owned by Calhoun’s family. (T. 108384). The property where he found the tag bracket was between Calhoun’s trailer and
the site where Mia Brown’s car was burned. (T. 1090). Lt. Raley went on to testify
that Mia Brown’s family told him the tag bracket was consistent with the one located
on Brown’s car, and that her car had an oil leak.
At no point during the Defense’s case did counsel call Doug Mixon or
anybody related to Doug Mixon’s alibi.
III.

The Evidentiary Hearing
A. Newly discovered evidence implicates Doug Mixon as a viable
suspect

At Calhoun’s evidentiary hearing, numerous witnesses testified to actions and
statements of Doug Mixon, which tend to implicate him in the murder of Mia Brown.
Natasha Simmons testified to a suspicious encounter she had with Mixon during the
time surrounding Mia Brown’s murder. (EH. 328). According to Simmons, she
picked up Mixon and her ex-boyfriend, Charley Utley, close to the Florida-Alabama
line. When she arrived, Mixon came running to the car, shirtless, covered in blood,
with an empty gas jug in hand. (EH. 328). Mixon appeared agitated and kept
repeating “That goddamn Gabby” as she drove the men to Geneva, Alabama, per
their demand. (PCR. 2439; EH. 329).

074

Additionally, Robert Vermillion, a cousin of Brandon Brown, testified to
statements made by Mixon in July of 2016. (EH. 362). According to Vermillion,
Mixon told him “I know I’ve done a lot of things I’m not proud of” and asked
Vermillion to forgive him. (EH. 362). Assuming Mixon’s statement to be related to
Mixon’s involvement in Mia Brown’s murder, Vermillion told Mixon that he could
not forgive him for anything, instead directing him to seek forgiveness from Brandon
Brown. (EH. 362). Mixon did not respond, but grew hysterical. (EH. 364). Mixon
then suffered from a heart attack and was removed from the house via ambulance, a
fact that Mixon himself confirmed at the evidentiary hearing. (EH. 310-11).
B. Doug Mixon’s alibi has been conclusively refuted and his alleged
alibi witness says Mixon confessed to murdering Mia Brown
Jose Contreras served as Doug Mixon’s alibi when he was questioned by
law enforcement as to his whereabouts during the time period surrounding Mia
Brown’s disappearance and murder. (EH. Exhibit 12). According to Mixon, he was
with his girlfriend, Gabby Faulk, at Contreras’ house in Alabama the night Mia
Brown disappeared. (EH. Exhibit 12).
Contreras testified at Calhoun’s evidentiary hearing. Contreras was adamant
that Doug Mixon was not with him the night Mia Brown went missing, nor has
Mixon ever spent the night at Contreras’ house. (EH. 342, 343). What’s more,
Contreras testified that Mixon actually confessed to him that he was responsible for
Mia Brown’s murder. (EH. 345). Counsel testified that she never investigated

075

Mixon’s alibi, though her strategy was to blame the murder on Doug Mixon . (EH.
54; 170-72; 216; 221; 289-91).
C. Expert witnesses have cast doubt on the veracity of the State’s
evidence and arguments
At trial, the State highlighted the scratches found on Calhoun’s body
and argued to the jury that they were fingernail scratches, inflicted by Mia Brown
while she was fighting for her life. (T. 1168, 1153). Counsel told the jury the
scratches were caused by briars, an argument the State easily cast aside.
At his evidentiary hearing, Calhoun presented the testimony of Dr . Edward
Willey, a forensic pathologist. Dr. Willey testified as to the specific characteristics
generally associated with fingernail scratches. (EH. 245, 247, 260). After reviewing
a number of photographs provided to him by Calhoun, and utilizing his computer to
enhance those photographs, Dr. Willey was able to opine that it was not at all
probable that any of the scratches were caused by fingernails. (EH. 249-256). What’s
more, Dr. Willey testified a briar patch was a perfectly reasonable explanation of
how Calhoun obtained the scratches. (EH. 257).
Calhoun also presented the testimony of John Sawicki, an expert in digital
forensic evidence to discuss the SD card taken into evidence and the calculation that
stemmed from photographs discovered on it. Sawicki testified that by improperly
accessing the SD card, Lt. Raley altered the metadata of the photographs. (EH. 380).
According to Sawicki, this was problematic because the metadata in Calhoun’s case

076

was “critical”. (EH. 379). Sawicki went on to testify that Lt. Raley’s alteration of
the evidence affected the calculation method employed by the State, which it used
to argue that Mia Brown was inside Calhoun’s trailer on December 17, 2010, in the
early morning hours.
D. Trial counsel was unable to articulate strategic reasons or a
strategy based on sound, professional judgment, for most of the
alleged errors and omissions
During the evidentiary hearing, counsel addressed Calhoun’s allegations that
she was deficient in her performance. In many instances, counsel was unable to
articulate a strategy for why she failed to take certain actions or why she chose to
pursue the actions she did take. (EH. 156; 170-71, 184-85). In some instances,
counsel conceded that she probably should have taken the course of action Calhoun
alleged she failed to do. (EH. 105, 115, 132, 135, 176).
In other instances, counsel advanced a strategic reason for her actions . (EH.
57-60; 73; 84; 138; 145; 148-152; 177-78).

In each instance where counsel

articulated a strategic reason, the circuit court’s order does not contain any analysis
of whether counsel’s decision was based on sound, professional judgment.
IV.

The circuit court’s denial of relief

On January 3, 2018, the circuit court entered an order denying Calhoun’s

077

postconviction motion in its entirety. The bulk of the circuit court’s order, including
its purported findings, was copied and pasted directly from the State’s various
answers and its written closing argument.
SUMMARY OF THE ARGUMENT
ARGUMENT I: Calhoun was deprived of his fundamental right to conflictfree counsel. During the course of his case, trial counsel was paired with Attorney
Henry Mark Sims, and the two comprised the capital division of the Office of the
Public Defender for the Fourteenth Judicial Circuit. Sims had a longstanding
personal relationship with the victim, Mia Brown, and her family. Due to this
relationship, Sims determined a conflict of interest was present and did not
participate in Calhoun’s defense. Trial counsel, who was only minimally qualified
to serve as lead counsel, did not advise Calhoun or the circuit court of the conflict of
interest within the Public Defender’s Office, and chose to proceed with her
representation of Calhoun. Calhoun was assigned a second chair attorney who had
been a member of the Florida Bar for less than two years, had only handled
misdemeanor cases, and had never received any training geared towards the defense
of capital cases. The circuit court erred finding Calhoun was not denied his Sixth
Amendment right to counsel due to a conflict of interest on the part of the Public
Defender’s Office. The circuit court incorrectly found that no conflict of interest
existed, ignoring the facts and well-established law holding otherwise.

078

ARGUMENT 2: Newly discovered evidence implicates Doug Mixon in the
death of Mia Brown. Mixon was investigated by law enforcement during the search
for Mia Brown and trial counsel firmly believed him to be a viable alternate suspect,
so much so that her defense was to blame the murder on Mixon. Calhoun has
discovered that Mixon was seen running with a gas can, bloody and agitated, close
in time to when Mia Brown was burned in the trunk of her car with the use of an
accelerant. Calhoun has also discovered evidence that Mixon has made admissions
that he was responsible for the murder. When all of these new facts, together with
all of the evidence that could be presented at a new trial, are weighed against the
State’s circumstantial evidence case, the “total picture” is so different that there is a
reasonable doubt as to Calhoun’s guilt.
ARGUMENT 3: In violation of Brady, the State suppressed exculpatory
information that a witness, Natasha Simmons, informed the Sheriff of Geneva
County, Greg Ward, that she had seen Mixon running with a gas can, bloody and
agitated, close in time to when Mia Brown was burned in the trunk of her car with
the use of an accelerant. Brown’s body was found in Geneva County and the Geneva
County Sheriff’s Office was actively involved in the investigation of her death.
Simmons’ statement was never disclosed to Calhoun’s defense team. Had Calhoun
been aware of her suspicious encounter with Mixon, he could have used it to cast

079

doubt on his guilt and strengthen his defense at trial that Doug Mixon was
responsible for the death of Mia Brown.
ARGUMENT 4: Calhoun’s lawyer failed to provide effective assistance of
counsel at the guilt phase of his capital trial. Calhoun was able to establish a
pervasiveness of deficient performance on the part of counsel. Counsel failed to
conduct a competent, reasonable investigation into Calhoun’s case. Counsel’s
strategy was to imply Doug Mixon was responsible for the murder of Mia Brown,
yet counsel took no steps to investigate Mixon’s alibi. The vast majority of the
State’s witnesses had problems inherent in their testimony that went unchallenged.
Counsel failed to utilize available impeachment material, failed to object to
impermissible, inflammatory, and prejudicial testimony and evidence, elicited
damaging testimony in her own case-in-chief and failed to clarify misleading
testimony and false argument. Counsel also neglected to hire or consult with any
experts to challenge the State’s forensic evidence. Effectively, the State’s case was
not subjected to any adversarial testing.
Had counsel subjected the State’s case to a true adversarial testing as required
by the United States Constitution, she would have been able to raise substantial and
reasonable doubt as to Calhoun’s guilt. Counsel’s errors and omissions undermine
the confidence in the outcome and independently warrant a new trial.

The

cumulative effect of the multiple instances of ineffective assistance of counsel

080

demonstrate a breakdown in the adversarial process and render the result of
Calhoun’s trial unreliable.
ARGUMENT 5: The trial court abused its discretion when it denied two
Motions to Amend Calhoun’s postconviction motion with claims of newly
discovered evidence. In addition to attaching affidavits to both Motions to Amend,
Calhoun also alleged the facts with specificity and detailed why relief was
warranted. This is not a case where the facts asserted in either amended motion were
vague and nonspecific, nor were they readily available to counsel at the time
Calhoun’s initial 3.851 motion was filed, or even at the time that the evidentiary
hearing was conducted. This Court should remand this issue back to the circuit court
for a full and fair evidentiary hearing on the matter.
ARGUMENT 6: The State committed a Giglio violation by eliciting
misleading testimony from the lead investigator regarding what Calhoun said during
his interrogation with police. The State then took that misleading testimony and
falsely argued in closing that Calhoun confessed to being in the woods, right by Mia
Brown’s car, within hours of it being burned. The circuit court erroneously found
that the State did not knowingly present false information to the jury, but rather
“merely implied it incorrectly.” Implying something you know to be false and
explicitly stating something you know to be false are one and the same. The circuit
court further erred in shifting the burden to Calhoun to prove the false testimony was

081

material, when it is the State’s burden to show that the false evidence was harmless
beyond a reasonable doubt. When the proper materiality analysis is conducted, it is
clear that Calhoun’s conviction cannot stand.
ARGUMENT 7: The circuit court violated Calhoun’s right to due process
when it adopted nearly verbatim the State’s written responses and closing argument
in crafting its order denying relief. The circuit court’s order cannot be viewed as the
product of an independent, impartial and reasoned decision, and it should not be
given any deference by this Court.
ARGUMENT
I.

CALHOUN WAS DEPRIVED OF HIS FUNDAMENTAL RIGHT
TO EFFECTIVE COUNSEL AND A FAIR TRIAL DUE TO
COUNSEL’S ACTIVE CONFLICT OF INTEREST.

The trial court erred in denying Calhoun’s claim that he was deprived of his
fundamental right to counsel and a fair trial due to defense counsel’s conflict of
interest.11
At the time of appointment, the Public Defender’s Office was in a period of
transition. (EH. 22). During the course of Calhoun’s case, Walter Smith left the
office and Henry Mark Sims joined. (EH. 12-13). Sims, a former prosecutor, had

11

This issues presents a mixed question of law and fact. When reviewing such
questions, the ultimate ruling must be subject to de novo review but the court’s
factual findings must be sustained if supported by competent, substantial evidence .
See State v. Coney, 845 So. 2d 120 (Fla. 2003).
082

extensive trial experience, including experience handling capital cases. (EH. 13).
Sims was paired with Jewell to work on the office’s capital cases together. (EH. 13,
22).
Despite his extensive experience, Sims was not assigned to work on
Calhoun’s case with Jewell due to his longstanding personal relationship with Mia
Brown and her family. (EH. 22-23, 212, 274). Sims’ conflict of interest was brought
to the attention of Herman Laramore, the elected Public Defender for the Fourteenth
Judicial Circuit, who ultimately made the decision not to withdraw from Calhoun’s
case. (EH. 25-26).
Kevin Carlisle was then assigned as the second chair on Calhoun’s case. (EH.
23, 29, 37). At the time of trial, Carlisle had been admitted to the bar for less than
two years and was assigned to county court, where he handled misdemeanor cases.
(EH. 211). He had never handled a homicide case, let alone a capital murder case,
nor had he attended any Continuing Legal Education (CLE) courses geared towards
the defense of capital cases. (EH. 211).
The right to effective assistance of counsel encompasses the right to be free
from actual conflict. See, Strickland. Washington, 466 U.S. 668 (1984); Cuyler v.
Sullivan, 446 U.S. 335, 349 (1980). “Defense counsel have an ethical obligation to
avoid conflicting representation and to advise the court promptly when a conflict of

083

interest arsis during the course of the [proceedings].” Cuyler at 335; see also, Florida
Rules of Professional Conduct 4-1.7.
In order to show a Sixth Amendment violation, a defendant who raised no
objection at trial must demonstrate an actual conflict of interest affected his lawyer’s
representation. A defendant who shows a conflict of interest affected the adequacy
of representation need not demonstrate prejudice in order to obtain relief . Cuyler at
350.
“As a general rule, a public defender’s office is the functional equivalent of a
law firm. Different attorneys in the same public defender’s office cannot represent
defendants with conflicting interests.” Bouie v. State, 559 So. 2d 1113, 1115 (Fla.
1990). Additionally, public defenders within the same circuit cannot be appointed
to represent adverse defendants, regardless of the location of their offices . Babb v.
Edwards, 412 So. 2d 859, 862 (Fla. 1982). The prohibition against representing a
client while laboring under a conflict of interest extends to conflicts of interest due
to witnesses, parties, or the personal interests of the lawyer. Rule 4-1.7(a)(2) of the
Rules Regulating the Florida Bar states that a lawyer must not represent a client if
“there is a substantial risk that the representation of 1 or more clients will be
materially limited by the lawyer’s responsibilities to another client, a former client,
or a third person or by a personal interest of the lawyer.” (emphasis supplied). When
a lawyer is a member of a firm, a conflict for one lawyer is imputed to all the lawyers

084

in the firm. See, Rules Regulating the Florida Bar: Rule 4-1.10; U.S. v. Campbell,
491 F. 3d 1306, 1311 (11th Cir. 2007)(“if one attorney in a firm has an actual conflict
of interest, we impute that conflict to all the attorneys in the firm, subjecting the
entire firm to disqualification.”).
Sims clearly had a conflict of interest due to his longstanding relationship with
Mia Brown and her family. Because he was employed by the Office of the Public
Defender for the Fourteenth Judicial Circuit, his conflict of interest was imputed to
all of the lawyers within the office, including Jewell.
A defendant can waive his fundamental right to conflict free counsel . For a
waiver to be valid, the record must show that the defendant was aware of the conflict
of interest, that the defendant realized the conflict could affect the defense, and that
the defendant knew of the right to obtain other counsel. Larzelere v. State, 676 So.
2d 394, 403 (Fla. 1996). It is axiomatic that in order to waive a conflict, the
defendant must first be aware that it exists. Calhoun was not. (EH.28). Jewell failed
to disclose the conflict of interest to him and never obtained the required informed
consent to continue her representation. Jewell also failed to advise the circuit court
that a conflict of interest had arisen, despite and ethical obligation to do so . Cuyler
at 346. As a result, Calhoun was unknowingly represented by a lawyer laboring
under an actual conflict of interest.

085

The conflict of interest materially limited the representation Calhoun received
and adversely affected the performance of his trial counsel . Due to the conflict,
Calhoun was denied effective representation by two qualified lawyers, as
contemplated by Fla. R. Crim. P. 3.112, as well as the ABA guidelines for the
Appointment and Performance of Defense Counsel in Death Penalty Cases.
When Jewell was assigned to Calhoun’s case, it was only the second time she
served as lead counsel in a capital case. (EH. 12). During her first capital case as
lead counsel, she had the benefit of Walter Smith serving as her second chair . (EH.
12). After Smith left the office, Jewell and Sims were the only lawyers with capital
experience. (EH. 28). Due to Sims’ longstanding personal relationship with Mia
Brown and her family, he was prohibited from working on Calhoun’s case, meaning
Jewell was unable to consult with Sims on matters of strategy, theories of defense,
and evidentiary issues, and also left her unable to anticipate strategies employed by
the State, as evidenced by her being caught off guard when the State cherry-picked
parts of Calhoun’s statement. Sims’ conflict and subsequent recusal led to Carlisle,
a county court attorney with less than two years of experience, joining the defense
team as the second chair. Carlisle’s role was so limited that he considered himself
to be more of a “bag holder” than a second chair . (EH. 214). In fact, Carlisle’s role
was so minuscule that Earnest Jordan, the lead investigation on the case, did not even
know Carlisle was a member of the defense team. (EH. 273).

086

The circuit court’s order denying relief misapprehends the law regarding
conflicts of interest.12 The circuit court posits that because Sims did not participate
in Calhoun’s case, his “personal interest” did not become a conflict . (PCR. 2600).
The court completely ignores the fact that Sims’ “personal interest”, i .e. Sims’
longstanding relationship with Mia Brown and her family, was in and of itself the
conflict. The circuit court also ignored well-established precedent and the Florida
Bar Rules which hold that when a lawyer is a member of a firm, a conflict for one
lawyer is imputed to all the lawyers in the firm.
Due to the Public Defender’s undisclosed conflict of interest, Calhoun was
represented by only one minimally qualified lawyer .

The conflict hampered

counsel’s ability to zealously advocate for Calhoun, effectively investigate, prepare,
test the evidence, and present a cohesive and sound defense. By demonstrating that
an actual conflict of interest existed and that it adversely affected his representation,
Calhoun has proven that his Sixth Amendment right to effective representation has
been violated. Relief in the form of a new trial is required.
II.

NEWLY DISCOVERED EVIDENCE REGARDING DOUG MIXON
SO WEAKENS THE CASE AGAINST CALHOUN THAT IT
CREATES A REASONABLE DOUBT AS TO HIS GUILT.

The relevant portion of the circuit court’s order was not written by the circuit
court at all. Rather, with the exception of two paragraphs, it is taken verbatim from
the State’s closing argument. (PCR. 2483-2487)

12

087

Two requirements must be met in order to set aside a conviction or sentence
because of newly discovered evidence. See, Hildwin v. State, 141 So. 3d 1178, 1184
(2014), citing Jones v. State, 709 So. 2d 512, 521 (Fla. 1998). First, the evidence
must not have been known by the trial court, the party, or counsel at the time of trial,
and it must appear that the defendant or his counsel could not have known of it by
the use of due diligence. Second, the newly discovered evidence must be of such a
nature that it would probably produce an acquittal on retrial. Id. “Newly discovered
evidence satisfies the second prong of the Jones test if it ‘weakens the case against
[the defendant] so as it give rise to a reasonable doubt as to his culpability’ .” Id.,
citing Jones, 709 So. 2d at 526.
“[T]he postconviction court must consider the effect of the newly discovered
evidence, in additional to all of the admissible evidence that could be introduced at
a new trial.” Hildwin, 141 So. 2d at 1184, citing Swafford v. State, 125 So. 3d 760,
775-76 (Fla. 2013). “In determining the impact of the newly discovered evidence,
the court must conduct a cumulative analysis of all the evidence so there is a ‘total
picture’ of the case and ‘all the circumstances of the case’.” Id.13

13

For claims based on newly discovered evidence, this Court reviews a court
court’s findings of fact, credibility determinations, and the conclusions about the
weight of the evidence to determine whether they are supported by competent,
substantial evidence. See Swafford v. State, 125 So. 3d 760 (Fla. 2013). Legal
conclusions and application of law to those facts are reviewed de novo. See Id.
088

A. The Newly Discovered Evidence14
1. Natasha Simmons
Natasha Simmons testified at the evidentiary hearing that either the morning
before or the morning after she heard of Mia Brown’s disappearance, she received a
telephone call from her ex-boyfriend, Charley Utley. Utley told her that he and a
friend ran out of gas near Bonifay, Florida and requested that she come and pick
them up. (EH. 323-27, 330, 333). When she arrived at the location Utley directed
her to, she saw Utley and another man running towards her car from the north, gas
jug in hand. (EH. 328). Both men got into Simmons’ car and the other man
introduced himself as Doug Mixon. (EH. 328). Mixon was shirtless and had blood
all over his chest. (EH. 328). Utley was wearing a white tank top and had scratches
on his shoulder with a blood smear. (EH. 328).
As Simmons went to pull into a gas station to get the men gas, they told her
to keep driving and to take them to Geneva, Alabama . (EH. 329). Simmons

14

Following the evidentiary hearing in this case, Calhoun discovered additional
evidence of another confession by Doug Mixon. He filed a motion, seeking to
amend his postconviction motion and reopen the evidentiary hearing on November
1, 2017, which was denied by the circuit court. (PCR. 2418, 2437). The crux of the
new claim is that Doug Mixon confessed to an inmate named Keith Ellis at the
Graceville Correctional Facility. Mixon claimed that he killed Mia Brown because
she was “messing around” with his daughter’s boyfriend. Ellis also provided new
information that Doug Mixon admitted to framing Calhoun for Mia Brown’s
murder. (PCR. 2424-2429). The denial of his motion to amend is addressed in
Claim V, infra.
089

described Utley as frantic. (EH. 329). Mixon was calm in comparison, but kept
repeating “That goddamn Gabby, that goddamn Gabby.” (PCR. 2439).

Simmons

drove Utley and Mixon to an apartment complex in Geneva, where they got out of
the car, taking a large empty gas can with them. (EH. 334).
Simmons could not be sure whether she heard a news report about Mia
Brown’s disappearance before or after this encounter with Mixon and Utley, but was
confident it occurred in the timeframe surrounding her disappearance . (EH. 330).
Simmons testified that at first, she did not have any inclination that her suspicious
encounter with Mixon and Utley was related to Mia Brown’s disappearance in
anyway. (EH. 330-31). It was only later, after speaking with a friend, did she connect
the dots. (EH. 331). Simmons then went to the Geneva County Sheriff’s Office
where she spoke with Sheriff Greg Ward. (EH. 331). When she told him about her
suspicious encounter with Mixon and Utley, Sheriff Ward told her that she was
wasting her time because the “killer was already locked up .” (EH. 331). Based on
Sheriff Ward’s representations that the guilty party was behind bars, Simmons
concluded that her strange encounter with Mixon was not related to the murder of
Mia Brown and let the issue go. Calhoun’s trial counsel was never provided with
this information. Simmons was not approached by anyone to discuss her run in with
Mixon until Calhoun’s postconviction team interviewed her in the spring of 2017.

090

That the evidence regarding Simmons’ suspicious encounter with Mixon is
newly discovered cannot be in dispute. Simmons’ name does not appear anywhere
in the pretrial discovery. She did not testify at trial, nor was her name mentioned at
trial. The circuit court denied relief, and without any explanation or legal analysis,
concluded that the evidence from Simmons “should be evaluated under the Brady
test.” (PCR. 2607, 2494-96). However, because the circuit court found that the State
did not possess or suppress the information regarding Simmons, it must then be
considered as newly discovered evidence.
2. Robert Vermillion15
Robert Vermillion testified at Calhoun’s evidentiary hearing that he and
Brandon Brown, Mia Brown’s husband, are cousins. (EH. 356). Vermillion and
Brown grew up together, much like brothers. (EH. 356). Vermillion had gone to
school with Mia Brown, and when she married Brandon, he came to consider Mia

Due to rulings of the circuit court, Calhoun’s claim regarding the newly
discovered evidence of Robert Vermillion finds itself in an odd procedural posture.
Calhoun filed a Motion to Amend his postconviction motion with this claim on
September 1, 2017. (PCR. 1979). The circuit court denied Calhoun’s Motion to
Amend, however allowed Calhoun to present the testimony of Vermillion at his
evidentiary hearing. (EH. 6, 355). The denial of Calhoun’s Motion to Amend is
addressed in Claim V, infra. However, because the evidence regarding Vermillion
was both presented at the evidentiary hearing and analyzed as newly discovered
evidence by the circuit court, in the interests of judicial economy, Calhoun
addresses the merits of the issue in this brief.
15

091

as family, too. (EH. 356). Sometime after Mia Brown was killed, Vermillion came
to believe that Doug Mixon was the one responsible. (EH. 358).
During the summer of 2016, a woman living with Vermillion’s aunt, Linda
Thames, began to hang out with Doug Mixon. (EH. 361). This woman would often
invite Mixon over to Thames’ house. (EH 361). Vermillion was adamant that he did
not want Mixon at his family’s house, but was told by his aunt to mind his own
business. (EH 361). For his aunt’s sake, Vermillion tried to maintain civility with
Mixon. (EH 361).
One evening, Mixon started divulging things about his past to Vermillion .
(EH. 362). During the course of this conversation, Mixon said “I know I’ve done a
lot of things I’m not proud of” and asked Vermillion to forgive him. (EH. 362).
Vermillion responded, telling Mixon that he could not forgive him for anything and
directed him to seek forgiveness from Brandon Brown . (EH. 362). Mixon did not
protest Vermillion’s direction. (EH 362).
Mixon then began to panic and became “hysterical .” (EH. 364). Vermillion
believed Mixon was having a heart attack. (EH. 363). Vermillion left Thames’ house
and called 911, but actually saw an ambulance come and take Mixon from the
residence. (EH. 364). Mixon confirmed at the hearing that he did, in fact, have a
heart attack at Linda Thames’ house in July of 2016, that Vermillion was present
and that he was taken from the house by ambulance. (EH. 310, 311).

092

It is not in dispute that this evidence constitutes newly discovered evidence .
It is clear from the testimony itself that counsel nor Calhoun could not have known
of it by the use of due diligence, as Mixon’s statements were not made until July
2016, well after the conclusion of Calhoun’s trial.
B. The newly discovered evidence gives rise to a reasonable doubt about
Calhoun’s guilt
Jones requires that any newly discovered evidence “probably produce an
acquittal on retrial.” Jones, 709 So. 2d at 514. The fundamental question when
assessing a newly discovered evidence claim is whether the new evidence “weakens
the case against [the defendant] so as to give rise to a reasonable doubt as to his
culpability.” Jones, 709 So. 2d at 526. This Court then, must “conduct a cumulative
analysis of all the evidence” – that is, weigh the new evidence, “in combination with
the evidence developed in postconviction proceedings,” and the evidence at trial
viewed through the lens of these new revelations – “so that there is a ‘total picture’
of the case and ‘all the circumstances of the case.’” Swafford, 125 So. 3d at 776, 778
(quoting Lightbourne v. State, 742 So. 2d 238, 247 (Fla. 1999)); see also Jones, So.
2d at 521.
Calhoun’s newly discovered evidence clearly satisfied the Jones standard.
The testimony of Simmons and Vermillion both implicate Doug Mixon in Mia
Brown’s murder. Simmons places an anxious, shirtless, blood-covered Mixon
running with a large, empty gas can, close in time to Mia Brown’s disappearance .

093

As this court noted several times in its order denying Calhoun’s direct appeal, the
remnants of Mia Brown’s car tested positive for an ignitable liquid. Calhoun at 357,
366. Additionally, Mixon, in effect, confessed his involvement in Mia Brown’s
murder to Vermillion. While true that Mixon did not explicitly tell Vermillion that
he killed Mia Brown, he certainly intimated it. At a new trial, the argument could
be made and a jury could reasonably infer that his asking Vermillion, a member of
Mia Brown’s extended family for forgiveness, is akin to a confession . See, State v.
Gad, 27 So. 3d 768, 770 (Fla. 2d DCA 2010). Further, when Vermillion directed
Mixon to seek forgiveness from Brandon Brown, Mixon did not protest his
innocence in the murder of Mia Brown; he instead grew agitated and hysterical . This
newly discovered evidence would strengthen Calhoun’s claims of innocence and his
Mixon-did-it theory of defense.16
Evidence pointing to Mixon’s guilt must also be considered in light of the fact
that his dubious alibi has since been destroyed, as Jose Contreras maintains that
Mixon never stayed the night at his house. Contreras’ testimony is supported by
Mixon’s numerous statements to law enforcement, where he fails to initially provide
an alibi. What’s more, Contreras also testified that Mixon confessed his involvement
in Mia Brown’s murder to him. Further, Mixon’s main alibi witness, Gabby Faulk,

16

In addition, Calhoun would be able to introduce the newly discovered evidence
of Keith Ellis, who would testify that Doug Mixon confessed to burning a girl in
the trunk of her car and framing the person convicted of her murder.
094

initially dismissed Mixon’s claim that they were together during the relevant time
period, further calling into question Mixon’s whereabouts.
This Court must also consider additional evidence presented by Calhoun in
postconviction to obtain a “total picture” of the case. This includes evidence that the
State’s digital forensic evidence, which it relied upon to establish a timeline, was
compromised and unreliable. It also includes evidence that it is not at all probable
that the scratches found on Calhoun were caused by fingernail scratches, as the State
argued to the jury at Calhoun’s first trial.
Additionally, at a new trial Calhoun would be able to present evidence of
suspicious circumstances surrounding Brandon Brown, such as the fact that he lied
to law enforcement about calling Mia when she was discovered missing and that he
lied about his reason for not going out to look for her . Calhoun could present
evidence that less than two weeks before she was murdered, Mia Brown documented
injuries that she sustained and then deleted those images from her camera .
Calhoun would also be able to call into question the dubious identifications of
Sherry Bradley and Darren Batchelor, both of which were integral to the State’s case.
This could be done through impeachment evidence, and by presenting the jury with
an actual photograph of the shirt Calhoun was wearing when he was alleged to have
been in Bradley’s store, which is fundamentally at odds with the clothing Bradley
describes. Calhoun would be able to present to the jury the full picture of where he

095

was in the woods when he was close to law enforcement, instead of letting the State
paint a misleading picture which places him a stone’s throw from Mia Brown’s car,
hours after it was burned, depriving the State of its consciousness of guilt argument .
All of this evidence would be combined with the evidence elicited at
Calhoun’s first trial regarding the suspicious activities at the junkyard the night Mia
Brown went missing. It would also be combined with the evidence and argument
that Brittany Mixon either tampered with, or planted evidence, to implicate Calhoun
in Mia Brown’s death. Though trial counsel attempted to argue this at Calhoun’s
first trial, she did so without providing the jury with a motive for why Brittany Mixon
would tamper with evidence. Given the new evidence demonstrating Doug Mixon’s
involvement, Calhoun would be able to demonstrate to the jury why Brittany Mixon
had her hands on critical pieces of evidence in this case.
At a new trial, the State still has to contend with the fact that it has no motive,
no confession, and no eyewitnesses to establish that Calhoun killed Mia Brown . In
a circumstantial evidence case, the State will bear a particularly high burden of proof
at any new trial – i.e., all of the facts “must be inconsistent with innocence” and must
“lead to a reasonable and moral certainty that [Calhoun] and no one else committed
the offense charged.” Dausch v. State, 141 So. 2d 513, 517 (Fla. 2014); Ballard v.
State, 923 So. 2d 475 (Fla. 2006) (evidence must exclude “all other inferences” than
guilt).

096

When all of these new facts, together with all of the evidence that Calhoun
could present at a new trial, are weighed against the State’s circumstantial evidence
case, the “total picture” is so different that there is a reasonable doubt as to Calhoun’s
guilt. Because Calhoun’s new evidence “completely changes the character” of the
State’s circumstantial evidence case against him, Swafford at 778, this Court should
vacate Calhoun’s convictions and sentence and remand for a new trial.
C. The circuit court erred by denying relief
In denying relief, the circuit court failed to conduct an independent
analysis of Calhoun’s claim, copying the State’s disjointed written closing argument
nearly word for word. Additionally, there are no credibility findings as to Natasha
Simmons or Robert Vermillion. In a conclusory statement, the circuit court finds
that the outcome of the trial would not have been different with “Ms. Simmons’
inconsistencies”, but failed to cite to a single inconsistency. This is not a credibility
finding. The circuit court, and State by obvious extension, failed to conduct any
meaningful legal analysis to explain its denial of relief.
III.

CALHOUN’S TRIAL WAS AFFLICTED WITH A VIOLATION OF
BRADY V. MARYLAND

Calhoun’s trial was afflicted by a violation of Brady v. Maryland 373 U.S. 83
(1963). In order to prove a Brady violation, a claimant must establish that the
government possessed evidence that was suppressed, that the evidence was
“exculpatory” or “impeachment” and that the evidence was “material.” United State

097

v. Bagley, 473 U.S. 667 (1985); Kyles v. Whitley, 514 U.S. 419 (1995); Strickler v.
Greene, 527 U.S. 263 (1999). Evidence is “material” and a new trial or sentencing
is warranted “if there is a reasonable probability that, had the evidence been
disclosed to the defense, the result of the proceedings would have been different .”
Kyles at 433-34; Hoffman v. State, 800 So. 2d 174 (Fla. 2001); Rogers v. State, 782
So. 2d 373 (Fla. 2001); Young v. State, 739 So. 2d 553 (Fla. 1999). 17 To the extent
that counsel was or should have been aware of this information, counsel was
ineffective in failing to discover it and utilize it.
A proper materiality analysis under Brady must also contemplate the
cumulative effect of all the suppressed information. Further, the materiality inquiry
is not a “sufficiency of the evidence” test . Kyles, 514 U.S. at 434. The burden of
proof for establishing materiality is less than a preponderance. Williams v. Taylor,
529 U.S. 362 (2000); Kyles, 514 U.S. at 434. Or in other words: “A defendant need
not demonstrate that after discounting the inculpatory evidence in light of the
undisclosed evidence, there would not have been enough left to convict.” Id. Rather,
the suppressed information must be evaluated in light of the effect on the
prosecution’s case as a whole and the “importance and specificity” of the witnesses’
testimony. United States v. Scheer, 168 F.3d 445, 452-53 (11th Cir. 1999).

17

The determination of whether a Brady violation has occurred is subject to
independent appellate review. See Cardona v. State, 826 So. 2d 968 (Fla. 2002).
098

This claim is predicated on the same evidence regarding Natasha Simmons’
encounter with Doug Mixon, discussed supra. The factual matters contained in that
claim are fully incorporated herein by specific reference.
The foregoing demonstrate a clear Brady violation. As required by Brady,
Calhoun has proven that the government possessed the evidence that was
suppressed. Simmons went directly to the Sheriff of Geneva County, Alabama, Greg
Ward, and told him about her suspicious encounter with Doug Mixon, who was
considered a person of interest in the disappearance of Mia Brown . It is apparent
that this information was suppressed from Calhoun and his defense team. Simmons’
name does not appear anywhere in the record in this case. While there is no
indication that Ward provided the prosecution with this information, that question is
not a factor in a Brady analysis. “It is irrelevant whether the prosecutor or police is
responsible for the nondisclosure; it is enough that the State itself fails to disclose.”
Garcia v. State, 622 So. 2d 1324, 1330 (Fla. 1993). “The State is charged with
constructive knowledge and possession of evidence withheld by other state agents,
including law enforcement officers.” Jones v. State, 709 So. 2d 512, 520 (Fla.
1993)(internal citations omitted).
It cannot be seriously in dispute that the Geneva County Sheriff’s Office
assisted in the investigation into Mia Brown’s murder, which directly led to the
prosecution of Calhoun. Mia Brown’s burnt car and her remains were found in a

099

patch of woods located in Geneva County. (T. 577). In fact, it was an Alabama Game
Warden who located the car and body. (T. 563, 566). Additionally, on August 26,
2011, counsel for Calhoun filed a subpoena for deposition duces tecum with the
circuit court, commanding the Geneva County Sheriff’s Office to turn over “photos,
videotapes, and any and all crime scene evidence pertaining to this case . Geneva
County File #86-0170-09-2011; Holmes county case no. 20101210068.” Anie
Ward, a lieutenant with the Geneva County Sheriff’s Office, was deposed by counsel
and the State on September 26, 2011. (R 734.) Lt. Raley utilized Anie Ward to obtain
search warrants in Alabama and it was Ward who collected the evidence at the
Brooks residence. (R. 832). Members of the Geneva County Sheriff’s Office,
including Greg Ward, were at the burn site while evidence was being processed . (R.
342). It was a Geneva County deputy sheriff who was keeping the crime scene log.
(R. 343). It is patently obvious that the Geneva County Sheriff’s Office was involved
in the investigation of Mia Brown’s death. See, Rogers v. State, 782 So. 2d 373 (Fla.
2001)(finding police reports from other jurisdictions were Brady material where
other law enforcement agencies were investigating crimes similar to what defendant
was charged with). The circuit court’s conclusory finding that Sheriff Greg Ward
was not a member of the prosecution team is meritless and contradicted by the
record. (PCR. 2602). Calhoun has proven that the government possessed the
information that was suppressed.

100

The information Simmons provided to Ward was clearly exculpatory and
material. During its investigation, law enforcement spoke to Mixon a number of
times, always considering him to be an alternate suspect, or at the very least, a person
of interest. Counsel clearly considered Mixon to be a viable alternate suspect, as her
entire strategy was to “blame Doug Mixon.” (EH. 54).
The case against Calhoun was entirely circumstantial. And it was not a strong
circumstantial evidence case, at that. There is no confession, no eyewitnesses, and
no motive for Calhoun to kill Mia Brown . Calhoun adamantly maintained his
innocence to law enforcement. During her case-in-chief, trial counsel put on
evidence of suspicious events occurring the night of Mia Brown’s disappearance and
went to great lengths to suggest that Brittany Mixon planted or tampered with
evidence. Counsel also made a vague argument to the jury that Doug Mixon may
have been involved in the murder. (T. 1199). The information that Simmons
provided Sheriff Ward would have given counsel an evidentiary basis for which to
make the argument that it was Doug Mixon, not Calhoun, who killed Mia Brown .
After all, according to Simmons, Mixon was running, covered in blood, carrying an
empty gas container close in time to when Mia Brown was burned in her car with
the use of an accelerant. He was insistent that he be taken to Geneva, Alabama and
appeared to be agitated, cursing Gabby from the back seat . This evidence would
have cast the case against Calhoun in an entirely different light .

101

The failure to disclose this evidence to Calhoun was a clear Brady violation.
Had Calhoun been aware of this information, he could have utilized it at trial to
diminish the State’s case against him. There is a reasonable probability that the
result of the proceeding would have been different.
The circuit court’s order in regards to Calhoun’s Brady claim is befuddling.18
The circuit court failed to engage in any legal analysis regarding the components of
a Brady violation, only making a conclusory statement that the court “specifically
determines there was not a Brady violation in this cause. [sic]” (PCR. 2606).
Additionally, the circuit court mischaracterized the testimony of Greg Ward, writing
that Ward testified that Simmons never came to meet him while he was the Sheriff
of Geneva County. (PCR. 2602). Ward actually testified that he did not recall such
an encounter, not that it never happened. (EH. 399, 400).19 Notably, the circuit court
made no findings that Simmons was not credible, or that Ward was more credible
than Simmons. This Court, then, is not obligated to give great deference to the circuit
courts findings regarding credibility and fact, as there are none, and is able to make
its own credibility determination. See, Everett v. State, 54 So. 3d 464 (Fla. 2010).

18

In its order, the circuit court conflates evidence related to Robert Vermillion and
Jose Contreras with the evidence related to the Brady claim at issue. Any Brady
analysis related to Vermillion and Contreras is misplaced.
19
In its order, the circuit court also wrote that Calhoun “went around and told
several people that he had done a bunch of stupid stuff including this things in this
case.” (PCR. 2605). This alleged testimony, which the circuit court fails to cite to,
is not found anywhere in the transcript of the evidentiary hearing.
102

IV.

CALHOUN’S APPOINTED TRIAL COUNSEL
INEFFECTIVE ASSISTANCE OF COUNSEL.

RENDERED

Counsel has “a duty to bring to bear such skill and knowledge as will render the
trial a reliable adversarial testing process.” Strickland v. Washington, 466 U.S. 667
688 (1984). A successful ineffective assistance of counsel claim must satisfy two
components: (1) counsel’s performance must have been deficient, and (2) the
deficient performance must have prejudiced the defendant. Id. at 668, 687-89. To
establish deficient performance, a petitioner must demonstrate that counsel’s
representation fell below an “objective standard of reasonableness”. Id. at 688.
Although courts generally give great weight to strategic decisions, see, e.g.,
Occhicone v. State, 768 So. 2d 1037, 1048 (Fla. 2000), a court may not defer to a
post hoc rationalization in lieu of examining the attorney’s actual decision making
process. See, Wiggins v. Smith, 539 U.S. 510, 526-27 (2003). Prejudice is defined
as “a reasonable probability that, but for counsel’s unprofessional errors, the result
of the proceeding would have been different. A reasonable probability is one
sufficient to undermine confidence in the outcome.” Strickland at 694. At the guilt
phase, the question is “whether there is a reasonable probability that, absent the
errors, the factfinder would have had a reasonable doubt respecting guilt[ .]” Id. at
694-95.20 Regarding prejudice, the level of certainty is less that preponderance of

20

The circuit court utilized the wrong standard of review when evaluating
Calhoun’s claims of ineffective assistance of counsel, believing that Calhoun had
103

the evidence. “[I]t need not be proved that counsel’s performance more likely than
not affected the outcome. Instead, the petitioner need only demonstrate a probability
sufficient to undermine confidence in the outcome.” Nelson v. State, 123 So. 3d 1195
(Fla. 4th DCA 2012)(citations omitted). “The benchmark of an ineffective assistance
of counsel claim is the fairness of the adversary proceeding .” Code v. Montgomery,
799 F. 2d 1481 (11th Cir. 1986).
Strickland makes clear that counsel has a duty to conduct a reasonable
investigation. In fact, “[o]ne of the primary duties defense counsel owes to his client
is the duty to prepare himself adequately prior to trial .” Fitzpatrick v. State, 118 So.
3d 737, 753 (Fla. 2013)(internal citations omitted). As this Court has recognized,
“[p]retrial preparation, principally because it provides a basis upon which most of
the defense case must rest, is, perhaps the most critical stage of a lawyer’s
preparation.” Id.
In light of that essential and basic duty of preparation, counsel is required to either
make reasonable investigations or to “make a reasonable decision that makes
particular investigations unnecessary.” Strickland at 690-91. In other words, if
counsel decides not to investigate an issue, that decision “must be directly assessed

to show that “but for counsel’s alleged errors, he probably would have received an
acquittal at trial or a life sentence during the penalty phase.” (PCR. 2568). Calhoun
pointed out the circuit court’s error in his Motion for Rehearing, which was denied .
(PCR. 3912, 3916).
104

for reasonableness in all the circumstances.” Id. What’s more, even when counsel
conducts some investigation, “a court must consider not only the quantum of
evidence already known to counsel but also whether the known evidence would lead
a reasonable attorney to investigate further.” Wiggins v. Smith, 539 U.S. 510, 527
(2003).

A “cursory investigation” does not “automatically justif[y] a tactical

decision.” Id.

21

A. Counsel’s failure to investigate Doug Mixon’s alibi was Deficient
Performance that Prejudiced Calhoun
1. Counsel’s failure to investigate Doug Mixon’s alibi constitutes
deficient performance
At Calhoun’s evidentiary hearing, trial counsel was unequivocal in her
testimony that her trial strategy was to blame Doug Mixon for the murder of Mia
Brown. (EH. 54, 102). Calhoun, “from the very beginning” was “insistent” and
“adamant” that Doug Mixon was responsible for the death of Mia Brown . (EH. 54,
84, 157, 193). Counsel testified that she generally does not favor the “shotgun
approach” to trial; rather, she prefers a “focused approach”, particularly as it related
to arguing an alternative suspect is the one responsible for the crime. (EH 55). It is

21

Ineffective assistance of counsel claims present a mixed questions of law and
fact. This Court employs a mixed standard of review, deferring to the circuit
court’s factual findings that are supported by competent, substantial evidence, but
reviewing the circuit court’s legal conclusions de novo. See Sochor v. State, 883
So. 2d 766 (Fla. 2004).
105

evident from her testimony that her focus was Doug Mixon. “We were blaming it on
Doug Mixon.” (EH. 102).
Once counsel made the decision to put forth a defense theory that Doug Mixon
was the one responsible for this crime, it was incumbent upon her to investigate the
viability of this defense, including investigating any alibi Mixon offered. Though
counsel did not testify as to precisely when she chose to advance the Mixon-did-it
theory of defense, she testified throughout the evidentiary hearing that Calhoun was
insistent “from the very beginning” that Doug Mixon killed Mia Brown. (EH. 52,
84, 157, 193).
Additionally, counsel was aware that law enforcement investigated Mixon as
a possible alternate suspect. (EH. 157). Law enforcement officers spoke to Mixon a
number of times, and during those conversations, he provided an alibi that was full
of inconsistencies.

Officers also spoke to his then-girlfriend, Gabrielle Faulk

(“Gabby”), and his children, Brittany Mixon and John Will Mixon . Given Calhoun’s
early and constant insistence that Mixon was the guilty party, and law enforcement’s
early focus on him, it is reasonable to conclude that counsel was at least considering
Mixon as an alternate suspect very early on in her representation of Calhoun.
Therefore, it is axiomatic that counsel’s obligation to investigate Mixon as an
alternate suspect, which necessarily encompasses investigating his alibi, was
triggered the moment she decided that they “were blaming it on Doug Mixon .”

106

Counsel was provided with copies of all of the witness interviews that law
enforcement conducted. (EH. 80). Doug Mixon gave his first sworn statement to
law enforcement on January 20, 2011. (EH Exh. 19). In that statement, Mixon
claimed to have spent the evening of December 16, 2010 – the evening Calhoun and
Mia Brown went missing – and the following day with his girlfriend, Gabby.
According to Mixon, he and Gabby were to be married on Friday, December 17,
2010, but they did not go through with it. (EH Exh. 19).
On January 13, 2011, a week prior to Mixon’s first recorded statement, Gabby
gave a sworn statement to law enforcement. (EH Exh. 20). In her statement, Gabby
told law enforcement that Mixon was not with her on December 16 or 17 and denied
that they ever had plans to marry. She also told law enforcement that the only time
she saw Mixon during the time period that Calhoun and Mia Brown were missing
was on Saturday night, when he came to plead with her to take him back . She
claimed the only time she actually spent with Mixon the weekend Calhoun and Mia
Brown disappeared was on Sunday, December 19, when she was at Mixon’s house
making dinner.
When counsel deposed Mixon on September 28, 2011, he had firmed up the
details of his alibi. (EH Exh. 21). During his deposition, Mixon stated definitively
that he and Gabby spent the evening of December 16, 2010 together at Jose
Contreras’ house in Geneva, Alabama. When counsel deposed Gabby on January

107

12, 2012, Gabby, too, had changed her initial story, and now said that Mixon was
with her during the evening of and afternoon following Mia Brown’s disappearance.
(EH Exh. 22). In the intervening time between her initial statement to police and her
deposition, Gabby had married Mixon and she was now corroborating the alibi she
initially claimed to be false. (EH 169). What’s more, the State listed Contreras as a
witness on January 23, 2012, providing Counsel with two addresses for him, which
counsel confirmed she received. (EH. 170).
Counsel conceded that she knew Doug Mixon was claiming Contreras as his
alibi at least as early as Mixon’s deposition in September of 2011. (EH. 171).
Despite knowing who her alternate suspect’s alibi was, counsel never made any
attempt to speak to Contreras. (EH. 170).
Not only did counsel herself fail to conduct any investigation into Mixon’s
alibi, Earnest Jordan, the investigator assigned to Calhoun’s case, also shirked his
responsibility. Jordan testified that if law enforcement had discounted a particular
piece of information, he would not follow up on it, reasoning that he did not have
the “time and energy” to chase leads down . (EH. 286, 285). In Jordan’s view, it is
the job of an incarcerated defendant to steer the investigation of his own case . (EH.
285). Jordan admitted that he did not do much investigation into Doug Mixon,
saying that he and counsel discussed it and decided the best approach “would be to
depose him and then call him at the trial in the penalty phase .” (EH. 289). Jordan

108

testified that he “just did basically a background, from what law enforcement had
and so forth.” (EH. 289). From this “investigation”, Jordan, without speaking to a
single witness, surmised that anyone Mixon named as an alibi witness would
confirm his alibi, even if it were not true. (EH. 289). When questioned about his
failure to speak to Jose Contreras, Jordan testified that he did not know how speaking
to Contreras would help because “if [Mixon] has an alibi during the time of the
commission of the crime, he couldn’t have been available to commit the crime .”
(EH. 290). Without even conducting a cursory background check, Jordan concluded
that Contreras was a liar and a criminal, and thus, not worth the time and energy to
interview. (EH. 290-91).
Jordan testified that he did not see the critical need to investigation Mixon’s
alibi because Calhoun never told Jordan that Mixon killed Mia Brown. (EH. 29192). Apparently the fact that Mixon was a person of interest to law enforcement was
lost on Jordan. Had Calhoun told Jordan that Mixon was responsible, Jordan would
have done more to investigate Mixon. (EH. 212-13). Jordan also testified that had
trial counsel advised him that Calhoun told her that Mixon was responsible, he would
have done more to investigate Mixon. (EH. 292). It is clear from the record that trial
counsel never shared her Mixon-did-it theory of defense with her defense team.
In its order denying Calhoun’s claim, the circuit court copied verbatim from
the State’s written closing arguments, finding that Calhoun did not establish

109

deficient performance on the part of trial counsel. (PCR. 2593). The circuit court
stated that counsel “tried to investigate Doug Mixon’s alibi to the best of her ability.”
(PCR. 2593). Because this is merely a legal conclusion by the circuit court, it is not
entitled to any deference by this Court. See Bogle v. State, 213 So. 3d 833, 846 (Fla.
2017).
Counsel admittedly made no effort to contact Jose Contreras, nor did anybody
else on Calhoun’s defense team. (EH. 170-72, 216, 221, 289-91). There is no
testimony that the failure to contact Jose Contreras or to otherwise investigate
Mixon’s alibi was strategic or based on reasonable, professional judgment . When
pressed, counsel simply stated that she did not know why she failed to even attempt
to speak to Contreras. (EH. 171). Counsel is required to either make reasonable
investigations or to make a reasonable decision that makes particular investigations
unnecessary. Strickland at 690-91. Neglecting to investigate an alternate viable
suspect that is central to your theory of defense is patently unreasonable . Neglecting
to conduct such an investigation based on untested, unfounded and incorrect
assumptions is neither reasonable nor professional . It is clear counsel rendered
constitutionally deficient representation.
2. Counsel’s failure to investigate Doug Mixon’s alibi was deficient
performance that prejudiced Calhoun
Counsel firmly believed Doug Mixon was a viable alternate suspect and she
wanted the jury to know that. (EH. 171). She thought it was critical to show the jury

110

that Doug Mixon lied to law enforcement. (EH. 162). It is clear from her testimony
that she believed implicating Doug Mixon in the crime and exposing his efforts at
concealing the truth would give the jury a basis to find reasonable doubt as to
Calhoun’s guilt. Implicating Doug Mixon became a central theory of counsel’s
defense. (EH. 54, 102).
Had counsel spoken to Jose Contreras, she would have learned that not only
was Mixon not with Contreras during the time frame that Mia Brown disappeared
and was murdered, but that Mixon actually confessed to Contreras that it was he who
killed Mia Brown. (EH. 342-43, 345). Contreras, who was available and willing to
testify at trial, testified at Calhoun’s evidentiary hearing that he made efforts to tell
law enforcement what Mixon told him, but he was turned away. (EH. 346-47). Thus,
Contreras would have talked to Calhoun’s defense team had he been approached and
would have refused to lie for Mixon. (EH. 347).
Due to her failure to investigate Doug Mixon’s alibi, counsel had to formulate
a different strategy to implicate Doug Mixon. Though his involvement was central
to her defense, counsel never mentioned his name during opening statement . (EH.
534-540). The only reference to Doug Mixon at all during counsel’s opening was
that Brittany Mixon took “her father’s truck” the morning of Mia Brown’s
disappearance. (T. 538). During the State’s case-in-chief, the only references to
Doug Mixon were during counsel’s cross-examination of Brittany Mixon. Counsel

111

elicited that Brittany’s father did not have a phone, that she took her father’s truck
the morning Mia Brown was reported missing, that her father’s house had chicken
coops, and most inexplicably, that Doug Mixon did not know where Calhoun’s
campground was and that Brittany had never told him. (T. 722, 732-33, 735). At no
point during her cross-examination of Brittany Mixon did counsel imply or attempt
to imply that Doug Mixon was involved.
Counsel failed to bring up Doug Mixon for the remainder of the State’s case
and did not mention him again until she called the lead investigator in the case, Lt.
Michael Raley, to the stand to testify for the defense. During her direct examination,
counsel asked Lt. Raley if he ever established Mixon’s alibi “through the course of
[his] investigation.” (T. 1080-82). Lt. Raley testified that he did and that Mixon was
with Gabby Faulk in Geneva, Alabama during the relevant timeframe. (T. 1080-82).
Because counsel had failed to speak to Jose Contreras or do any investigation into
Mixon’s alibi, she had no way to refute this testimony – testimony that she elicited.
It is unfathomable that defense counsel would thwart her own theory of defense by
establishing an alternate suspect’s alibi for them. This testimony did nothing to
imply that Doug Mixon was responsible for the death of Mia Brown. In fact, it did
the exact opposite.
Counsel’s stated reason for establishing the alibi of the person she was
blaming the murder on was that she wanted to establish that Mixon lied to law

112

enforcement. (EH. 162). Counsel’s plan was to show that Brittany Mixon’s story
was that her father was in Geneva the night Mia Brown disappeared, came to Bonifay
the next morning, and then returned to Geneva. (EH. 106-62). Counsel claimed that
she wanted to compare this with what Doug Mixon told Lt. Raley, which was that
he went to Geneva and stayed there with Gabby, never returning to Bonifay . (EH.
162). However, during her direct examination of Lt. Raley, she elicited from him
that Mixon was “in Geneva, back and forth[.]” (T. 1082). Not only did counsel
establish Mixon’s alibi, she also cleared up any potential inconsistencies between
what Mixon told law enforcement and what Brittany Mixon testified to . Had counsel
investigated Mixon’s alibi at all, she could have avoided this disastrous line of
questioning.
Counsel chose the “focused approach” to “imply Doug Mixon’s
involvement.” (EH. 53, 55). The foundation of her case appears to have rested upon
her presumption that Calhoun would testify and Mixon’s denial of involvement .
(EH. 102, 198-200). However, Calhoun decided prior to trial that he was not going
to testify, a fact which counsel knew. (EH. 205).
Counsel also knew that Mixon would deny that he killed Mia Brown or had
any knowledge relevant to the murder. (EH. 149, 198). Because she had done no
investigation into Mixon’s alibi, she would have been unable to counter his
testimony. Had counsel performed the investigation and preparation required of her

113

by the Sixth Amendment to the United States Constitution, she would have learned
that Mixon’s alibi was false and easily refuted. This would have allowed counsel to
do more than simply “imply” that Mixon was involved, it would have given her
theory of defense some teeth. She could have vigorously argued, with evidentiary
support, that it was Doug Mixon who killed Mia Brown.
Counsel appeared to suggest that her Mixon-did-it theory of defense was
thwarted by Calhoun exercising his constitutional right not to testify and by his
desire to keep Mixon off the stand out of fear for his family’s safety. (EH. 54, 102,
199-200).

The circuit court too blamed Calhoun for counsel’s prejudicial

performance, saying “It was Calhoun’s choice to abandon calling Mr . Mixon to
testify, thereby undermining his defense theory.” (PCR. 2594). However, the circuit
court failed to articulate any basis as to how Calhoun thwarted counsel’s ability to
even investigate Mixon’s albi. It was Calhoun who implicated Doug Mixon to begin
with. There is no evidence that he told counsel not to investigate Mixon .
Furthermore, is defense counsel who has the ultimate authority in exercising
his or her client’s constitutional right to present witnesses . Puglisi v. State, 112 So.
3d 1196, 1206 (Fla. 2013). This is because the decision whether or not to present a
witness is a “tactical, strategic decision within counsel’s professional judgment.” Id.
“Therefore, if a criminal defendant disagrees with his or her attorney as to whether
to have a witness testify at trial, it is the defense counsel who has the ultimate

114

authority on the matter[.]” Id. Counsel acknowledged that the decision of whether
or not to call Mixon was within her sole discretion . (EH. 139). By counsel’s own
admission, she was blaming the murder of Mia Brown on Doug Mixon . (EH. 102).
She set up her case, including eliciting harmful information, with an eye towards
presenting Mixon. (EH. 147, 148, 158, 160-64). Building a defense on a house of
cards, without investigating a single card in the deck, was unreasonable.
Abandoning a defense at the last minute, with no alternate plan, was unreasonable.
This is especially true given counsel’s advance notice that Calhoun was
uncomfortable with the idea of calling Mixon. (EH. 198-200, 205) Counsel testified
that as trial approached, Calhoun’s concerns about his family’s safety grew . (EH.
198-99).

According to counsel, Calhoun continued to express his concerns

throughout trial. His opposition to Mixon being called as a witness was not a lastminute surprise. Counsel has time to ponder this exact situation and alter her trial
strategy accordingly.
In its plagiarized order, the circuit court found that Calhoun was not prejudiced
by counsel’s failure to call Mixon due to the “overwhelming evidence of Calhoun’s
guilt.” (PCR. 2594). The case against Calhoun was an entirely a circumstantial one.
The “overwhelming evidence of guilt” the circuit court relies on in finding that
Calhoun suffered no prejudice from counsel’s failings has largely been refuted . This,
combined with the evidence Calhoun presented regarding Mixon’s non-existent alibi

115

establish that Calhoun suffered great prejudice due to the deficient performance of
counsel.22
B. Counsel’s failure to consult with and hire forensic experts was deficient
performance that prejudiced Calhoun
1. Counsel’s failure to consult with or hire a forensic pathologist
constitutes deficient performance
Counsel failed to consult with or retain a forensic pathologist, thereby failing
to subject the State’s evidence to any adversarial testing .

Counsel has a

responsibility to educate themselves about the aspects of a case they do not
understand. However, gaining personal knowledge of a subject does not end
counsel’s obligation to his or her client. Fitzpatrick, 118 So. 3d at 757. Counsel
must then apply the knowledge gained in a way that provides his or her client with
evidence and constitutionally adequate legal representation. Id.

In its order denying Calhoun’s claim, the circuit court stated “calling Doug
Mixon as a witness would not have made a difference as it does not pertain to the
DNA evidence that was found, the location of the burnt car, and the citings [sic] of
Calhoun and the victim before her death. (PCR. 2586). To be clear, Calhoun’s
claim is not ineffective assistance of counsel for failure to call Doug Mixon as a
witness; it’s ineffective assistance of counsel for failing to investigate Doug
Mixon’s alibi. Notwithstanding the circuit court’s error in conflating the two
issues, this statement further highlights the error and prejudice that resulted from
the circuit court’s denial of Calhoun’s Motion to Amend and Reopen, discussed
infra. As demonstrated through the facts presented in Calhoun’s Motion to Amend
and Reopen, Doug Mixon’s false alibi does pertain to the DNA evidence and the
location of the burnt car. Additionally, Calhoun and Mia Brown were only seen
together once before her death – at Charlie’s Deli on the afternoon of December
16. There were not multiple sightings.
22

116

When Calhoun was taken into custody he was covered with scratch marks .
Law enforcement took great pains to document these scratches, taking nearly 200
photographs. (EH. 178). Counsel knew pre-trial that it was a possibility that the State
would argue to the jury that the scratches on Calhoun were inflicted by Mia Brown .
(EH. 179).
The State did just that, telling the jury during opening statements that a violent
struggle took place in Calhoun’s trailer that left him with injuries . (T. 519). During
closing arguments, the State once again highlighted the scratches, calling them
“important pieces of evidence” and used them to dismiss the idea that there had been
a break-in at Calhoun’s trailer, a proposition that was important to sustain the Mixondid-it theory of defense. (T. 1153, 1168). What’s more, the State used the scratches
to bolster Sherry Bradley’s identification of Calhoun, as well as its faulty timeline
based on digital forensic evidence that also went unchallenged . (T. 1215-16). The
State dismissed the idea that the scratches came from briars, giving a detailed
explanation of why it could not be the case. (T. 1221-22).
Despite knowing ahead of time that the State was going to argue the scratches
were inflicted by Mia Brown, counsel failed to consult with or retain a forensic
pathologist or similarly qualified medical professional . Her reasoning for failing to
do so is twofold. First, she showed the photographs of the scratches to her former
colleague, Walter Smith, and he told her that she did not need an expert . (EH. 177).

117

Second, she decided an expert was not needed because it was “obvious” the scratches
were not caused by fingernails because none of the characteristics one would expect
from a fingernail scratch were present. (EH. 178). Counsel did not want to “insult
[the jury’s] intelligence by calling an expert to say the injuries were inconsistent with
fingernail scratches. (EH. 177).
While it was “obvious” to counsel that the injuries to Calhoun were
inconsistent with being fingernail scratches, the forensic pathologist called by
Calhoun, Dr. Edward Willey, testified that at least two of the four characteristics
commonly seen in fingernail scratches were present in some of the injuries to
Calhoun. (EH. 263). Thus, the images on their face bore some indices that they could
have been caused by fingernails. Dr. Willey testified that he needed to further
enhance the images and ask several additional forensic questions before he could
conclude that they were actually inconsistent with fingernail scratches . (EH. 245;
263-64; 270-71). Not only would it not have been insulting to call an expert to testify
regarding the scratches, it was clearly necessary. Not doing so was unreasonable.
While it was “obvious” to her that the characteristics of fingernail scratches,
such as appropriate thickness and a linear track, were not present, she clearly reached
this conclusion based on advanced or ascertained knowledge . Assuming the jury
possessed this same knowledge because they were from “the country” was
unreasonable. (EH. 177). What’s more, counsel’s reasoning lacks any basis in the

118

record. Nowhere in the trial record is it stated by any juror that they are from “the
country” or that they are familiar with the characteristics of fingernail scratches
versus that of briar scratches. Further, it was unreasonable for counsel to rely on the
advice of Walter Smith. He was not qualified to render an opinion on the necessity
of an expert given the fact that he was shown the photographs in a vacuum, without
any working knowledge of the case. Counsel cannot avoid her responsibilities to her
client based on unsubstantiated beliefs of another lawyer. See, Brown v. State, 892
So. 2d 1119 (Fla. 2d DCA 2004); Rose v. State, 675 So. 2d 567 (Fla. 1996)(counsel
is not at liberty to abdicate his responsibility to his client by substituting his own
judgment with that of another lawyer).
Counsel appears to have educated herself regarding fingernail scratches and
the characteristics that are unique to them. (EH. 178). However, counsel failed to
apply that knowledge in a way that provided Calhoun with any evidence . See,
Fitzpatrick at 757. She failed to address the scratches at all during her opening
statement, despite the fact that the State did just that. (T. 1153). The State referenced
the scratches on Calhoun numerous times, using them to bolster the testimony of
witnesses and its timeline. By comparison, counsel addressed the scratches only
twice. Once, she merely stated that anybody who has been out in the woods before
knows that the scratches were caused by briars and a second time to make the point

119

that the scratches were not dated, so they could have been inflicted at any time . (T.
1194, 1203).
Counsel’s decision to forego hiring an expert to rebut the State’s argument
regarding the scratches on Calhoun and instead relying on her own advanced
knowledge, which she then failed to apply to Calhoun’s case, was not the product of
reasonable, professional judgment. Counsel failed to utilize the knowledge she
possessed in a way that meaningfully benefitted Calhoun, depriving him of
constitutionally adequate representation. The circuit court failed to address the issue
of deficient performance in its order denying relief, however it is clear that counsel’s
representation was just that – deficient.
2. Counsel’s failure to consult with or hire a forensic pathologist
prejudiced Calhoun.
In denying Calhoun’s claim, the circuit court found that Calhoun could
not show how he was prejudiced by counsel’s failure to call an expert, writing “Even
if an expert could have testified fingernails did not cause the injuries, the other option
did not help Calhoun’s defense.” (PCR. 2589). 23
The State argued to the jury that the scratches on Calhoun, which it repeatedly
characterized as fingernail scratches, were “important pieces of evidence .” (T. 1153).

The relevant portion of the circuit court’s order was not written by the circuit
court at all. Rather, with the exception of two paragraphs, it is taken verbatim from
the State’s closing argument. (PCR. 2467-2471)

23

120

In referencing the scratches, the State repeatedly made inflammatory arguments that
had no basis in evidence, such as “[t]hat girl had scratched Johnny up good” and “. .
. she scratched, and she scratched, and she scratched. She did not go without a fight.”

(T. 1168, 1153). The State also argued to the jury, that there was no way the
scratches on Calhoun were caused by briars, dismissing a plausible explanation for
his injuries and used the scratches to argue premeditation to the jury. (T. 1221, 22,
1161). Continuing to capitalize on counsel’s deficient performance, the State used
the presence of scratches on Calhoun to dismiss the defense’s argument that there
had been a break-in at Calhoun’s trial and most prejudicially, to bolster Sherry
Bradley’s identification of Calhoun, as well as its faulty timeline. (T. 1215-16).
Had counsel consulted with or hired a forensic pathologist, she would have
been able to refute the State’s inflammatory, misleading, and downright false
arguments. At his evidentiary hearing, Calhoun presented Dr. Edward Willey, a
physician who practices forensic medicine. (EH. 242). Dr. Willey testified that he
reviewed “a substantial number” of photographs and opined that none of them had
any of the characteristics that are generally associated with fingernail scratches,
those being semi-lunar indentations, parallel markings, convincing width and
multiplicity. (EH. 245, 247, 260). He went on to say that most fingernail scratches
do not break the skin, yet all the scratches found on Calhoun did . (EH. 248). Dr.
Willey went through a number of photographs, all depicting various areas of

121

Calhoun’s body, an opined that, because none of the scratches had the expected
characteristics of fingernail scratches, it was not at all probable that any of the
scratches were caused by fingernails. (EH. 249-256) (emphasis added). Conversely,
Dr. Willey opined that a briar patch was a reasonable explanation of how Calhoun
obtained the scratches. (EH. 257). Calhoun’s jury never had the benefit of this
testimony.
The circuit court relied heavily on this Court’s opinion in Reed v. State, 875
So. 2d 415 (Fla. 2004), which stands for the proposition that where an expert would
not have assisted the defense, trial counsel cannot be found ineffective for failing to
call one. However, the circuit court’s reliance is misplaced, as Reed is easily
distinguishable from the case at hand. Reed raised a claim of ineffective assistance
of counsel based on trial counsel’s failure to retain a hair expert . Id. at 422. In finding
that Reed had not proven prejudice, this Court noted the existence of incriminating
statements made by Reed, as well as the fact that the hair expert would not have been
able to assist trial counsel in any real way. Id. Additionally, this Court noted that the
hair expert possessed information already within the average person’s realm of
knowledge. Id.
Here, the exact opposite is true. In Reed, there was extensive evidence of the
defendant’s guilt. Id. at 419. In comparison, the case against Calhoun was wholly
circumstantial and notably, devoid of admissions . A qualified expert would have

122

been able to shut down the State’s inflammatory arguments that the victim fought
for her life and “scratched Johnny up real good.” (T. 1168). An expert would have
lent credence to the defense’s theory that the scratches were caused by briars, while
simultaneously preventing the State from using the existence of scratches to cut
down the defense’s theory and corroborate its own witnesses and timeline . See,
Fitzpatrick at 756 (prejudice shown where counsel’s errors permitted the State to
develop an inaccurate timeline of the crime.) Moreover, the circuit court’s insistence
that there was testimony “presented throughout trial that Calhoun was in the bushes
hiding” is not supported by the record. The only testimony to that effect was a scant
mention during the testimony of Lt. Raley. (T. 955). In the words of the State, it was
“kind of fast testimony and it might have went by you a little quick .” (T. 1210).
Calhoun has presented evidence that undermines the confidence in the
outcome of his trial. Had trial counsel not been ineffective, the jury would have
received evidence that called into question the State’s witnesses and timeline, and
would have been prevented from hearing inflammatory arguments that had no basis
in the evidence. Counsel’s errors and omissions resulted in Calhoun receiving a
fundamentally unfair trial, the result of which is unreliable . There can be no
confidence in the outcome.
3. Counsel’s failure to consult with or hire a digital forensic expert
constitutes deficient performance
Despite knowing the digital forensic evidence against Calhoun would

123

provide the State with a much needed timeline of events if not refuted, counsel failed
to retain the appropriate expert, rendering deficient performance. Incumbent upon
counsel is the duty to prepare for trial, which necessarily includes the duty to consult
and present expert testimony in cases where the jury’s interpretation of scientific
evidence imperative. See, Williams v. Thaler, 864 F. 3d 597 (5th Cir. 2012)(defense
counsel’s performance fell below an objective standard of reasonableness when
counsel failed to obtain independent ballistics or forensic experts, and was therefore
unable to offer any meaningful challenge to the findings and conclusions of the
state’s experts, many of which proved to be incorrect.)
During a search of Calhoun’s trailer, law enforcement seized a SD card found
on the floor. (T. 936). While the card was in the custody of the Holmes County
Sheriff’s Office (HCSO), but before it was sent to FDLE for analysis, Lt. Raley put
the SD card into his laptop and accessed the files without the benefit of a writeblocking device, thereby altering the evidence in a first-degree murder case. (T. 936,
EH. 378, 380). On the SD card was a photograph, which Lt. Raley opined to be of
the ceiling of Calhoun’s trailer. (T. 937).
HSCO then sent the corrupted evidence to FDLE for analysis. (T. 936). FDLE
agent Jennifer Roeder, together with the Assistant State Attorney prosecuting the
case, developed a calculation method to determine when the photo purported to be
of Calhoun’s trailer was taken. (T. 920-21). The method is as follows: the State took

124

the displayed date and time of a known photograph, in this case a photo of Brandon
Brown holding a baby, and the displayed date and time of the trailer photo, and
calculated the time between the two, which was 46 days and 12 hours . (T. 920-21).
The State then used Mia Brown’s sister to determine the actual date and time of the
known photo and added 46 days and 12 hours to that. (T. 911-14, 920) Through this
method, the State surmised that the trailer photograph was taken on December 17,
2010, between 3:30 and 4:00am. (T. 921).
The State relied on the calculation done by Roeder and the ASA to
place Mia Brown in Calhoun’s trailer on the night she disappeared . (T. 1149). The
calculation also formed the entire basis of the State’s timeline, arguing that from
roughly 9:00 p.m. on December 16, 2010 until smoke was spotted on December 17,
2010 around 11:00.a.m., Mia Brown was held captive and terrorized by Calhoun. (T.
1225). The State argued this showed premeditation on the part of Calhoun and used
it to make improper arguments, inflaming the passions of the jury.
Counsel is not an expert in the field of digital forensics. (EH. 141). Counsel
also agreed that testimony that evidence was compromised and is no longer reliable
is “important”. (EH. 146). What’s more, counsel knew prior to trial that Lt . Raley
corrupted the evidence on the SD card, compromising it. (EH. 144, 206). However,
Counsel failed to hire an expert to analyze the digital forensic evidence and
subsequent calculations in Calhoun’s case because counsel was able to “personally

125

follow her through that and understand where she was at .” (EH. 142). Counsel
testified that the only reason she did not ask Roeder about Lt . Raley accessing the
SD card without forensic protection was because it was her impression that the State
already addressed it during direct examination. (EH. 145). Her reasoning falls flat.
At no time during Roeder’s testimony is it revealed that Lt . Raley improperly
accessed the files on the SD card, rendering the integrity of the evidence
questionable. (T. 914-922).
The SD card, as well as the photograph of the trailer and timeline that was
extrapolated from it, were critical to the State’s case. Counsel herself acknowledged
the importance of highlighting compromised and unreliable evidence . (EH. 146).
Yet, despite knowing of Lt. Raley’s improper actions and the importance of the
photograph to the State’s timeline, counsel did nothing to challenge the State’s
evidence. This was deficient performance.
4. Counsel’s failure to consult with or hire a digital forensic expert
prejudiced Calhoun
Had counsel consulted with an expert in digital forensic evidence, she would
have learned there were two significant problems with the State’s digital evidence
against Calhoun.
First, the fact that Lt. Raley accessed the SD card without forensic writeblocking protection is problematic in and of itself. By simply putting the SD card
into his laptop without the benefit of a forensic write-blocker, Lt. Raley altered the

126

evidence. (EH. 329). Specifically, Lt. Raley altered the metadata of the photographs.
(EH. 380). Though Raley testified that he accessed the photographs on the SD card
before sending it to FDLE, at no point did either the State or counsel question Lt .
Raley or any other witness about the implications of his actions . At the evidentiary
hearing, Calhoun’s digital forensics expert, John Sawicki, testified that the metadata
in this case was “critical.” (EH. 379).
The second problem, which is intertwined with the first, is the calculation
method employed by the State. While the calculation method is not per se improper,
it rests on a set of assumptions that must be taken as true . (EH. 386). That is,
calculations such as the one done by the State are only as reliable as the evidence
it’s based on. If there are flaws within the evidence, the entire calculation process is
corrupted. (EH. 386).
In order for the calculation method employed in Calhoun’s case to be valid,
three things must be assumed to be true: 1) the known date is valid; 2) there has been
no changes to the time and date stamp between the known photograph and the
unknown date and time; and 3) the metadata has not been changed . (EH. 386-88).
Here, it cannot be definitively said whether or not the date or timestamp had
been changed between the known photograph and the trailer photograph . (EH. 387).
However, there were a number of photographs on the SD card that showed a cratedon date of June 2011, months after the card was taken into custody. (EH. 387). This

127

is problematic because it shows at some point, the date and time on the camera had
been manipulated. (EH. 388). This was never pointed out to the jury. The third
assumption cannot be taken as true because it is known for a fact that the metadata
on the SD card was changed by virtue of Lt . Raley’s actions. (EH. 388). Based on
what was known about the SD card and what simply cannot be known, the
calculation done by the State, and therefore the timeline on which the State’s case
was based, is problematic. Counsel should have called this into question.
In its order denying Calhoun relief, the circuit court provided no legal
reasoning for its finding that Calhoun did not prove prejudice. (PCR. 2590-91).24 It
also misquoted and misconstrued Mr. Sawicki’s testimony to conform it to fit its
opinion. For instance, the circuit court claims that Mr. Sawicki testified that there is
no indication that the date and timestamps were manually changed . Mr. Sawicki did
not testify to that. In fact, what he did say was that it cannot be known whether or
not the date and timestamp had been changed. (EH. 387, 393). The circuit court also
claimed that Mr. Sawicki offered no opinion as to the reliability of the evidence,
which is incorrect. Throughout his testimony Mr. Sawicki referred to the State’s
calculation as “problematic.” (EH, 387, 388, 391). Mr. Sawicki also testified that
because the SD card was not kept in a forensically sound manner, it was

The relevant portion of the circuit court’s order was not written by the circuit
court at all. Rather, with the exception of two paragraphs, it is taken verbatim from
the State’s closing argument. (PCR. 2467-2471)

24

128

compromised and because of that, it cannot be relied on. (EH. 390)(emphasis
supplied).
Counsel knew pre-trial that the State’s timeline hinged on the digital evidence.
She knew the State intended to call an expert witness to explain the evidence to the
jury and she also knew that the evidence had been mishandled by law enforcement .
Based on this information alone, counsel should have sought the assistance of an
expert in the field of digital forensics. Had she done so, she would have learned
about the significant problems with the State’s evidence against Calhoun and would
have been able to challenge the State’s timeline as well as the reliability of its
evidence. Counsel’s errors resulted in Calhoun receiving a fundamentally unfair
trial, the result of which is unreliable. There can be no confidence in the outcome.
C. Counsel’s failure to subject the State’s case to adversarial testing through
investigation, cross-examination, the utilization of available
impeachment evidence and proper objections was deficient performance
that prejudiced Calhoun.
1. Counsel’s failure to object to improper testimony constitutes deficient
performance that prejudiced Calhoun.
The law is clear that counsel is duty-bound to object to improper attempts to
prejudice the defendant and secure a conviction on an improper basis . See, Eure v.
State, 764 So. 2d 798, 801 (Fla. 4th DCA 2000); Hodges v. State, 885 So. 2d 338
(Fla. 2004) (Pariente, J., dissenting); Ross v. State, 726 So. 2d 317 (Fla. 2d DCA
1988). Failure to object results in either a fundamental error approach, or an

129

ineffective assistance of counsel claim, both of which impose a heavy burden on the
defendant. Without an objection at trial to improper arguments, courts hesitate to
find reversible error. Id.
a. Charles Howe
Charles Howe was the first witness to testify for the State. (T. 543).
After establishing that Mia Brown worked for him, he went on to identify her
employment application. (T. 545-46). During Howe’s testimony, the State elicited
details regarding the characteristics of Mia’s signature, namely that she dots her “I”
and ends her name with a heart. (T. 548).
Counsel was ineffective for failing to object to the introduction of the
employment application and the testimony regarding the hearts in Mia Brown’s
signature. The testimony regarding the hearts was utilized to show Mia’s uniqueness
as an individual and could properly be regarded as victim impact evidence.25
In its order denying relief, the circuit court ignored Calhoun’s argument
regarding the relevance of the evidence. The court made no findings as to whether
or not the evidence was relevant, or whether its relevance was outweighed by its

25

Fla. Stat. § 921.141(7) (2011) provides for the introduction of victim impact
evidence at the penalty phase of a capital trial. However, it prohibits
characterizations and opinions about the crime, the defendant, and the appropriate
sentence. Id. It also prohibits the introduction of the evidence until the prosecution
has provided evidence of one or more aggravating factors. Id.

130

prejudice. Nor did the court make any findings as to whether counsel’s failure to
object was the product of strategy.
Counsel testified that she knew the State was intending to introduce Mia
Brown’s employment application for the express purpose of introducing her
signature. (EH. 57). Counsel’s understanding was that the State needed the signature
on the employment application to properly authenticate Mia Brown’s dental records.
(EH. 57, 58, 60). Notably, at no point during trial did the State ask Howe questions
aimed at authenticating Mia Brown’s signature. Instead, the State’s entire line of
questioning focused on the unique characteristics of Mia’s signature, i .e. “her little
hearts.” (T. 548).
It is clear counsel did not know the law as it pertains to the admissibility of
business records. “Under the business record exception, the trustworthiness of
medical records is presumed.” Barber v. State, 775 So. 2d 258, 260 (Fla. 2000)(citing
Phillips v. Ficarra, 618 So. 2d 312, 313 (Fla. 4th DCA 1993)). Treatment records
are routinely authenticated through the treatment provider and admitted as a business
record exception to the hearsay rule. See Johnson v. State, 117 So. 3d 1238 (Fla. 3d
DCA 2013). Counsel’s ignorance of the law is apparent and inexcusable, especially
given the State’s advance notice regarding its reason use Mia Brown’s signature. It
is well established law that “a tactical or strategic decision is unreasonable if it is

131

based on a failure to understand the law.” Sochor v. State, 883 So. 2d 766 (Fla. 2004);
State v. Williams, 127 So. 2d 890 (Fla. 1st DCA 2013);
Counsel’s subjective belief that there was nothing wrong with the State’s
presentation of evidence in regards to Mia Brown’s signature is not dispositive of
the issue. (T. 64). Counsel conceded at the evidentiary hearing that the testimony of
Howe could result in sympathy and emotion on the part of jurors. (EH. 66). Further,
counsel conceded that it is her duty as a capital defense lawyer to try to minimize
the emotions inherent in a capital trial. (EH. 65).
By failing to realize that the introduction of Mia Brown’s signature was
prejudicial and not necessary to prove identity, an issue which was not in dispute,
counsel rendered deficient performance.
b. Dr. Swindle
Dr. Swindle was Mia Brown’s dentist. (T. 549). Through Dr. Swindle, the
State published exhibits 4C and 4F, which were forms that included Mia Brown’s
distinctive signature. The State made sure to emphasize the fact that Mia’s signature
was in fact, on the forms, a point the circuit court seemingly concedes in its order.
(T. 552, 555, PCR. 2578).
For the sake of brevity, undersigned relies on the argument made as it related
to the introduction of documents bearing Mia Brown’s signature made supra.

132

Counsel’s failure to object to this improper and prejudicial evidence can only be
classified as deficient performance.
c. Dick Mowbry
Mowbry is an Alabama game warden who found Mia Brown’s body.
(T. 555). Mowbry testified that, while examining the car, he saw what appeared to
be a rib cage and it was a “charred, bad sight.” (T. 566). The State went on to repeat
this testimony a number of times and showed Mowbry several photographs of the
rib cage. (T. 566). After looking at the photographs, Mowbry testified that the
photograph was blurry but “the thought in my mind I will never forget it.” (T. 567).
For evidence to be admissible, it must be relevant . “Relevant evidence is
evidence tending to prove or disprove a material fact .” Fla. Stat. § 90.401 (2011).
Mowbry’s testimony regarding the ribcage did not tend to prove anything. Its sole
purpose was to inflame the passions of the jury, yet counsel failed to raise a single
objection, despite having notice that this evidence was going to be introduced . (EH.
56). In fact, counsel testified that the pictures, which she had pre-trial, were more
emotional than the testimony itself. (EH 73). Counsel did not dispute that the
testimony regarding Mia Brown’s ribcage was inflammatory and emotional . (EH.
71).
The circuit court’s finding that counsel’s decision not to object was strategic
in nature is not supported by competent, substantial evidence. (PCR. 2579). Counsel

133

never testified that she failed to object due to a strategy decision . She testified that
she did not even think to object. (EH. 73). Any argument that counsel did not object
because she did not want to draw the jury’s attention to the prejudicial evidence falls
flat. The State referenced the ribcage at least five times and showed Mowbry at least
two photographs of it. Counsel conceded that the testimony was already being
emphasized to the jury through repetitive questioning. (EH. 72).
Not objecting to completely irrelevant, prejudicial evidence designed to draw
emotion into the trial and inflame the passions of the jury was deficient performance
on the part of counsel.
Exposing the jury to emotionally charged and inherently prejudicial testimony
at the guilt phase of trial prejudiced Calhoun. Counsel herself acknowledged that
victim impact evidence can induce jurors to make decisions based on emotion. (EH.
63). It is impossible to say that this evidence, presented at the beginning of the guilt
phase, did not affect the juror’s views of the case, and ultimately their verdict .
Counsel’s errors resulted in Calhoun receiving a fundamentally unfair trial, the result
of which is unreliable. There can be no confidence in the outcome.
2. Counsel’s failure to investigate, effectively cross-examine witnesses
and utilize available impeachment evidence was deficient
performance that prejudiced Calhoun.
Counsel’s stated strategy was to “[b]asically attack the State’s case, but

134

imply Doug Mixon’s involvement.” (EH. 54). Counsel planned to accomplish this
through cross-examination of the State’s witnesses. (EH. 53, EH exhibit 6)).
Therefore, it was incumbent upon counsel to scour the discovery and investigate and
discover all the weaknesses in the State’s case that could be attacked through crossexamination, including the presentment of impeachment evidence.
Counsel has a professional obligation to investigate any potential impeaching
or exculpatory evidence that may assist in the defense. Fitzpatrick at 753. “It is
clear that where the record does not indicate otherwise, trial counsel’s failure to
impeach a key witness with inconsistencies constitutes ineffective assistance of
counsel and warrants relief.” Tyler v. State, 793 So. 2d 137 (Fla. 2d DCA 2001). See
also, Kegler v. State, 712 So. 2d 1167 (Fla. 2d DCA 1998) (trial counsel’s failure to
impeach crucial state witness was not reasonable under the circumstances); Kelly v.
State, 198 So. 3d 1077 (Fla. 5th DCA 2016) (failure to impeach a key witness may
amount to ineffective assistance of counsel, warranting relief).
a. Brandon Brown
The circuit court found that counsel rendered deficient performance by
“failing to use the information she had through pre-trial discovery” and by “failing
to investigate other avenues of impeachment evidence that could have been used on
cross-examination.” (PCR. 2850). The circuit court’s finding is supported by
competent, substantial evidence.

135

Counsel conceded that “a lot of things surrounding Mr. Brown were somewhat
suspicious.” (EH. 89). These suspicions actions included lying to law enforcement
about the calls he made to his wife the night she disappeared and lying about his
reasoning for not going out to look for his wife . (EH. 82-85, 87). Additionally,
counsel failed to investigate the seven deleted images from Mia Brown’s SD card
that depicted a woman, who had similar physical characteristics to Mia Brown, with
injuries that were taken in the Brown residence. (EH. 96-98, 226-30). Based on the
calculation method of FDLE agent Roeder, these photographs were taken
approximately nine days before Mia Brown disappeared. (EH. 98-99, 228).26
Counsel testified she chose not to investigate Brandon Brown because
Calhoun was adamant that it was Doug Mixon who killed Mia Brown . (EH. 84).
Counsel conceded, however, that it is her professional obligation to investigate any
possible leads of avenues of defense, despite what her client tells her. (EH. 85). Bell
v. State, 965 So. 2d 48, 62 (Fla. 2007), citing Rompilla v. Beard, 545 U.S. 374, 383
(2005).

26

The circuit court, without providing any legal reasoning, found that the
photographs depicting injuries would not be admissible at trial . That is
demonstrably false, as photographs taken from the same SD card were admitted
into evidence at Calhoun’s trial. See, State’s trial exhibit 24. Furthermore, counsel
conceded that she conducted no investigation into the images, hence her inability
to authenticate them. In contrast, Lt. Raley testified that the images were clearly
taken in the Brown residence and were consistent with known images of Mia
Brown. (EH. 230-33.).
136

Counsel believed that the underlying tone of the State’s case was that Calhoun
had a “thing” for Mia, and that even Brittany Mixon believed that to be the case .
(EH. 85). Counsel conceded that the suspicious circumstances surrounding Mr .
Brown were in conflict with the State’s portrayal of the Browns as a happily married
couple. (EH. 100). Counsel justified her failure to investigate Brandon Brown by
saying she did not want to attack a grieving husband in front of the jury . (EH. 84,
194). Informing the jury that Brown lied to law enforcement and made virtually no
effort to find his wife does not equate to an “attack” on Brown, rather it gives the
jury a full picture of the Brown’s marriage. However, counsel conceded that she
could have introduced the deleted images which documented the apparent injuries
to Mia Brown through FDLE agent Roeder to avoid attacking Mr. Brown in front of
the jury. (EH. 101).
Counsel’s decision not to investigate Brandon Brown or call attention to the
suspicious circumstances surrounding him was an uninformed decision, made
without the benefit of any investigation.

Strategy decisions made after no

investigation cannot be deemed reasonable. Strickland at 691. Counsel’s failure in
this regard was deficient performance.
The circuit court made no findings as to the prejudice suffered by Calhoun
due to counsel’s failure to investigate and effectively cross-examine Brandon
Brown, saying only “It is clear Ms. Jewell did her best to adhere to her strategy and

137

attack the State’s case, while keeping the jury’s trust.” (PCR. 2581). This finding is
not supported by competent, substantial evidence. Nor is “doing your best” the
standard outlined in Strickland for assessing deficient performance or prejudice in
ineffective assistance of counsel claims.
It is clear that Calhoun was prejudiced by counsel’s deficiencies as it relates
to Brandon Brown. The State was able to portray Mia Brown as a happily married
woman, yet the suspicious circumstances surrounding Brandon Brown and the
photographs of her documenting injuries call that into question . The State told the
jury that it did not know what happened the night Mia Brown was murdered, but
they knew it was violent. (T. 1151). Had counsel cast some suspicion upon Brandon
Brown, she would have been able to argue there was a reasonable doubt that
Calhoun, who had little prior relationship with Mia Brown to speak of, was
responsible for her violent murder.
b. Sherry Bradley
Sherry Bradley testified that she saw Calhoun in a convenient store she
managed near Hartford, Alabama in the early morning of December 17, 2010 . (T.
647).27 According to Bradley, Calhoun pulled up to the store in a white car with
Florida plates and parked in a handicap spot. (T. 649, 651-52). When he entered the

27

Bradley’s store is located 13 miles north of where Mia Brown’s car was
discovered.
138

store, he bought a pack of cigarettes and she noticed scratches on his hands . (T. 65051). Bradley also testified that she had not watched, heard, or read any news reports
about the case. (T. 666).
Prior to trial, counsel was in possession of all the interviews conducted by law
enforcement, as well as the missing persons flier for Calhoun and Mia Brown . (EH.
80). Counsel, therefore, knew or should have known that the fact that Mia Brown’s
car was a white Avalon with Florida plates was contained within the flier . (Trial
exhibit 9A). Counsel also knew, or should have known, that Bradley told law
enforcement that she read about the case in the newspaper, and even expressed
concern that she might supplant what she read for what she actually saw . (EH. 107108. EH exhibit 12). In sum, all of the information Bradley testified to could have
been obtained from secondary sources, rather than an actual encounter with Calhoun.
Counsel failed to impeach Bradley with her prior inconsistent statement to
law enforcement that she read about the case in the newspaper . (EH exhibit 12).
Counsel provided no strategic reason for failing to impeach Bradley. Instead,
counsel conceded that she “probably should have” impeached the basis of Bradley’s
identification with her prior inconsistent statement. (EH. 105). Counsel theorized
that she missed this opportunity to impeach a critical witness because she was “very
focused on that ID.” (EH. 108).

139

The foundation for Bradley’s knowledge is directly related to her
identification of Calhoun. A tainted foundation leads to a tainted identification .
Counsel conceded that discovering the foundation of a witness’s information is
important. (EH. 108). If counsel’s focus truly was “that ID”, there was was no reason
for her not to impeach Bradley. Failing to do so was deficient.
In denying Calhoun’s claim, the circuit court found that he had not met his
burden of proving counsel was ineffective because Bradley was not called to testify
at the evidentiary hearing. (PCR. 2582). The circuit court surmised that it was
“speculation” as to what she would have testified to if asked additional questions .
(PCR. 2582). That is simply not the case.
Prior to trial, Bradley gave a sworn statement to Lt. Raley, where she told him
that she had read about the case in the paper. (PCR. 2161, 2174, EH exhibit 12). Had
counsel confronted Bradley with this statement, Bradley would have had one of two
options: 1) deny making the statement, at which point counsel could have introduced
it, or 2) admitted to making the statement. Fla. Stat. 90.608 (2011). Since Bradley’s
statement to law enforcement is in evidence, one need not speculate as to what she
would have said if impeached. Court’s routinely evaluate ineffective assistance of

140

counsel claims premised upon a failure to impeach based on record evidence . See,
Butler v. State, 100 So. 3d 638, 654 (Fla. 2012).28
Calhoun was prejudiced by counsel’s failure to impeach Bradley and the
foundation of her information. Bradley was key to the State’s bizarre theory that
after hours of holding Mia Brown captive, Calhoun put her in the trunk of her car,
drove her to store in Alabama, flagrantly parked in a handicap spot, and left her alive
in the trunk to go in to the store and buy cigarettes.29 Bradley was also necessary to
the State’s argument that the scratches on Calhoun were caused by Mia Brown, not
by running through the woods. It was imperative that counsel impeached both
Bradley’s identification, and the foundation of her information. Counsel’s failure to
do so allowed the State to argue that it was more than mere speculation that Calhoun
took Mia Brown’s body to Alabama, in her own car, before burning it. Bradley gave
the State an eyewitness it so desperately needed.

Failure to utilize available

impeachment evidence which would have given rise to a reasonable doubt as to
Calhoun’s guilt was a breakdown of the adversarial system and calls into question

28

See also, Connor v. State, 979 So. 2d 852, 862 (Fla. 2008); Grim v. State, 971 So.
2d 85, 94 (Fla. 2007), Blake v. State, 180 So. 3d 89, 104 (Fla. 2014); Spann v.
State, 985 So. 2d 1059 (Fla. 2008); Kilgore v. State, 55 So. 3d 487 (Fla. 2010);
Kormondy v. State, 983 So. 2d 418 (Fla. 2007); Davis v. State, 136 So. 3d 1169
(Fla. 2014).
29
The uncontradicted evidence at trial was that Calhoun did not smoke cigarettes .
(T. 740, 990).
141

the reliability of the jury’s verdict. There can be no confidence in the outcome of
Calhoun’s trial.
c. Darren Batchelor
The State used to testimony of Darren Batchelor to corroborate Sherry
Bradley’s testimony, a point which counsel concedes. (EH. 110). The circuit court
also cited to Batchelor’s testimony as corroboration of Bradley’s flawed
identification. (PCR. 2595). Batchelor testified without hesitation that he saw
Calhoun at Bradley’s store in December of 2010. (T. 677).

However, when

Batchelor initially spoke to law enforcement, he equivocated on whether or not it
was Calhoun who he saw. (EH. 114, EH exhibit 13). Counsel never questioned
Batchelor about his prior identification.
Counsel did not provide a strategic reason for not impeaching Batchelor,
conceding that it was something she “should have asked him.” (EH. 115). Counsel
explained that sometimes, she gets so focused on one point that she forgets to
question witnesses about other points. (EH. 115). Forgetting to question a witness
who integral to the State’s case is unacceptable. What’s more, Batchelor was called
as an identification witness. Identifying Calhoun was the sole purpose of his
testimony. Forgetting to impeach an identification witness with prior uncertainties
about their identification is constitutionally deficient.

142

Batchelor bolstered his identification of Calhoun by testifying that he knew
Calhoun from attending school together. (T. 677). However, Batchelor is twelve
years older than Calhoun. (EH. 113). In the words of counsel, “there’s no way they
could have gone to school together.” (EH. 113). Counsel should have known this
prior to trial, however she failed to conduct any pretrial investigation into Batchelor .
(EH. 111).
In its order denying relief, the circuit court attempted to blame counsel’s
failure to prepare on Calhoun. (PCR. 2583). In doing so, the circuit court ignored
counsel’s independent constitutional obligation to prepare adequately for trial . See,
Magill v. Dugger, 824 F. 2d 879, 886 (11th Cir. 1987). Counsel’s failure to
adequately prepare for trial left her woefully unprepared to react to Batchelor’s
testimony and rendered her performance deficient.
The prejudice suffered by Calhoun due to counsel’s failure to impeach
Batchelor is clear. Not only did his testimony provide the State with a second,
desperately needed eyewitness, he also corroborated the testimony of Sherry
Bradley, who was a critical witness for the State. Without Batchelor, the State would
have been left with the shaky identification of Bradley, which as discussed supra,
was easily discredited.

This impeachment evidence was critical to arguing

reasonable doubt to the jury, which counsel claimed to be her theory of defense .

143

Counsel failed to utilize this helpful evidence and as a result, there can be no
confidence in the outcome of Calhoun’s trial.
d. Brittany Mixon
Brittany Mixon played a central role in Calhoun’s case. At trial, counsel
attempted to make the argument that Brittany planted or tampered with evidence.
“Because her father is Doug Mixon, the implication [that she was involved] was
there.” (EH. 132).30 Counsel did not, however, provide the jury with a motive for
why Brittany would want to implicate Calhoun in Mia Brown’s murder .
Furthermore, as illustrated by Claim IV(A), supra, counsel never actually implied
that Doug Mixon was the one responsible for Mia Brown’s death.
At trial, Brittany Mixon testified that Calhoun was her boyfriend and that Mia
Brown was a longtime friend of hers. (T. 703). According to Brittany, on the evening
the pair went missing, Calhoun was supposed to be getting a ride to her house from
Mia Brown. (T. 704, EH. 130). Brittany testified on December 17, 2010, she went
looking for Calhoun and saw law enforcement gathered at Charlie’s Deli, so she
attempted to call the deli to speak with Mia. (T. 709). According to Brittany, she
found out shortly thereafter that Calhoun and Mia were missing.

Counsel’s statement completely refutes the circuit court’s finding that Calhoun
cannot establish prejudice because Doug Mixon was the focus of counsel’s theory
of defense, not Brittany Mixon. (PCR. 2584).

30

144

Counsel was provided with the telephone records for both Charlie’s Deli and
Mia Brown through pre-trial discovery. (EH. 126). The records for Charlie’s Deli
fail to show a single phone call from a number linked to Brittany Mixon . (EH. 12728, EH exhibit 16). Though Brittany testified that her calls went unanswered, the
phone records for Charlie’s Deli show calls at 10:25 p.m. and 3:46 a.m. from other
numbers that show a duration of mere seconds . (EH exhibit 16). Thus, the records
show all incoming calls, regardless of whether or not the phone is answered . (EH.
409). Likewise, the telephone records for Mia Brown’s cell phone fail to show a
single incoming call from a number linked to Brittany Mixon. (EH. 130, EH exhibit
10).
In sum, despite the fact that both her boyfriend and close friend were missing,
Brittany Mixon failed to make a single attempt to contact Mia Brown.

The

reasonable inference is that Brittany never called because she already knew what
happened.

Counsel testified that a lot of things Brittany Mixon did were

“suspicious.” (EH. 132). Given the suspicious actions of Brittany, combined with
counsel’s argument to the jury that Brittany Mixon planted or tampered with
evidence, and her stated strategy that she was blaming the crime on Doug Mixon, it
is unfathomable that she would not want to portray that to the jury. Counsel did not
provide a strategic reason for failing to question Brittany Mixon regarding the phone

145

records and conceded that that she should have. (EH. 132). Counsel’s failure to do
so was objectively unreasonable and was deficient performance.
Had counsel effectively cross-examined Brittany Mixon she would have been
able to provide the jury with a motive for Brittany’s planting or tampering of
evidence, that being, she wanted to help or protect her father, and possibly herself .
Implicating Brittany Mixon in a nefarious plot to frame Calhoun would have given
credence to counsel’s Mixon-did-it theory of defense. Not utilizing this evidence
left the jury at a loss for why Brittany would want to frame Calhoun, and impeded
counsel’s ability to tie Doug Mixon to the murder. Counsel’s omission prevented
Calhoun from receiving a fair trial and as a result, there can be no confidence in the
outcome of the proceedings.
e. Tiffany Brooks
Tiffany Brooks testified that she found Calhoun sleeping in her family’s shed
in the early morning hours of December 18, 2010. (T. 780). She went on to describe
Calhoun’s time at her family’s house up until the point that Calhoun left . (T. 78083). Additionally, she testified that she received a telephone call from her boyfriend,
Steven Bledsoe. (T. 784). After the State asked “What did he tell you?” Brooks
testified that Bledsoe told her that he saw a missing persons flier with Calhoun’s
picture on it, as well as the picture of a girl . (T. 784). At no point did counsel raise
a hearsay objection or a confrontation clause objection to this testimony.

146

Immediately after eliciting Bledsoe’s hearsay statements, the State elicited
from Brooks that Calhoun denied knowing the girl pictured in the flier with him. (T.
784). The State went on to emphasize this point, asking “He didn’t know Mia Chay
Brown?”, “Is that what he told you?” and “Are you sure about that? He didn’t know
Mia Chay Brown?” (T. 784-85). The State clearly wanted to make the point that
Calhoun would not lie about knowing Mia unless he was guilty of kidnapping and
killing her. Indeed, in closing the State argued Calhoun’s statement was evidence of
consciousness of guilt. (T. 1158-60).
Counsel testified that she had no strategic reason for not objecting to this
classic hearsay question. In fact, counsel had no idea why she failed to object. (EH.
135). Counsel explained that she will sometimes miss and objection due to a client
talking to her, however she could not say that was the case here . (EH. 135).
Moreover, counsel conceded that Calhoun talking was unlikely the reason, given the
fact that she missed the same objection with the very next witness. (EH. 135).
Counsel’s failure to object to classic hearsay, which then allowed the State to argue
consciousness of guilt, was objectively unreasonable and constitutes deficient
performance.
Without eliciting the hearsay statements of Bledsoe, the State would have
been unable to elicit from Tiffany Brooks that Calhoun claimed not to know Mia
Brown, as Bledsoe’s phone call precipitated the entire conversation between

147

Calhoun and Brooks. It had to strike the jury as odd, at best, that Calhoun allegedly
lied about knowing Mia Brown. The obvious reason for doing so is that he
kidnapped and murdered her. Had counsel made this basic hearsay objection, the
State would have been deprived of this damaging evidence, which it used to argue
consciousness of guilt. Because of counsel’s failure, there can be no confidence in
the outcome of Calhoun’s trial.
f. Glenda Brooks
Glenda Brooks’ testimony was nearly identical to that of her daughter, Tiffany
Brooks. For the sake of brevity, undersigned relies on the argument made in Claim
IV C(3)(f), supra, as it relates to counsel’s failure to object to inadmissible hearsay.
The factual matters and argument contained in that claim are fully incorporated
herein by specific reference.
Additionally, in its order denying relief, the circuit court found “[T]his as a
prime example of a Defendant who had not been active in his defense constantly
interrupting counsel during a direct-examination.” The circuit court’s finding is not
supported by competent, substantial evidence. Counsel never testified that Calhoun
was constantly interrupting her, nor did she testify that an interruption from Calhoun
was the reason she missed two basic hearsay objections. In fact, counsel was clear
that she did not know why she missed the objections and clarified that she was not

148

saying that Calhoun was constantly interrupting her. (EH. 135). Any finding
indicating otherwise is contrary to the evidentiary hearing record.
Counsel’s failure to object to this improper and prejudicial hearsay evidence
can only be classified as deficient performance which prejudiced Calhoun .
g. Jennifer Roeder
Counsel conceded that she could have used Roeder to establish how an SD
card is removed from a camera but that she did not think to even ask her . (EH. 14041). It was unreasonable for counsel not to highlight for the jury the amount of effort
it takes to remove an SD card and the suspicious nature of the SD card’s convenient
location.
Counsel also failed to ask a single question related the compromised nature of
the SD card due to Lt. Raley’s actions and its impact on reliability of the evidence.
The facts of this claim are detailed in Claim IV (B)(3), supra. The factual matters
and argument contained in that claim are fully incorporated herein by specific
reference. Counsel’s reason for not asking Roeder about Lt. Raley accessing the SD
card without forensic protection was because it was her impression that the State
already addressed it during direct examination. (EH. 145). Her reasoning falls flat.
At no time during Roeder’s testimony is it revealed that Lt . Raley improperly
accessed the files on the SD card. (T. 914-922).

149

Counsel failed to adequately cross-examine Roeder and elicit testimony that
counsel herself believed was necessary and important for the jury to hear . This
failure was objectively unreasonable and constitutes deficient performance.
Counsel testified that she wanted to establish that “everything looked just a
little too made up.”, yet she failed to point out the convenient location of the SD
card. (EH. 148). She also wanted to imply that Brittany Mixon planted or tampered
with evidence. These arguments could have been strengthened had she bothered to
question Roeder about the force necessary to remove SD cards from cameras and
the convenient location of Mia Brown’s SD card . Counsel failed to use this readily
available evidence to bolster her own theory of defense, depriving Calhoun of the
ability to make a strong case for reasonable doubt. What’s more, had counsel
effectively cross-examined Roeder she would have had a solid evidentiary basis to
argue that the evidence in Calhoun’s case was tampered with – whether intentionally
or inadvertently, and was compromised and unreliable as a result . Such testimony
by Roeder would have enabled her to cast a serious doubt as to the State’s timeline,
which was already problematic. Failure to do this was unreasonable and as a result,
there can be no confidence in the outcome of the proceedings.
h. Michael Raley
At trial. Lt. Raley testified that Brittany Mixon called Charlie’s Deli

150

numerous times on the morning of December 17, 2010 from a phone number
belonging to her grandparents. (T. 764). As discussed in Claim IV(3)(C)(e), supra,
the phone records fail to show a single phone call from a number associated with
Brittany Mixon. Counsel failed to question Lt. Raley in regards to this discrepancy.
During cross-examination, counsel asked Lt. Raley about the clothes Calhoun
was wearing when he arrived at the Brooks’ residence. (T. 1085-86). Lt. Raley
testified that the shirt had the word “Fanta” written on it, but he could not provide
any further description. He testified that he was not sure whether or not there was a
logo on the shirt and said that he would have to see a photograph of the shirt to know.
(T. 1086-86). Counsel had been provided a picture of the shirt in question through
pre-trial discovery, yet failed to show it to Lt. Raley at trial. (EH exhibit 18). The
shirt in question has a logo on the front of it that takes up nearly the entire shirt, as
well as the words “Wanta Fanta?” (EH exhibit 18). The shirt Calhoun was actually
wearing when he arrived at the Brooks’ house is in stark contrast to the shirt Sherry
Bradley claimed he was wearing when she saw him at the convenient store . (T. 654,
660). Counsel could provide no reason, strategic or otherwise, why she failed to
show Lt. Raley a photograph of the shirt and question him further on this issue. (EH.
156). By failing to question Lt. Raley about Calhoun’s shirt, counsel forfeited the
opportunity to impeach Sherry Bradley, a witness crucial to the State’s case and
timeline. This failure on counsel’s part was deficient performance.

151

In what was perhaps counsel’s greatest deficiency, she failed to clarify with
Lt. Raley when Calhoun claimed to have been in the woods with law enforcement .
At trial, Raley testified that during Calhoun’s December 20, 2010 interrogation,
which took place in the presence of both Lt. Raley and Ofc. Harry Hamilton, Calhoun
told them that during the days he was missing, he had been in the woods with law
enforcement and “there were three times he was close enough to . . .” (T. 995). Lt.
Raley then tapped on the stand and testified that during the interview, Calhoun
tapped the side of his leg with his foot. (T. 955). The State presented this statement
in a vacuum specifically to mislead the jury regarding Calhoun’s location .
What Calhoun actually told Lt. Raley and Ofc. Hamilton was “[Y]’all was
tightening up the noose last night [December 19, 2010] when I was in the woods
man” and “I’d say more than three times a deputy could of reached out and done like
that.” (EH exhibit 5). When Lt. Raley asked Calhoun where he was when this
happened, Calhoun responded “Down there, close to the Bethlehem Campground . I
don’t really know where I was in the woods.” (EH exhibit 5). Lt. Raley asked
Calhoun if he was referring to the Bethlehem Campground “down here in Florida?”
saying “You made it all the way down there?” Calhoun confirmed that he did . The
jury never heard any of this.
Counsel made a Rule of Completeness argument to the circuit court, seeking
to put Calhoun’s entire statement into evidence, which was overruled. However,

152

counsel still had the opportunity to clarify Calhoun’s location in the woods for the
jury through cross-examination of Lt. Raley, which she failed to do. This is
astounding, considering counsel herself testified that she believed the parts of the
statement the State cherry picked out to be misleading . (EH. 48). In fact, counsel
conceded that Calhoun’s statement could have been construed as a confession . (EH.
50). Counsel’s failure to clarify for the jury where Calhoun said he was in the woods
and when he was there left the jury with the impression that he was in the woods
with law enforcement, next to Mia Brown’s burnt car, within hours of it being
burned.

At the evidentiary hearing, counsel provided no reason, strategic or

otherwise, for her failure to clarify this point for the jury. Her failure to do so was
unreasonable and constitutes deficient performance.
Counsel’s failure to effectively cross-examine Lt. Raley allowed the State to
seize on the misleading evidence it elicited and argue that Calhoun told Lt. Raley
that he was in the woods with law enforcement on Friday afternoon, close to Mia
Brown’s car, within hours of when the State claimed it was set on fire. (T. 1210-11).
Lt. Raley’s uncorrected, misleading testimony cast a shadow of guilt over Calhoun,
the harm of which cannot be overstated. “[A] defendant’s own confession is
probably the most probative and damaging evidence that can be admitted against
him. Bruton v. United States, 391 U.S. 123, 139 (1968). Counsel’s failure to clarify

153

Calhoun’s statement to Lt. Raley was unreasonable, deficient, and caused Calhoun
great harm. There can be no confidence in the outcome of the proceeding.
In denying Calhoun’s claim, the circuit court found that trial counsel would
have been in violation of the Code of Professional Conduct had she clarified with
Lt. Raley when and where Calhoun told him that he was in the woods. (PCR. 2586).
This finding is not supported by the record or any competent, substantial evidence .
The circuit court based its finding on counsel’s testimony that Calhoun had told her
that he had been running in the woods in Alabama before he got to the Brooks’
house. (EH. 186). However, Calhoun was not seen at the Brooks’ house until
Saturday morning, almost 24 hours after Mia Brown’s car was burned, according to
the State’s timeline. (T. 780). Counsel never testified that Calhoun told her he was
in the woods right by Mia Brown’s car, within hours of it being burned . Nor did
counsel testify that Calhoun ever told her that he lied to Lt. Raley when he said he
was in the woods with law enforcement in Florida, days after the car was burned .
The trial court’s finding that counsel was ethically bound not to clarify Calhoun’s
statement is directly contradicted by the record.
i. Harvey Glen Bush
Bush testified at trial that on the afternoon of December 16, 2010, Calhoun
interrupted a conversation Bush was having with Mia Brown to ask her for a ride
later that evening. (T. 593-94). He also testified that Mia usually got off work

154

between 8:00 and 9:00 p.m. (T. 594). Bush was the only witness to actually place
Calhoun and Mia Brown in the same place at the same time.
During cross-examination counsel reiterated that Mia usually got off work
between 8:00 and 9:00 p.m. and that sometimes the store would close even earlier
than that. (T. 596). However, counsel knew for a fact that on the day Mia Brown
went missing, Charlie’s Deli closed much earlier than usual. During his deposition,
Bush testified that he returned to Charlie’s Deli around 7:00 p.m. on the evening of
December 16, 2010 and that it was already closed . (EH. Exhibit 9). This is curious
in light of Jerry Gammons’ testimony that a young lady in a light colored car
knocked on his door at 8:40 p.m. (T. 606, 612). Counsel conceded that Calhoun’s
trailer, and by extension Gammons’ trailer, were right down the road from Charlie’s
Deli. (EH. 77). This information was damaging to the State’s timeline, as there was
no explanation of what Mia Brown was doing between getting off work and showing
up at Gammons’ trailer. Counsel could not provide a single reason, strategic or
otherwise, for failing to elicit this information from Bush. (EH. 79). Her failure to
do so was deficient performance.
D. By eliciting damaging evidence in the defense’s case in chief, counsel
rendered deficient performance that prejudiced Calhoun.
1. Counsel rendered deficient performance that prejudiced Calhoun by
eliciting harmful evidence from Glenda Brooks
During the defense’s case, counsel called Glenda Brooks as a witness and

155

elicited from her she became uncomfortable with Calhoun being in her house after
she learned of the missing persons flier featuring him and Mia Brown . (T. 1076).
Because Brooks had her granddaughter in the house, she wanted Calhoun to leave .
(T. 1076).
The testimony was neither relevant nor necessary. It did nothing to disprove
the State’s case and only served to paint Calhoun as a scary individual who
intimidates grandmothers. At the evidentiary hearing, counsel could not recall why
she put Glenda Brooks on or elicited the above mentioned testimony. (EH. 138).
Counsel theorized that it was because she wanted to show that Brooks’ only wanted
Calhoun to leave because her granddaughter was there and she did not want an
additional person in the house. (EH. 138). Counsel’s explanation is nonsensical. It
was totally unnecessary for her to make this point, as Glenda Brooks never testified
that she asked Calhoun to leave her house. Counsel’s decision to call Glenda Brooks
and elicited harmful evidence from her was unnecessary, patently unreasonable and
was deficient performance.
The circuit court’s finding that counsel was “trying to show the inconsistent
statements of this witness while also attempting to get this information to the jury .”
is not supported by competent, substantial evidence and is actually refuted by the
record. (PCR. 2587). When counsel recalled Glenda Brooks, she did not impeach
her or do anything to show a prior inconsistent statement . Counsel’s attempted

156

impeachment of Brooks with her prior inconsistent statement took place during
cross-examination, when Brooks was called by the State, days prior . (T. 795-98).
Nor was counsel’s purpose for calling Brooks to get “this information”, i .e.
Calhoun’s other statements, to the jury. On direct examination, counsel only asked
Brooks questions related to her asking Calhoun to leave. (T. 1075-77). It was not
until the State started its cross-examination of Brooks did counsel make an argument
that the State opened the door to her being able to ask Brooks’ about Calhoun’s
statement. (T. 1078). There is no evidence that counsel knew what the State was
planning to ask on cross-examination prior to her calling Brooks.
Counsel’s decision to elicit this harmful evidence caused prejudice to
Calhoun. Tiffany Brooks’ testimony established that Calhoun spent a substantial
amount of time in the Brooks’ home on the morning and afternoon of December 18,
with no objection from Glenda Brooks. It was not until Glenda Brooks learned of
the missing persons flier that she became uncomfortable his presence, a fact the jury
would not have known but for counsel eliciting it . The jury could have easily
concluded that Glenda Brooks was afraid of Calhoun and believed that he did
something wrong, tainting their view of him.
2. Counsel rendered deficient performance that prejudiced Calhoun by
eliciting harmful evidence from Michael Raley
At trial, counsel recalled Lt. Raley in her case-in-chief and elicited from him

157

that a license plate bracket and a piece of cardboard with a tire impression and oil
stain were found in a pole barn in Alabama that was owned by Calhoun’s family. (T.
1083-84). During the State’s cross-examination, Lt. Raley testified that members of
Mia Brown’s family told him the bracket was consistent with the one on Mia’s car
and that her car had an oil leak. Lt. Raley testified that he could not conclusively
say that the tag bracket and oil stain came from Mia Brown’s car. (T. 1089-92). This
testimony served no purpose other than to place more damaging evidence in front of
the jury.
Counsel testified that she elicited this harmful evidence because “[E]verything
looked just a little too made up. Because everything was winding up on property of
Johnny Mack . . .” (EH. 148). If this was in fact counsel’s strategy, she failed to
execute it. Counsel testified that she took the route the State was alleging Calhoun
took and that in her mind, the evidence did not fit the State’s theory. (EH. 152).
However, counsel never explained to the jury how the tag bracket evidence failed to
fit the State’s theory. Nor did she ever make the argument that it looked “a little too
made up.” Counsel conceded that she never painted the picture for the jury that the
evidence did not fit the State’s case and could provide no explanation for why she
failed to do so. (EH. 152).
Counsel’s decision to elicit incriminating evidence, and her subsequent failure
to explain it to the jury, caused prejudice to Calhoun . The jury was left with the

158

impression that Mia Brown’s car was likely at another property connected to
Calhoun. The implication is obvious – her car was at a property connected to
Calhoun because it was Calhoun who kidnapped and murdered her. The State seized
upon counsel’s presentation of this incriminating evidence, arguing to the jury that
the evidence “absolutely fit the theory” of its case, but they did not introduce it
because it could not be conclusively proven. (EH. 1211-12). Had counsel not elicited
this evidence, the jury would have never heard it . Counsel’s decision to place
incriminating evidence in front of the jury was irresponsible, unreasonable and
ultimately prejudiced Calhoun.
V.

THE CIRCUIT COURT ABUSED ITS DISCRETION BY NOT
ALLOWING CALHOUN TO AMEND HIS MOTION FOR
POSTCONVICTION RELIEF
“The trial court’s denial of a motion to amend is subject to an abuse of

discretion standard.” Smith v. State, 213 So. 3d 722 (Fla. 2017) (citing Moore v. State,
820 So. 2d 199, 206-06 (Fla. 2002).
“A trial court does not abuse discretion in refusing to grant leave to amend
when the facts asserted in the amended motion are vague, nonspecific and fail
to suggest how relief may be warranted. Additionally, a trial court does not
abuse discretion when the facts in the amended motion “were readily available
to postconviction counsel at the time that [the defendant] filed his initial 3.851
motion[.]”
Tanzi v. State, 94 So. 3d 482 (Fla. 2012).
A. Newly discovered evidence regarding Robert Vermillion

159

This claim is predicated on the same evidence regarding Robert Vermillion as
the newly discovered evidence claim discussed supra, in Claim II(A)(2). The factual
matters contained in that claim are fully incorporated herein by specific reference .
Additionally, while the circuit court denied Calhoun’s Motion to Amend, it signed
an order transporting Vermillion to the evidentiary hearing . (PCR. 2001). Calhoun
was allowed to proffer the testimony of Vermillion, and the circuit court addressed
the merits of the claim in its order denying relief. Thus, both the denial of the Motion
to Amend and the denial of relief on the merits by the circuit court are properly
before this court. The merits of Calhoun’s newly discovered evidence claim are
addressed in Claim II(A)(2), supra.
The circuit court abused its discretion by not permitting Calhoun to amend his
motion for postconviction relief with a newly discovered evidence claim regarding
Vermillion. The Motion to Amend regarding Vermillion does not fall into either
category contemplated by the Court in Tanzi. Rather than filing the claim as a
successive motion for postconviction relief at a later point in time, requiring a second
Huff hearing and a second evidentiary hearing, Calhoun chose the more efficient
route. The claim contained all of the information known to counsel as well as a
sworn, written statement from Vermillion. (PCR. 1991). Calhoun did not request a
continuance of the evidentiary hearing, nor would there have been any prejudice to
the State had Calhoun’s amendment been granted. At the time of the filing and

160

evidentiary hearing, Vermillion was housed at the Holmes County Jail, easily
accessible to the prosecutor. (PCR. 1998).
B. Newly discovered evidence regarding Keith Ellis
The circuit court further abused its discretion when it denied Calhoun’s
Motion to Supplement and Amend Defendant’s Fifth Amended Motion to Vacate
Judgments of Conviction and Sentence and Reopen Evidentiary Hearing to Prove
Supplemental Claim (Motion to Amend and Reopen).
The question of whether Mr. Calhoun should have been granted leave to
amend and the question of the merits of the amendment are two separate inquiries .
Mr. Calhoun only addresses the circuit court’s denial of his Motion to Amend and
Reopen, as the question of the merits of the amended claim have not been
adjudicated by the circuit court, therefore it is not properly before this Court for
review.
In his Motion to Amend and Reopen and proposed claim, Mr . Calhoun
asserted that a woman named Carol Matheny contacted his legal team on or about
October 24, 2017, informing them that Doug Mixon confessed his responsibility for
Mia Brown’s murder to a fellow inmate named Keith Ellis. (PCR. 2424). Prior to
Ms. Matheny’s phone call, nobody on Mr. Calhoun’s legal team knew of Ellis. His
name does not appear anywhere in the voluminous records that were provided pretrial, nor do they appear in any of the records obtained by post-conviction counsel.

161

After speaking with Ms. Matheny, Jayson Shannon, an investigator working
for Mr. Calhoun arranged a meeting with Ellis where he learned the following: Ellis
and Mixon had been housed together at Graceville Correctional Facility when the
men struck up a friendship in late July or early August of 2017 . (PCR. 2425, 2431).
Mixon shared details of his life with Ellis, including accounts of Mixon setting fire
to things. (PCR. 2425, 2431). Once, while discussing prison medical costs, the
conversation turned to a nurse employed at Graceville C.F. – Carol Matheny. (PCR.
2425, 2432). Mixon then began to elaborate on one of his burning tales, telling Ellis
that he burned a girl on Ms. Matheny’s property. He also said that Ms. Matheny was
the aunt or a family friend of the man who was actually convicted of the crime.
(PCR. 2425-26, 2432). According to Mixon, he killed the girl because she was
messing around with his daughter’s boyfriend. (PCR. 2426, 2432). Mixon told Ellis
that he burned the girl up in her car and made it look like “the kid” did it . He went
on to say that “the kid” was now on death row for the murder. (PCR 2426, 2432.).
Weeks after this conversation, Mixon was transferred out of the dorm he and
Ellis shared. (PCR. 2426, 2433). Ellis did not see Mixon for a period of time until
running into him in the medication line. (PCR. 2426, 2433). When Ellis asked Mixon
where he had been, Mixon told Ellis that he had been to court and that people were
telling on him for burning that girl up in the car. (PCR. 2426, 2433). Mixon said that

162

even people from Alabama were telling on him. (PCR. 2426, 2433).31 Mixon
mentioned that Ms. Matheny was the one causing all the problems and he was going
to have to “deal with her.” (PCR. 2426, 2433). Fearing for Ms. Matheny’s safety,
Ellis informed her what Mixon had said, as well as the assistant warden at Graceville
C.F. (PCR. 2426, 2433). He did not speak of it again until approached by Mr.
Calhoun’s legal team on October 30, 2017. (PCR. 2426, 2434). A sworn affidavit
signed by Mr. Ellis was attached to Calhoun’s Motion to Amend and Reopen,
affirming the facts outlined above. (PCR. 2431).
It is clear the circuit court abused its discretion in denying Calhoun’s Motion
to Amend and Reopen.

The circuit court’s order was brief and unreasoned,

providing no legal justification for denying the amendment . (PCR. 2437). In his
Motion to Amend and Reopen and the attached claim, Calhoun laid out detailed,
specific facts to form the basis of his newly discovered evidence claim. (PCR. 24182436). Calhoun also engaged in a detailed legal analysis, explaining how the newly
discovered evidence of yet another confession by Mixon is such that would probably
produce an acquittal on retrial. (PCR. 2427-28). Calhoun detailed the circumstances

Carol Matheny does, in fact, own land bordering Charlie Skinner’s property. It
was never definitively determined whether the body was found on Skinner’s
property or the neighboring land. The area where Mia Brown’s car was found is
visible from a trailer that sits on the property Ms. Matheny owns. Additionally,
Calhoun is a friend of the Matheny family. He went to school with Ms. Matheny’s
daughter and remained close with the family, even after they both graduated from
high school.
31

163

that led to his filing the newly discovered evidence claim after the conclusion of his
evidentiary hearing. It has been shown without a doubt that the facts Calhoun sought
to amend his postconviction motion with were not readily available to
postconviction counsel at the time he filed his initial 3.851 motion. In fact, many of
Mixon’s statements alleged in the motion were made after the conclusion of
Calhoun’s hearing.
Given the procedural posture of Calhoun’s case at the time this newly
discovered evidence came to light, he found himself in a unique situation not
contemplated by Fla. R. Crim. P. 3.851.

Fla. R. Crim. P. 3.851(f)(4) states, in

pertinent part, “The trial court may in its discretion grant a motion to amend provided
that the motion to amend was filed at least 45 days before the scheduled evidentiary
hearing.” While he could have filed a successive petition based on Fla. R. Crim. P.
3.851(d)(2)(A), his initial postconviction motion had yet to reach a point of finality.
Counsel’s deadline for submitting written closing arguments had not yet come, nor
had the circuit court filed an order ruling on Calhoun’s claims. Additionally, Fla. R.
Crim. P. 3.851(e)(2) allows the circuit court to dismiss successive motions if the
court finds the failure to assert those grounds in a prior motion constituted an abuse
of procedure, or if the circuit court finds there was no good cause for failing to assert
those grounds in a prior motion. In fact, the State has itself argued that a Motion to
Amend to supplement claims discovered after an evidentiary hearing is a better

164

practice than attempting to adjudicate the claims in a successive petition. See
Aguirre-Jarquin v. State, 202 So. 3d 785, 792-93 (Fla. 2016).
In non-capital cases, it has oft been held that a trial court abuses its discretion
when it does not allow a defendant to amend his postconviction motion after an
evidentiary hearing is completed but before the trial court has ruled. See, Pritchett v.
State, 884 So. 2d 417 (Fla. 2d DCA 2004)(holding the defendant was entitled to
amend his postconviction motion with additional claims where the statutory time
period had not expired and the court had not yet ruled on the original claims);
Ramirez v. State, 854 So. 2d (Fla 2d DCA 2003)(holding the trial court erred in
failing to consider the merits of new claims in an amended motion for postconviction
relief where the court denied the motion in part but not yet entered a final order
disposing of the original motion). Allowing non-capital defendants greater latitude
in amending their postconviction motions while denying those under the sentence of
death the same opportunity leads to absurd results.
This is not a case where the facts asserted in either amended motion were
vague and nonspecific, nor were they readily available to counsel at the time
Calhoun’s initial 3.851 motion was filed. The circuit court’s denial of Calhoun’s
Motion to Amend regarding Vermillion and his Motion to Amend and Reopen was
an abuse of discretion. This Court should remand this issue back to the circuit court
for a full and fair evidentiary hearing on the matter.

165

VI.

THE STATE VIOLATED CALHOUN’S DUE PROCESS RIGHTS
BY PRESENTING MISLEADING EVIDENCE AND ADVANCING
FALSE AND MISLEADING ARGUMENT IN CONTRAVENTION
OF GIGLIO/NAPUE32

Due process precludes the State from presenting either false or misleading
evidence and/or false or misleading argument. Giglio, 405 U.S. at 53 (“deliberate
deception of a court and jurors by the presentation of known false evidence is
incompatible with ‘rudimentary demands of justice.’”)
To establish a Giglio violation, it must be shown that: (1) the testimony given
was false; (2) the prosecutor knew the testimony was false; and (3) the statement
was material. Guzman v. State, 868 So. 2d 498 (Fla. 2003). Under Giglio, false
testimony is material “if there is any reasonable likelihood that the false testimony
could have affected the judgment of the jury.” Guzman, citing United States v. Agurs,
427 U.S. 97, 103 (1976).33 Further, the State, as the beneficiary of the Giglio
violation, bears the burden to prove that the presentation of false testimony at trial
was harmless beyond a reasonable doubt. Guzman at 506.
Lt. Raley and Ofc. Harry Hamilton interrogated Calhoun on December 20,
2010. At trial, the State cherry picked a few statements made by Calhoun and

32

Giglio v. U.S., 405 U.S. 150 (1972); Napue v. Illinois, 360 U.S. 264 (1959).
This Court applied a mixed standard of review to Giglio claims, deferring to the
factual findings made by the circuit court to the extent they are supported by
competent, substantial evidence, but reviewing de novo the application of those
facts to the law. See Duckett v. State, 231 So. 3d 393 (Fla. 2017).
33

166

presented them to the jury. Counsel objected, arguing Calhoun’s entire statement
was admissible under the rule of completeness. (T. 953-54). The trial court overruled
counsel’s objection and allowed the State to present only the statements it saw fit.34
The State asked Lt. Raley if Calhoun made any statements concerning being
in the woods with law enforcement in the days leading up to December 20, 2010. (T.
955). Lt. Raley responded in the affirmative, testifying “He leaned over and he made
the statement that there were three times that he was close enough to (tapping on
desk) he tapped the side of my leg with his foot.” (T. 955).
The State took this testimony, presented in a vacuum, and ran with it . During
closing arguments, the State told the jury, in no uncertain terms, that the only time
Calhoun admitted to being in the woods with law enforcement and the only time that
was possible was on the afternoon of Friday, December 17, “where that car was
burned.” (T. 1210-11). Further, the State made it a point to say with specificity that
it was Lt. Raley that was in the woods with Calhoun. (T. 1210-11).
The testimony of Lt. Raley is clearly misleading and the State’s argument is
patently false. What Calhoun actually told Lt. Raley and Ofc. Hamilton, who was
also present during his interrogation, was “[Y]’all was tightening up the noose last
night [December 19, 2010] when I was in the woods man” and “I’d say more than

The circuit court’s erroneous ruling was later found to be error by this Court .
See, Calhoun v. State, 138 So. 3d 350, 360 (Fla. 2013).
34

167

three times a deputy could of reached out and done like that.” (EH exhibit
5)(emphasis added). When Lt. Raley asked Calhoun where he was when this
happened, Calhoun responded “Down there, close to the Bethlehem Campground. I
don’t really know where I was in the woods.” (EH exhibit 5). Lt. Raley asked
Calhoun if he was referring to the Bethlehem Campground “down here in Florida?”
saying “You made it all the way down there?” Calhoun confirmed that he did.
Calhoun could not have been any clearer with Lt. Raley and Ofc. Hamilton. He was
close to law enforcement on the night of December 19, 2010 in Florida.
The State committed a clear Giglio violation. As demonstrated, the evidence
and argument were misleading and false. Lt. Raley’s testimony and the State’s
subsequent argument do not match what Calhoun actually said . The State clearly
knew the testimony and its subsequent argument was misleading and false, as it
fought, successfully, to keep the remainder of Calhoun’s statement out of evidence .
The circuit court does not dispute the first two prongs required to establish a
Giglio violation.35 In fact, the circuit court conceded the State Attorney “implied
Calhoun was in the woods close to where the car was burnt .” (PCR. 2595). The
circuit court went on to theorize that “even if the State attorney had not incorrectly

The portion of the circuit court’s order denying Calhoun relief based on
claims of a Giglio35 violation was copied and pasted entirely from the State’s
response, dated November 24, 2015. (PCR. 1170-1173).35
35

168

implied Calhoun’s statements to the investigator, there was still sufficient evidence
that he was in close proximity to where the car was found burnt in Alabama .
Consequently, the State Attorney did not knowingly present false information to the
jury and merely implied it incorrectly” (PCR. 2595)(emphasis added). The circuit
court’s reasoning is nonsensical. Implying something you know to be false and
explicitly stating something you know to be false are the same thing . The fact
remains, the State told the jury that Calhoun confessed to being with the woods with
law enforcement and the only time it was possible was on the afternoon of Friday,
December 17, “where that car was burned.” (T. 1210-11). That was false and the
State Attorney knew it.
Because Calhoun established that the State knowingly presented false
testimony and argument at trial, the burden shifted to the State to show that the false
evidence was harmless beyond a reasonable doubt . Guzman at 506. The circuit
court erroneously ignored this point of law, stating that Calhoun “cannot show how
this information is material to his case. (PCR. 2595). The burden was not on Calhoun
to demonstrate the materiality of the statements. Rather, the burden was on the State
to demonstrate that it was not, which it failed to do.
Regardless, the materiality of these false statements cannot be overstated . The
case against Calhoun was entirely circumstantial. Counsel conceded that the false
testimony and argument could have been construed as a confession and that it was

169

harmful to Calhoun. (EH. 50). Counsel further conceded that confessions are the
most damaging evidence in a case. (EH. 185). As demonstrated above, Calhoun
never actually confessed to being in close proximity to Mia Brown’s burned car at
or near the time it was burned, nor did he ever confess to this crime . The State did
not have any direct evidence linking Calhoun to Mia Brown’s murder. Its case was
nothing more than a hodge-podge of assumptions based on a faulty timeline.
Calhoun has demonstrated a Giglio violation that absolutely affected the
judgment of the jury. Any argument to the contrary is discredited by the fact that
the circuit court, sitting as a fact finder, viewed this evidence in a manner extremely
prejudicial to Calhoun.36 Relief in the form of a new trial is proper.
VII. THE CIRCUIT COURT VIOLATED CALHOUN’S RIGHT TO
DUE PROCESS WHEN IT ADOPTED THE STATE’S PLEADINGS
IN LIEU OF CONDUCTING AN INDEPENDENT AND
IMPARTIAL ANALYSIS
The circuit court’s verbatim adoption of the State’s written responses and its
closing argument violated Calhoun’s right to due process and presents an additional
consideration for this Court in deciding Calhoun’s case.37

The circuit court characterized this evidence as Calhoun “boast[ing] about being
in the woods near the car, the very afternoon it was burned, hiding from Raley.”
(EH. 188).
37
Pure questions of law are subject to de novo review. See State v. Glatzmayer,
789 So. 2d 297 (Fla. 2001).
36

170

Fla. R. Crim. P. 3.851(f)(5)(F) states that “the court shall rule on each claim
considered at the evidentiary hearing and all other claims raised in the motion,
making detailed findings of fact and conclusions of law with respect to each claim,
and attached or referencing such portions of the records as are necessary to allow for
meaningful appellate review.”(emphasis added).
It is axiomatic than an order granting or denying a petitioner postconviction
relief must be an order of the court. Courts have routinely disavowed the practice
of mechanically adopting the findings of facts and legal conclusions prepared by one
party to the controversy.

See, Ex Parte v. Scott, 2011 WL 925761 (Ala.

2011)(reversing and remanding a trial court’s order adopting verbatim the State’s
answer as its order denying postconviction relief because “by its nature,” the
appellate court could not conclude the order was the manifestation of the findings
and conclusion of the lower court); Cuthbertson v. Biggers Bros., Inc., 702 F. 2d 454
(4th Cir. 1983) (condemning lower courts for the practice of adopting the prevailing
party’s proposed findings of fact and conclusions of law and remanding, directing
the district court to prepare its own findings of fact and conclusions of law); Ingram
v. State, 51 So. 3d 1119 (Ala. 2010) (reversing denial of postconviction relief where
state court judge adopted verbatim a proposed order which included erroneous
factual findings); Commonwealth v. Beasley, 967 A.2d 376, 395 (Pa. 2009)

171

(criticizing postconviction judges who have resorted to “wholesale adoption” of the
prosecution’s briefs).
This Court has previously held that due process was not violated when a trial
court adopts the State’s proposed order in postconviction cases where the defendant
had notice of the request for proposed orders and an opportunity to submit his or her
own proposed order and/or objections. See, Glock v. Moore, 776 So. 2d 243 (Fla.
2001); Groover v. State, 640 So. 2d 1077 (Fla. 1994); and Patton v. State, 784 So.
2d 380 (Fla. 2000). That is not what occurred in Calhoun’s case. The circuit court
did not ask the parties to submit proposed orders, rather it directed the parties to
submit written closing arguments, pursuant to Fla. R. Crim. P. 3.851(f)(5)(E). In
accordance with that section, Calhoun was not afforded the opportunity to file an
answer or reply to the State’s closing. Nor was Calhoun on notice that the written
closing arguments would effectively be regarded as proposed orders.
The circuit court’s order spans fifty-three pages. (PCR. 2557-2609). The first
seven pages contain the facts of Calhoun’s case, as recited by this Court’s opinion
on direct appeal. (PCR. 2557-2563). The next three pages detail the procedural
history of Calhoun’s postconviction history, followed by the circuit court’s granting
of Hurst relief. (PCR. 2564-2566, 2567).
On page twelve of its order, the circuit court ostensibly begins its legal and
factual analysis of Calhoun’s postconviction claims. (PCR. 2568). What follows is

172

an order containing analysis that is roughly seventy-five percent copied verbatim
from the State’s written responses and closing argument. By comparing the circuit
court’s order to the State’s pleadings, Calhoun has been able to deduce the following:
(1) pages 12-19, 37, 39, 40-42, 45, and 51-52 are entirely taken from the State’s
pleadings, the only additions being headers; (2) pages 20, 30-31, 33, 35-36, 38, and
43-44 are nearly entirely taken from the State’s pleadings, only containing one to
two small, original paragraphs; and (3) pages 25-26, 28-29, 32, 46, and 50 all contain
portions taken entirely from the State’s pleadings. In sum, out of forty pages that
purport to contain the circuit court’s factual and legal findings, roughly thirty of them
contain purported “findings” copied verbatim from the State’s pleadings, either in
part or in full.
The circuit court’s order is further subject to concerns of denial of due process
because the court failed to address, let alone acknowledge, any of the evidence or
argument Calhoun offered in support of his claims for postconviction relief . It would
appear the circuit court failed to read Calhoun’s written closing argument, much less
give it any independent thought or analysis.
As a consequence of copying the State’s pleadings verbatim, the circuit court
applied an incorrect and heightened standard of proof to Calhoun’s ineffective
assistance of counsel claims. In determining what constitutes a probability sufficient
to undermine confidence in the outcome, the circuit court asserted that Calhoun

173

“must show that but for counsel’s alleged errors, he probably would have received
an acquittal at trial or a life sentence during the penalty phase . Gaskin v. State, 822
So. 2d 1243, 1247 (Fla. 2002).” (PCR. 2568)38. It is evident that due to this error,
the circuit court violated Calhoun’s due process right to a fair postconviction
proceeding by erroneously applying a heightened standard of proof.
By its nature, the circuit court’s order in Calhoun’s case is not the product of
an independent, impartial and reasoned decision by the court . This Court should
harbor serious doubts regarding the circuit court’s findings, and should not give any
deference to the conclusions of law or findings of fact of the circuit court in this case.
The circuit court’s verbatim adoption of the State’s pleadings casts doubt upon the
independence of the court’s thought processes and fails to provide a clear
understanding for the basis of the circuit court’s decision.
CONCLUSION AND RELIEF SOUGHT
Based on the foregoing and the record before this Court, Calhoun respectfully
urges this Court to reverse the circuit court, grant a new trial, and grant such other
relief as this Court deems just and proper.

38

Nowhere in Gaskin did this Court state that a defendant claiming ineffective
assistance of counsel must show that he “probably would have received an
acquittal at trial.” There is such a standard in postconviction law; it is found in
case law regarding claims based on newly discovered evidence. As noted by the
Gaskin Court itself, the standard of proof for newly discovered evidence claims is
higher than the standard of proof required for claims based on ineffective
assistance of counsel.
174

CERTIFICATE OF SERVICE
I hereby certify that true and correct copy of the foregoing brief has been
electronically filed with the Clerk of the Florida Supreme Court, and electronically
served upon Lisa Hopkins, Assistant Attorney General on the 18th day of July, 2018.

/s/ KATHLEEN PAFFORD
Kathleen Pafford
Assistant CCRC-North
Florida Bar No. 99527
1004 DeSoto Park Drive
Tallahassee, FL 32301
(850) 487-0922
Elizabeth Salerno
Assistant CCRC-North
Florida Bar No.
COUNSEL FOR THE APPELLANT

CERTIFICATE OF FONT
I hereby certify that the foregoing Initial Brief was generated in Times New
Roman 14 point font, pursuant to Fla. R. App. P. 9.100 and 9.210.
/s/ KATHLEEN PAFFORD
Kathleen Pafford
Assistant CCRC-North
Florida Bar No. 99527

175

Filing # 78427258 E-Filed 09/26/2018 09:08:44 AM

IN THE SUPREME COURT OF FLORIDA
JOHNNY MACK SKETO CALHOUN,
Appellant,
CASE NO. 18-340
Lower Tribunal No.
2011-CF-11
DEATH PENALTY CASE

v.

RECEIVED, 09/26/2018 09:13:25 AM, Clerk, Supreme Court

STATE OF FLORIDA,
Appellee.
______________________________/

ON APPEAL FROM THE CIRCUIT COURT
OF THE FOURTEENTH JUDICIAL CIRCUIT,
IN AND FOR HOLMES COUNTY, FLORIDA

RESPONSE BRIEF OF APPELLEE
PAMELA JO BONDI
ATTORNEY GENERAL
LISA A. HOPKINS
ASSISTANT ATTORNEY GENERAL
Florida Bar No. 99459
The Capitol, PL-01
Tallahassee, Florida 32311
Telephone: (850) 414-3300
Facsimile: (850) 414-0997
Lisa.Hopkins@myfloridalegal.com
capapp@myfloridalegal.com

Counsel for Appellee

176

TABLE OF CONTENTS

TABLE OF AUTHORITIES ................................................................................... iv
STATEMENT OF THE CASE AND FACTS ..........................................................1
REFERENCES.........................................................................................................11
JURISDICTION.......................................................................................................11
SUMMARY OF THE ARGUMENT ......................................................................13
ARGUMENT ...........................................................................................................19
I. APPELLANT WAS NOT DEPRIVED OF HIS FUNDAMENTAL RIGHT
TO EFFECTIVE ASSISTANCE OF COUNSEL AS HIS DEFENSE COUNSEL
DID NOT HAVE A CONFLICT OF INTEREST. ..............................................19
A. Conflict-free counsel.....................................................................................19
B. Lack of qualified co-counsel .........................................................................23
II. APPELLANT’S CLAIM OF NEWLY DISCOVERED EVIDENCE DOES
NOT ESTABLISH THAT THE CASE AGAINST APPELLANT WAS
WEAKENED AND CREATES REASONABLE DOUBT. ................................25
A. Natasha Simmons ........................................................................................25
B. Robert Vermillion........................................................................................35
C. Jose Contreras..............................................................................................37
D. Brandon Brown ...........................................................................................38
III. THE TRIAL COURT WAS CORRECT IN FINDING THAT THERE
WAS NO VIOLATION UNDER BRADY. .........................................................41
IV. CALHOUN’S TRIAL COUNSEL DID NOT RENDER INEFFECTIVE
ASSISTANCE OF COUNSEL.............................................................................46
A. Counsel was not ineffective in her investigation of Doug Mixon’s alibi. ....48
B. Trial counsel did not render ineffective assistance of counsel when she did
not hire forensic experts.....................................................................................55

177

C. Trial counsel subjected the State’s case to adversarial testing through
investigation, cross-examination, the utilization of available impeachment
evidence, and proper objection and did not render ineffective assistance of
counsel that prejudiced Calhoun........................................................................61
D. Calhoun was not prejudiced by the testimony of Glenda Brooks and
Investigator Raley during the defense’s case-in-chief at trial. ..........................74
V. THE POSTCONVICTION COURT DID NOT ABUSE ITS DISCRETION
BY NOT ALLOWING CALHOUN TO AMEND HIS MOTION FOURTEEN
DAYS PRIOR TO THE START OF THE EVIDENTIARY HEARING............78
VI. THE STATE DID NOT COMMIT ANY VIOLATIONS UNDER GIGLIO
AND CALHOUN’S DUE PROCESS RIGHTS WERE NOT VIOLATED. ......80
VII. THE POSTCONVICTION COURT RELIED ON ESTABLISHED LAW
AND PROPERLY APPLIED THE LAW TO THE EVIDENCE THAT WAS
PRESENTED AT THE EVIDENTIARY HEARING. ........................................81
CONCLUSION ........................................................................................................82
CERTIFICATE OF SERVICE ................................................................................84
CERTIFICATE OF FONT COMPLIANCE ...........................................................84

178

TABLE OF AUTHORITIES
CASES
Adams v. Wainwright, 709 F.2d 1443 (11th Cir. 1983) ..........................................74
Armstrong v. State, 642 So. 2d 730 (Fla. 1994) ......................................................21
Bain v. State, 691 So. 2d 508 (Fla. 5th DCA 1997) ................................................32
Beasley v. State, 18 So. 3d 473 (Fla. 2009) .............................................................56
Berman v. United States, 302 U.S. 211 (1937)........................................................12
Brady v. Maryland, 373 U.S. 83 (1963) ..................................................................26
Brown v. State, 846 So. 2d 1114 (Fla. 2003)...........................................................61
Calhoun v. Florida, 135 S.Ct. 236 (2014) ................................................................10
Calhoun v. State, 138 So. 3d 350 (Fla. 2013) .................................................. passim
Callahan v. Campbell, 427 F.3d 897 (11th Cir. 2005) ............................................61
Chandler v. United States, 218 F.3d 1305 (11th Cir. 2000) ....................................47
Cox v. State, 966 So. 2d 337 (Fla. 2007) .................................................................24
Cummings v. Sec’y, Fla. Dept. of Corr., 588 F.3d 1331 (11th Cir. 2009) ..............47
Cuyler v. Sullivan, 446 U.S. 335 (1980) .................................................................20
Darling v. State, 966 So. 2d 366 (Fla. 2007) ...........................................................75
Dingle v. Sec’y Dept. of Corr., 480 F.3d 1092 (11th Cir. 2007) ...................... 74, 75
Doorbal v. State, 983 So. 2d 464 (Fla. 2008) ..........................................................78
Everett v. State, 54 So. 3d 464 (Fla. 2010) ..............................................................77
Ferrell v. State, 653 So. 2d 367 (Fla. 1995) .............................................................21
Gaskin v. State, 822 So. 2d 1243 (Fla. 2002) ..........................................................48
Giglio v. United States, 405 U.S. 150 (1972) ..........................................................80
Gore v. State, 964 So. 2d 1257 (Fla. 2007) .............................................................61
Guzman v. State, 868 So. 2d 498 (Fla. 2003) ..........................................................80
Harrington v. Richter, 131 S.Ct. 770 (2001) ...........................................................62
Hegwood v. State, 575 So. 2d 170 (Fla. 1991) ................................................. 26, 42
Huff v. State, 622 So. 2d 982 (Fla. 1993) ................................................................10
Hunter v. State, 817 So. 2d 786 (Fla. 2002) ..................................................... 19, 20
Hurst v. Florida, 136 S.Ct. 616 (2016) ....................................................................10
Johnson v. Singletary, 647 So. 2d 106 (Fla. 1994) ........................................... 25, 32
Jones v. State, 709 So. 2d 512 (Fla. 1998)....................................................... passim
Kyles v. Whitley, 514 U.S. 419 (1995) ...................................................................44
Lowe v. State, 650 So. 2d 969 (Fla. 1994) ..............................................................21

179

Mansfield v. State, 204 So. 3d 14 (Fla. 2016) .........................................................32
Mansfield v. State, 911 So. 2d 1160 (Fla. 2005) .....................................................75
Moon v. Head, 285 F.3d 1301 (11th Cir. 2002) ......................................................45
Muhammad v. State, 426 So. 2d 533 (Fla. 1982) ....................................................61
Occhicone v. State, 768 So. 2d 1037 (Fla. 2000) ....................................................47
Pagan v. State, 29 So. 3d 938 (Fla. 2009) ......................................................... 47, 62
Peterka v. State, 890 So. 2d 219 (Fla. 2004) ...........................................................61
Pietri v. State, 885 So. 2d 245 (Fla. 2004) ...............................................................30
Porter v. McCollum, 558 U.S. 30 (2009).................................................................48
Reed v. State, 875 So. 2d 415 (Fla. 2004) ........................................................ 56, 57
Ring v. Arizona, 536 U.S. 584 (2002) .......................................................................9
Robinson v. State, 707 So. 2d 688 (Fla. 1998) ................................................. 26, 42
Robinson v. State, 865 So. 2d 1259 (Fla. 2004) ......................................................25
Rutherford v. State, 727 So. 2d 216 (Fla. 1998) ......................................................48
Sears v. Upton, 561 U.S. 945 (2010) .......................................................................30
Smith v. Cain, 565 U.S. 73 (2012).................................................................... 28, 43
Smith v. State, 213 So. 3d 722 (Fla. 2017) ..............................................................78
Smith v. State, 931 So. 2d 790 (Fla. 2006) ....................................................... 27, 42
Spencer v. State, 615 So. 2d 688 (Fla. 1993).............................................................8
State v. Preston, 376 So. 2d 3 (Fla. 1979) ...............................................................11
State v. Spaziano, 692 So. 2d 174 (Fla. 1997) .........................................................32
Strickland v. Washington, 466 U.S. 668 (1984) .............................................. passim
Strickler v. Green, 527 U.S. 263 (1999) ........................................................... 27, 42
Taylor v. State, 87 So. 3d 749 (Fla. 2012) ...............................................................23
Torres-Arboleda v. Dugger, 636 So. 2d 1321 (Fla. 1994).......................................32
Trepal v. State, 754 So. 2d 702 (Fla. 2000) .............................................................11
Turner v. United States, 137 S.Ct. 1885 (2017) .............................................. passim
United States v. Avellino, 136 F.3d 249 (2d Cir. 1998) ..........................................45
United States v. Gambino, 835 F.Supp. 74 (E.D.N.Y. 1993) ..................................45
United States v. Meros, 866 F.2d 1304 (11th Cir. 1989).........................................45
Ventura v. State, 794 So. 2d 553 (Fla. 2001)...........................................................80
Williamson v. Dugger, 651 So. 2d 84 (Fla. 1994) ............................................ 25, 32
Yarborough v. Gentry, 540 U.S. 1 (2003) ...............................................................62

180

STATUTES
Fla. R. Crim. P. 3.112 ....................................................................................... 21, 47
Fla. R. Crim. P. 3.851 ....................................................................................... 10, 78
OTHER AUTHORITIES
In re Amendment to Florida Rules of Criminal Procedure – Rule 3.112, 820 So. 2d
185 (Fla. 2002) ............................................................................................... 21, 24
Rule 4-1.10(a) ..........................................................................................................21
Rule 4-1.7 Conflict of Interest .................................................................................20

181

STATEMENT OF THE CASE AND FACTS
The relevant facts concerning the murder of Mia Chay Brown are recited in
this Court’s opinion on direct appeal:
Johnny Mack Sketo Calhoun and Mia Chay Brown were both reported
missing on December 17, 2010. On December 20, Brown's remains
were found bound and burnt in her car, which had been lit on fire in the
woods of Alabama. Calhoun, thought to be the last person to see Brown
alive, was found hiding in the frame of his bed inside his trailer on
December 20.
Guilt Phase
Brown worked at Charlie's deli and grocery store in Esto, Florida.
Harvey Glenn Bush saw Brown working at Charlie's deli around 1 to
1:30 p.m. on December 16, 2010, and knew Brown drove a white car.
Bush heard Calhoun ask Brown for a ride that evening and Brown
responded that she would pick him up after work at approximately 8 to
9 p.m.
Brown drove to Jerry Gammons' trailer in a light colored, four-door car
and knocked on his door at about 8:40 p.m. on December 16. Brown
asked for Calhoun, and Gammons told her that Calhoun did not live
there. America's Precious Metals junkyard, where Calhoun's trailer was
located, is approximately one road down from Gammons' trailer.
Brandon Brown, Brown's husband, talked with Brown at lunch time on
December 16 while she was working at Charlie's deli. Brown usually
got off of work at approximately 9 p.m. Brandon called Brown at 10
p.m. because she was not home. Brandon fell asleep on the couch at
about 10:30 p.m., and when he woke up at 2 a.m., his wife was still not
home. It was unusual for Brown not to come home; Brandon started
calling family members to find her.

182

Sherry Bradley, the manager at Gladstone's convenience store located
between Enterprise and Hartford, Alabama, testified that Calhoun came
into her store between 5:30 and 6:00 a.m. on December 17, 2010, and
bought cigarettes. Bradley noticed scratches and dried blood on his
hands and sores on his face. Calhoun was wearing a white shirt that had
spots of blood on it and there was something black underneath his
fingernails. She asked Calhoun about his appearance, and he responded
that he had been deer hunting. Calhoun was driving a white, four-door
car with a Florida license plate. Darren Bratchelor, a former schoolmate
of Calhoun's, also saw Calhoun at the convenience store at about 6 a.m.
After that day, Bradley left town for a few days, but when she returned,
another employee had posted a missing persons flyer in the store, on
which she recognized Calhoun's photograph.
Chuck White, a patrol officer for Holmes County, Florida, arrived at
America's Precious Metals at 8 a.m. on December 17. White looked in
Calhoun's trailer and found clothes and trash scattered everywhere.
Calhoun was not there. On cross-examination, White testified that
Sketo Calhoun (“Sketo”) and Terry Ellenburg, co-owners of America's
Precious Metals, told him that there had been a break-in at the junkyard,
that there were pry marks on Calhoun's trailer door, and that the skid
steer loader, or Bobcat, had been hot-wired and moved. White noticed
many tire tracks around the yard. White acknowledged that he did not
secure Calhoun's trailer before he left the yard.
Brett Bennett, a cattle broker in Geneva, Alabama, noticed smoke from
the highway on December 17 at approximately 11 a.m. Keith Brinley,
a school maintenance employee in Geneva, Alabama, also saw a big
fire behind the Bennett residence at about that same time.
Tiffany Brooks, a resident of Hartford, Alabama, found Calhoun in her
family's shed on the morning of December 18, 2010. Calhoun was on
the ground wrapped in sleeping bags that the family kept around the
freezer. Calhoun was wearing overalls and a white t-shirt and was wet
and dirty. Brooks brought Calhoun into the house and the family
washed his clothes, gave him new clothes, let him shower and nap, and

183

gave him some food. Steven Bledshoe, Tiffany's boyfriend, called the
Brooks' residence and told them about the missing persons flyer he saw
with Calhoun and Brown's pictures on it. Calhoun told the Brooks he
did not know Brown but she was probably the person who was
supposed to pick him up at his trailer the night before. Calhoun had the
Brooks drop him off at a dirt road. Glenda Brooks, Tiffany's mother,
also testified to these events.
Brittany Mixon, Calhoun's ex-girlfriend, testified that she went to
school with Brown and that Brown knew Calhoun through her and from
working at the convenience store. On December 16, Mixon stayed at
her father's house and expected Calhoun to come over that night but he
never came. Mixon drove to America's Precious Metals on the morning
of December 17 to find Calhoun because he did not have a phone to
call. Mixon used to live in Calhoun's trailer with him but moved out in
October of that year. She testified that they had lost the key to the trailer
so they had had to pry the door open to get inside the trailer. Mixon
asked Sketo if he had seen Calhoun, but he had not. Mixon looked
inside Calhoun's trailer; no one was inside, but the trailer was
ransacked. Lieutenant Michael Raley of the Holmes County Sheriff's
Office investigated Brown's missing persons report. He called Mixon,
who told Raley about a campsite in Hartford, Alabama, approximately
ten miles from America's Precious Metals, where Mixon and Calhoun
would camp. The campground was on the property of Charlie Skinnard,
Calhoun's brother-in-law. Mixon met the Brooks family once while
camping with Calhoun. She took Raley to the campsite. Raley noted
that the burnt car was off of Coleman Road, approximately 1,488 feet
away from Calhoun's campsite. The Brooks' residence was
approximately 1.5 miles from the burnt car.
Angie Curry, Priscilla Strickland, and Mixon went to Calhoun's trailer
around 4 p.m. on December 17. Mixon went into the trailer and found
wine, a purse, and menthol cigarettes. They took the items and called
the police. Brandon identified the purse as belonging to Brown. When
Mixon gave Brown's purse to Raley, Raley sent a police officer to

184

Calhoun's trailer to secure it until they got a search warrant. On crossexamination, Mixon acknowledged that Sketo and Ellenburg told her
that the trailer had been broken into and not to go in it, but she did
anyway. She stated that Calhoun did not smoke cigarettes and did not
have cable television service in his trailer.
Dick Mowbry, former game warden for Geneva County, Alabama,
participated in a search for Brown and Brown's vehicle on December
20, 2010. He found a burnt, white Toyota with no license plate. The
entire inside of the car was burnt and while he was looking through the
front of the car, he saw a rib cage in the trunk, so he called the police.
Mike Gillis, with the Alabama Bureau of Investigation, responded on
December 20 to the call regarding the burnt vehicle. Remains of a body
were in the trunk of the car. There was what looked like coaxial cable
wrapped around the wrists of the body; duct tape was also found in the
car.
On December 21, 2010, Dr. Stephen Boudreau, a medical examiner for
Alabama, received the human remains found inside the burnt car. The
remains were badly burnt; the hands and lower limbs had been burnt
off. Dr. Boudreau was able to identify the remains as female because
the uterus and vagina were not destroyed, but the sex organs were
denatured, or heated, to such an extent that there was no way to analyze
them. He found coaxial cable wrapped around what was left of the
remains' upper arms and tape on the neck. Dr. Boudreau determined
that the cause of death was smoke inhalation and thermal burns and that
the death was a homicide. He found soot embedded in the airway of the
lungs' mucus blanket and carbon monoxide in the back tissue, meaning
that the victim had inhaled smoke. Dental x-rays matched those of
Brown's. On cross-examination, the defense elicited that no foreign
DNA was found in Brown's vagina. Dr. Boudreau also acknowledged
that no ends of the coaxial cable were found, and that he could not
determine whether Brown was conscious or not when she inhaled the
smoke or at what point in time she would have lost consciousness.

185

On December 20, 2010, Jeffery Lowry, deputy state fire marshal with
the Alabama Fire Marshal's Office, took debris samples from the burnt
car and sent them to the Alabama and Florida laboratories. Jason Deese,
an arson investigator for the Florida Bureau of Fire and Arson, testified
that on December 22, 2010, he inspected the car. The vehicle
identification number (VIN) was matched to a 2000 Toyota Avalon.
Brown owned a four-door 2000 Toyota Avalon. The fire originated in
the driver's seat and passenger compartment; it was not an engine fire.
Perry Koussiafes, senior crime laboratory analyst for the Florida Fire
Marshal's Office, received six samples from the car on December 30,
2010. The samples from the right front quarter and left quarter of the
car tested positive for ignitable liquid.
Trevor Seifret, a crime lab analyst for the Florida Department of Law
Enforcement (FDLE), testified that blood found on the cardboard of a
roll of duct tape taken from Calhoun's trailer was a major donor match
to Brown and a minor donor partial match to Calhoun. Blood found on
blankets taken from Calhoun's trailer were total matches to Calhoun
and Brown. DNA from hair found in Calhoun's trailer also matched
Brown; Seifret testified that DNA is found on hair only when the hair
is pulled out of the scalp.
Jennifer Roeder, a digital evidence crime analyst for FDLE, testified
that an SD memory card found in Calhoun's trailer was from Brown's
camera, and based on the time and date stamps of other pictures on the
camera, the last picture was taken between 3:30 and 4:00 a.m. on
December 17, assuming no one reset the clock on the camera.
On December 20, 2010, Harry Hamilton, captain of the Holmes County
Sheriff's Department, seized Calhoun's trailer pursuant to a search
warrant. He noticed that the evidence tape on the door had been broken.
He found Calhoun hiding under his mattress in the bed frame in his
trailer. Calhoun had scratches on his hands, arms, and neck.
Raley executed a second search of Calhoun's trailer on December 28 at
the impound yard of the Holmes County Sheriff's office after Brown's

186

remains had been found. He found a TV face down on the mattress of
the bed and a DVD player. A VCR was on the floor and the top was
off, with wires tangled in the corner. A converter box with outputs for
a coaxial cable and a TV with a coaxial coupling were found, but no
coaxial cable was found in the trailer.
The State rested, and the defense provided witnesses as follows. José
Martinez, owner of the Friendly Mini-Mart, testified that Calhoun came
to his store on December 16 and bought a pack of cigars, wine, and
apple cider. He never knew Calhoun to buy cigarettes.
Matt Crutchfield who lived near America's Precious Metals was
awakened on December 17 between 1 and 3:30 a.m. by a loud bang. He
had heard the noise before and thought it came from the recycling plant.
Monica Crutchfield, his wife, was also awakened by a loud noise that
came from America's Precious Metals, but she testified that she had
never heard that noise before. Darlene Madden, who lived one block
from America's Precious Metals, awoke to a loud noise that sounded
like cars colliding at approximately 2:30 to 3:00 a.m. She testified that
she may have heard a second noise but did not get up to investigate it.
John Sketo, Calhoun's father and co-owner of America's Precious
Metals, testified that Calhoun's trailer was located beside the scrap yard.
Sketo arrived at the scrap yard at approximately 7:30 a.m. on December
17 and noticed that the Bobcat was missing from the place it had been
the day before. He also noticed that the door to Calhoun's trailer was
open. Sketo testified that none of this was like that the day before.
Ellenburg called the police. Ellenburg and Sketo found the Bobcat by
the loading dock, and they thought it had pushed something off of the
dock. Tread marks on the ground had not been there the day before.
Sketo looked in Calhoun's trailer and it looked like someone had
searched it; drawers were open and things were strewn about. Sketo
saw a small grill on Calhoun's bed, which usually remained outside the
trailer. Sketo did not see anyone in the trailer. He did not see a purse on
the floor of the trailer. Sketo exited the trailer and left the door open.

187

Mixon arrived at the junkyard and asked if Sketo had seen Calhoun.
Sketo replied that he had not and told Mixon not to go into the trailer
because someone had broken into it, but Mixon went into the trailer
anyway. Mixon was in the trailer for about one minute. Then Mixon
left the junkyard. Sketo went back into the trailer and found Calhoun's
gun leaning against the couch on the floor. Sketo testified that if the gun
had been there the first time he went into the trailer he would have
noticed it. He stated that the gun was not there before Mixon went into
the trailer. On cross-examination, the State elicited from Sketo that he
did not see Mixon carry the gun or anything else into the trailer.
Ellenburg testified that he arrived at the junkyard at approximately 7:30
a.m. on December 17. He stated that Calhoun's door did not have pry
marks on it the day before, and Calhoun's trailer was not in disarray the
day before. He did not see a gun in the trailer the first time he looked.
He stated that the tire tracks near the loading dock and next to the
Bobcat looked like they were made by a dual-wheeled vehicle. A corner
of the cement steps was also knocked off, and had not been like that the
day before.
Lieutenant Raley searched a barn in Pine Oak Community in Geneva,
Alabama, and a license tag bracket matching the description of one on
Brown's car was found at the property. There was also a piece of
cardboard that had oil and tire marks on it. Brown's family told Raley
that her car had a small oil leak. However, Raley could not trace the oil
stain or the bracket to Brown's car.
On February 28, 2012, the jury returned a verdict of guilty of firstdegree murder and kidnapping.
Penalty Phase
The State moved for admission of all evidence from the guilt phase into
the penalty phase and rested.
The defense provided witnesses as follows. Pastor A.J. Lombarin, Cliff
Jenkins, and Ryan George, all ministers to Calhoun, each testified that

188

Calhoun was devoted to Christian study and ministered to other inmates
while awaiting the instant trial. Patrick O'Dell, an inmate, testified that
Calhoun invited him to bible study and was his mentor, teacher, and
minister, and changed the course of O'Dell's life by telling him to take
responsibility for his actions. Jerry Pappas, an inmate, testified that
Calhoun was like a brother to him and changed his life for the better.
Darryl Williams, a former inmate, testified that Calhoun helped him
change and encouraged him to witness to others outside of the jail.
Lieutenant Bill Pate, a security officer at the Holmes County jail,
testified that Calhoun had no behavioral problems while incarcerated
and that his only prior criminal record was driving while his license was
suspended and violating probation.
Charlie Skinner, Calhoun's brother-in-law, testified that Calhoun was
generous to a fault and that he had given his life to God. Sharon
Calhoun, Calhoun's mother, testified that Calhoun and his father had a
close relationship. Calhoun has a son with whom he is very close and
to whom he is a good father. Calhoun also treated Mixon's son like his
own son. Sharon testified that Calhoun was a good student, a boy scout,
never got into trouble, and sends preachers to his father to help counsel
him.
The jury recommended a sentence of death by a vote of nine to three.
Spencer1 Hearing
Betsy Spann, Calhoun's sister, testified that Calhoun was like her best
friend and kept her out of trouble while they were growing up. Sharon
Calhoun testified that Calhoun had found God and that Calhoun was
innocent. John Searcy, a minister who had gone to counsel Calhoun on
the night of the verdict, testified that Calhoun had actually counseled
him that night. Following the conclusion of the Spencer hearing, the

1

Spencer v. State, 615 So. 2d 688 (Fla. 1993).

189

trial court allowed victim impact statements from Brown's family
members.
The trial court found three aggravators: (1) cold, calculated, and
premeditated (CCP)—very great weight; (2) during the commission of
a kidnapping—great weight; and (3) for the purpose of avoiding
arrest—very great weight. The trial court found one statutory mitigator:
no significant history of criminal activity—significant weight, and five
nonstatutory mitigators: (1) good jail conduct pending and during
trial—little weight; (2) positive role model to other inmates—some
weight; (3) capable of forming loving relationships—little weight; (4)
childhood history—little weight; and (5) defendant will be incarcerated
for the remainder of his life with no danger to others—minimal
weight. The trial court gave the jury recommendation of death great
weight. The trial court concluded that the aggravating circumstances far
outweighed the mitigating circumstances and sentenced Calhoun to
death for the murder of Brown and 100 years of imprisonment for the
kidnapping of Brown.
Calhoun v. State, 138 So. 3d 350, 354-59 (Fla. 2013) (internal page numbers
omitted).
On direct appeal, this Court addressed five issues: (1) whether the trial court
erred in excluding Calhoun’s exculpatory statements to the police under the rule of
completeness; (2) whether the trial court erred in finding the aggravators of cold,
calculated, and premeditated (CCP) and avoiding arrest; (3) a Ring2 claim; (4)
sufficiency of the evidence; and (5) proportionality.
On October 31, 2013, after briefing and oral argument, this Court issued its

2

Ring v. Arizona, 536 U.S. 584 (2002).

190

opinion striking the avoid arrest aggravator and rejecting the remainder of
Calhoun’s issues on appeal. This Court also found the evidence was sufficient to
support Calhoun’s conviction for one count of first-degree murder. On October 6,
2014, the United States Supreme Court denied the petition for writ of certiorari.
Calhoun v. Florida, 135 S.Ct. 236 (2014).
On September 25, 2015, the Appellant filed a Motion to Vacate Judgment and
Sentence under Rule 3.851 with Special Leave to Amend. The State filed its Answer
on November 24, 2015. Thereafter, Appellant, through counsel, amended his motion
on February 11, 2016, raising Claim 13, a Hurst v. Florida3 claim. The State
addressed the claim at the Huff4 hearing held on April 21, 2016. Subsequently, on
August 16, 2016, Appellant filed a Second Amended Motion to Vacate Judgments
of Conviction and Sentence, raising Claim 14. The postconviction court ordered the
State to respond within 20 days pursuant to rule 3.851(f)(4). The State filed its
response on October 3, 2016. On June 22, 2017, Appellant filed a Motion to
Supplement and Amend Defendant’s Third Amended Motion to Vacate Judgments
of Conviction and Sentence, raising two additional claims. The State filed its
response on July 7, 2017. An evidentiary hearing was held on September 15, 19, and
20, 2017, where Calhoun presented testimony and exhibits to support his Motions.

3
4

Hurst v. Florida, 136 S.Ct. 616 (2016).
Huff v. State, 622 So. 2d 982 (Fla. 1993).

191

Because the evidentiary hearing did not produce any evidence that entitled Calhoun
to relief, the postconviction court issued an order denying him relief on his guiltphase claims and ordered a new penalty phase under Hurst. This appeal followed.
REFERENCES
References to the Appellant will be to “Calhoun” or “Appellant.” References
to the victim in this case will be to “Mrs. Brown” or “the victim.”
Citations to the record shall be designated as follows: The direct appeal record
shall be referred to by “R” and followed by the volume and page number; references
to Calhoun’s Motion shall be referred to by “Motion” followed by the page number;
references

to

Calhoun’s

Amended

Motions

shall

be

referred

to

by

“Second/Third/Fourth Amended Motion” followed by the page number; references
to the evidentiary hearing transcripts shall be referred to by “Evid. Hrg. Trans.” and
the page number. Any other references will be self-evident.
JURISDICTION
Initially, the State questions whether this Court has jurisdiction of this case
given the postconviction court’s order granting a new penalty phase pursuant to
Hurst v. State, 202 So. 3d 40 (Fla. 2016). See State v. Preston, 376 So. 2d 3, 4 (Fla.
1979) (where this Court declined to hear an interlocutory appeal from a murder trial
because the death penalty had not yet been entered); Trepal v. State, 754 So. 2d
702, 706-07 (Fla. 2000) (holding that this Court had jurisdiction to hear an

192

interlocutory appeal arising during capital postconviction proceedings because a
valid death sentence was imposed in the defendant’s case). It remains the State’s
position that because there is no final judgment and sentence in Calhoun’s case at
this time, his appeal is untimely and this Court lacks the necessary jurisdiction to
hear the appeal. Holding Calhoun’s appeal in abeyance will moot any jurisdictional
challenges to this appeal and prevent the possibility of relitigating his guilt-phase
claims in the future.
Moreover, the judgment and sentence are not intended to be litigated separately.
When a sentence is vacated, the judgment associated with that sentence is also
vacated. Berman v. United States, 302 U.S. 211 (1937). If Calhoun’s guilt-phase
claims are litigated while no valid judgment exists in his case, Calhoun could
potentially be provided the opportunity to relitigate those claims after his sentence
is re-imposed, which would waste valuable state and judicial resources.
For these reasons, the State respectfully submits that Calhoun’s appeal
challenging the denial of his guilt-phase claims is untimely until his resentencing is
completed and a new judgment is entered. Accordingly, the State respectfully
requests that this Court hold Calhoun’s appeal in abeyance pending completion of
his resentencing proceedings.

193

SUMMARY OF THE ARGUMENT
ARGUMENT I: Appellant failed to establish that his counsel had a conflict
in her representation. Under the law, Appellant had to show that his counsel’s
representation fell below standards. Ms. Jewell, who was trial counsel, testified at
the evidentiary hearing that the other death-qualified attorney declined to work on
the case with her because he did not want an appearance of a conflict. This testimony
was undisputed. The other attorney’s possible conflict was not imputed onto Ms.
Jewell. Appellant failed to present any evidence of how Ms. Jewell’s representation
fell below standards and what prejudice he sustained as a result of her representation.
Additionally, Ms. Jewell’s co-counsel did not do anything substantial on the case.
Appellant failed to present any evidence of how he was prejudiced.
ARGUMENT II: Appellant failed to establish that, if the testimony of
Natasha Simmons, Jose Contreras, and Robert Vermillion had been presented at
trial, it would have led to an acquittal at a new trial. Simmons testified about a
strange encounter she had with Doug Mixon around the time that the victim went
missing. However, she contradicted her own testimony multiple times. She claimed
that Mixon, who was presented as a possible alternative suspect in this case, was
calm the night she picked him and another person up, but he kept muttering to
himself in an agitated manner. She also could not remember which day she had this
interaction with Mixon. Simmons claimed to have told Sheriff Ward about this

194

interaction, but Sheriff Ward, who also testified at the evidentiary hearing, disputed
this claim.
Vermillion initially claimed that Mixon confessed to participating in the
murder of Ms. Brown, but then he admitted that Mixon never actually mentioned the
murder and was just asking for forgiveness for some unnamed thing after Vermillion
admittedly followed Mixon around the house and was harassing him.
Contreras, through a Spanish interpreter, claimed that Mixon, who does not
speak Spanish, confessed to killing Ms. Brown. Contreras also claimed to have told
Officer Ricky Morgan about this alleged confession. Officer Morgan testified that
Contreras never approached him about this case. Officer Morgan stated that had
Contreras made those accusations, he would have immediately informed the
investigating officers. Mixon testified at the hearing that he never confessed to the
murder of Ms. Brown to anyone.
The postconviction court was correct in finding that the testimony of
Simmons, Vermillion, and Contreras would not have resulted in an acquittal at trial
because the court did not find their testimony credible. The court also found that
their testimony did not negate the overwhelming evidence against Appellant.
The postconviction court was also correct in finding that the pictures found
depicting bruises on a female body would not have created a new suspect of Brandon
Brown, the victim’s husband. Ms. Jewell testified at the hearing that Calhoun was

195

adamant that Mr. Brown was not involved in the murder of his wife. Ms. Jewell also
admitted that there was no way to authenticate the photographs because it was
unknown who was being photographed. No one was able to say how the bruises
occurred or when they occurred. As such, the postconviction court was correct in
finding that they would be inadmissible and therefore, unable to be used to prove
who committed the murder.
ARGUMENT III: The postconviction court was correct in finding that there
was no violation under Brady. Appellant claims that Simmons spoke with Sheriff
Ward about her interaction with Mixon but was turned away because a suspect had
already been found. However, Sheriff Ward testified that Simmons, who he is
familiar with, never approached him about this case. Sheriff Ward, who is a law
enforcement officer in Alabama and was never listed as a witness because he had no
direct involvement in this case, was not a member of the prosecution team. As such,
any knowledge that Sheriff Ward had would not have been impugned onto the
prosecution team. Additionally, the prosecution and defense cannot be expected to
know of a conversation that did not occur. Therefore, the postconviction court was
correct in finding that there was no violation under Brady.
ARGUMENT IV: Ms. Jewell did not render ineffective assistance of counsel.
Appellant claims that Ms. Jewell should have investigated Mixon’s alibi more
effectively. However, Ms. Jewell and her investigator, Mr. Jordan, both testified that

196

they were unable to get any evidence beyond inadmissible hearsay. Additionally,
they both testified that Calhoun refused to look at the discovery and assist them with
the preparation of the trial. Mixon was called as a witness for the defense, but
Calhoun himself insisted that Ms. Jewell not call him.
Ms. Jewell also testified that it was part of her strategy to not call forensic
experts for the scratches on Calhoun’s hands and the SD card found. Ms. Jewell
testified that she was able to argue about what she believed had caused the scratches
and that she did not have reason to believe that there was a chain of custody issue.
Ms. Jewell was very effective in her impeachment and cross-examination of
various witnesses. Ms. Jewell testified about her strategy with each witness and that
her goal was to create reasonable doubt in the State’s case, and to maintain her
credibility with the jury. She also testified that with one of the witnesses, it was only
at trial that Calhoun stated he did not know the witness and that Calhoun tried to talk
to her at the table during the trial, so that there were things that were missed.
However, Ms. Jewell was still able to cross-examine each of the witnesses and
impeach them with inconsistencies between their previous statements and their
testimony.
Ms. Jewell had a clear strategic reason for recalling Glenda Brooks and
Investigator Raley during the defense case-in-chief. As was discussed at sidebar
during Brooks’ testimony, Ms. Jewell wanted to show the jury that Brooks was not

197

afraid of Calhoun, as it was suggested during the State’s case-in-chief. Ms. Jewell
testified that she recalled Investigator Raley to show he was not forthcoming during
the State’s case-in-chief and to have him lose credibility with the jury.
It was clear from Ms. Jewell’s testimony, that she had a strategic reason for
how she tried the case. Her strategy was reasonable and did not fall below
professional standards. Therefore, the postconviction court was correct in finding
that Calhoun failed to prove his ineffective assistance of counsel claims.
ARGUMENT V: The postconviction court did not abuse its discretion in
denying Calhoun the opportunity to untimely amend his motion to vacate only 14
days prior to the evidentiary hearing. Calhoun also did not suffer any prejudice
because he was able to present the testimony of Vermillion and that testimony was
considered in conjunction with the other evidence presented. The court did not abuse
its discretion by denying Calhoun the ability to amend his motion to vacate more
than a month after the evidentiary hearing. In their motion to amend, defense
admitted that they could have filed the claims in a successive motion to vacate. The
information that they relied on, an affidavit signed by Keith Ellis, was not discovered
until over a month after the evidentiary hearing had occurred. Denials for motions
to amend are reviewed under an abuse of discretion standard. The postconviction
court was within its discretion to deny both motions.

198

ARGUMENT VI: The postconviction court was correct in finding that there
had been no violation under Giglio. The court found that the evidence was not false
and even if it had been, the evidence was not material to the case. For the court to
find a violation under Giglio, the evidence must be both false and material.
Additionally, Calhoun’s claim that the prosecutor argued false evidence was
properly denied. Any such claims of prosecutorial misconduct must be raised during
the direct appeal. Also, as the jury was twice instructed during the trial, what the
attorneys argue in their opening statements and closing arguments are not evidence
and therefore, their statements cannot be considered for purposes of Giglio.
ARGUMENT VII: The postconviction court gave Appellant a fair hearing.
The court relied on established case law and applied it to the evidence that was
presented at the evidentiary hearing. The court arriving at the same conclusions as
the State does not mean that the court did not give Appellant a fair hearing.
Appellee is requesting that this Court affirm the postconviction court’s order
in denying the guilt-phase claims and granting Appellant a new penalty phase under
Hurst.

199

ARGUMENT
I.

APPELLANT WAS NOT DEPRIVED OF HIS FUNDAMENTAL
RIGHT TO EFFECTIVE ASSISTANCE OF COUNSEL AS HIS
DEFENSE COUNSEL DID NOT HAVE A CONFLICT OF INTEREST.
In his Brief, Appellant asserts that a conflict existed in the Office of the Public

Defender which was not relayed to him. He asserts that his defense counsel had just
become qualified as a lead counsel in capital cases and should have been assisted by
qualified co-counsel in his case. However, he maintains that the only qualified cocounsel in the office had a personal conflict as he knew the victim and her family.
Defendant maintains that the whole office of the public defender should have been
conflicted off his case. Furthermore, he argues that the use of another attorney who
was not qualified co-counsel adversely affected the entirety of his defense. However,
Appellant’s claim lacks merit as he has not shown that there was any actual conflict
on the part of defense counsel. Moreover, although co-counsel did not meet the
qualifications, this does not amount to per se ineffective assistance of counsel.
A. Conflict-free counsel
The right to effective assistance of counsel also encompasses the right to
conflict-free counsel. See Hunter v. State, 817 So. 2d 786, 791 (Fla. 2002). To
establish ineffective assistance of counsel based on an alleged conflict of interest,
the defendant must illustrate an actual conflict of interest that adversely affected the
performance of counsel. See id. at 791-92. A defendant must illustrate the conflict

200

through the identification and utilization of “specific evidence in the record that
suggests that his or her interests were compromised.” Id. at 792. A mere speculative
or hypothetical conflict of interest is insufficient to establish ineffective assistance
of counsel based on an alleged conflict. See id. (quoting Cuyler v. Sullivan, 446 U.S.
335, 350 (1980)).
At the time of trial, Appellant was represented by Kimberly Jewell, who he
acknowledges was qualified as lead counsel. Defendant asserts that another attorney,
Henry Sims, who was qualified to be co-counsel, knew the victim and her family
and elected to not participate in the defense of the Defendant. Based on this election,
Defendant asserts that everyone in the public defender’s office should have been
conflicted. In particular, he asserts that Attorney Sims’s conflict was imputed to Ms.
Jewell.
However, according to the Florida Rules Regulating the Florida Bar, Attorney
Sims’s desire to not represent the Defendant did not rise to the level of an actual
conflict that adversely affected the performance of counsel. Pursuant to Rule 4-1.7
Conflict of Interest; Current Clients—a lawyer must not represent a client if it is
directly adverse to another client or there is a risk that it will limit his responsibilities
to another client, former client or a third person or a personal interest of the lawyer.
Attorney Sims’s knowledge of the victim and her family is a result of a personal
interest of the lawyer and rather than raise any concern he appropriately declined to

201

participate in the defense of the Defendant. With his knowledge of the victim and
her family, a conflict may have arisen if he had participated in the defense of the
Defendant. However, this does not mean that his decision to not participate became
an actual conflict or adversely affected the Defendant.
Per the committee notes in In re Amendment to Florida Rules of Criminal
Procedure – Rule 3.112, 820 So. 2d 185 (Fla. 2002):
These standards are not intended to establish any independent legal
rights. For example, the failure to appoint co-counsel, standing alone,
has not been recognized as a ground for relief from a conviction or
sentence. See Ferrell v. State, 653 So. 2d 367 (Fla. 1995); Lowe v.
State, 650 So. 2d 969 (Fla. 1994); Armstrong v. State, 642 So. 2d 730
(Fla. 1994). Rather, these cases stand for the proposition that a showing
of inadequacy of representation in the particular case is
required. See Strickland v. Washington, 466 U.S. 668 (1984). These
rulings are not affected by the adoption of these standards. Any claims
of ineffective assistance of counsel will be controlled by Strickland.
Alleging that trial counsel failed to meet the standards as set by Fla. R. Crim. P.
3.112 is not a per se ground for relief. Appellant is still required to meet the standards
as set by Strickland, which he cannot do in this case.
Moreover, Rule 4-1.10(a) allows an exception for the prohibition when it is
based on a personal interest of the prohibited lawyer and does not present a
significant risk of materially limiting the representation of the client by the
remaining lawyers in the firm. In this situation, Appellant has only asserted that
Attorney Sims knew the victim and her family. There is no assertion that anyone
else in the public defender’s office knew of the victim or her family. Calhoun has

202

failed to establish that Attorney Sims’s knowledge of the family affected Ms.
Jewell’s representation such that there was a conflict. Calhoun has not shown that
Attorney Sims did any work on the case, had any personal participation, and that
there was any communication between him and Ms. Jewell.
Further, Appellant has not shown that there was an actual conflict that
adversely affected the performance of defense counsel Ms. Jewell. Appellant has
only made generalized complaints based on Attorney Sims’s alleged conflict.
Ms. Jewell testified that Attorney Sims did not have access to the files for this
case. She stated that her files are kept in her office and are not placed on the file
program, Stak Web. (Evid. Hrg. Trans. 24:2-14). Ms. Jewell testified that when the
issue of Mr. Sims’s conflict arose, Ms. Jewell took the issue to Mr. Laramore, who
was the chief public defender at the time. (Evid. Hrg. Trans. 25). Mr. Laramore made
the decision to not conflict the case “[b]ecause he did not feel like there was a
conflict with Mr. Sims not involved in it.” (Evid. Hrg. Trans. 25:10-11). “And he
told Mr. Sims, basically, that was where the decision was made for Mr. Sims, since
he wasn’t even in the same office with me, to just not take over part of the case, and
for me to keep the case in our office.” (Evid. Hrg. Trans. 26:17-21). Mr. Sims was
never involved in the case, even from the beginning. (Evid. Hrg. Trans. 28). Ms.
Jewell was not certain if she informed Calhoun of the conflict because he had never
met Mr. Sims and she was the first attorney Calhoun had ever met. (Evid. Hrg. Trans.

203

28). Ms. Jewell also was not certain how well Mr. Sims knew the Browns, but she
believed that they were avoiding the appearance of a conflict. (Evid. Hrg. Trans. 28).
Ms. Jewell also testified that she was able to consult with Walter Smith, another
attorney in the office who did not have a conflict of interest. (Evid. Hrg. Trans. 37).5
The defense never called Mr. Sims, so there was no contradictory evidence to
suggest that the conflict went beyond a concern over an appearance of impropriety.
Ms. Jewell was qualified as a defense attorney to sit on death cases and Mr. Sims’s
conflict did not adversely affect her ability to represent Calhoun.
This claim lacks merit as Calhoun has not provided any specific evidence from
the record that would suggest that Ms. Jewell’s interest was compromised. See
Taylor v. State, 87 So. 3d 749, 759 (Fla. 2012) (finding that the defendant failed to
illustrate any specific instance or basis to support his statement of an actual conflict
of interest or establish how he was prejudiced by his failure to move to have counsel
discharged). As such, this claim was correctly denied.
B. Lack of qualified co-counsel
Appellant also asserts that he was also prejudiced by his counsel’s inability to
rely on Attorney Sims as co-counsel, when he was knowledgeable about capital
cases. (Initial Brief at 20). He asserts that instead Ms. Jewell had to rely on a co-

5

Mr. Smith chose to not sit as counsel of record on this case and, because he was her superior, Ms.
Jewell could not direct him to sit on the case. (Evid. Hrg. Trans. 37).

204

counsel who was not qualified and had only been an attorney for two years at the
time of trial. However, as this Court has stated repeatedly, failure to appoint cocounsel and an attorney’s failure to meet the minimum standards for co-counsel in
capital cases does not amount to ineffective assistance of counsel.
To establish a claim of ineffective assistance of counsel, a defendant must
prove both deficient performance and prejudice. Strickland, 466 U.S. 668. However,
Florida Rule of Criminal Procedure 3.112 was not intended to create an independent
cause of action, without a showing of inadequacy of representation. See Cox v. State,
966 So. 2d 337, 358 n.10 (Fla. 2007) (holding that even though co-counsel did not
meet the minimum standards for co-counsel in capital cases this does not amount to
per se ineffective assistance of counsel). The committee comment in In re
Amendment to Florida Rules of Criminal Procedure – Rule 3.112, 820 So. 2d 185,
still applies to co-counsel. Therefore, Defendant’s allegations that defense counsel
was ineffective because co-counsel was not death qualified must be denied.
Nevertheless, co-counsel assigned to this case did not assist with the
mitigation investigation or penalty phase of the case. In this case, Kevin Carlisle, the
assigned co-counsel on this case, testified at the evidentiary hearing. He classified
his involvement as “a bag holder, essentially.” (Evid. Hrg. Trans. 214:2). Attorney
Carlisle was unable to recall if he was given any specific tasks to complete in the
preparation of trial. (Evid. Hrg. Trans. 214:8). He also admitted that he did not

205

consult Attorney Sims on this case, saying that Attorney Sims, who worked in an
outer county, was unavailable. (Evid. Hrg. Trans. 213:13-23). He did not crossexamine or question any witnesses in this case at trial or at deposition. Therefore,
because Attorney Carlisle was not involved in any meaningful way, there was no
prejudice to Calhoun by the co-counsel being assigned to this case and this claim
was correctly denied by the trial court.
II.

APPELLANT’S CLAIM OF NEWLY DISCOVERED EVIDENCE
DOES NOT ESTABLISH THAT THE CASE AGAINST APPELLANT
WAS WEAKENED AND CREATES REASONABLE DOUBT.

A. Natasha Simmons
In order to set aside his conviction based on newly discovered evidence,
Calhoun must show (1) the evidence was unknown by the trial court, by the parties,
or by counsel at the time of trial and the defendant or his counsel could not have
known of it by the use of due diligence; and (2) the newly discovered evidence must
be of such nature that it would probably produce an acquittal on retrial. Jones v.
State, 709 So. 2d 512, 521 (Fla. 1998); see also Robinson v. State, 865 So. 2d 1259,
1262 (Fla. 2004). In analyzing the second prong, once it is determined that there are
no evidentiary bars to the evidence being admitted, the trial court should consider
whether the evidence goes to the merits, is impeachment evidence, or whether the
evidence is cumulative to other evidence in the case. See Williamson v. Dugger, 651
So. 2d 84, 89 (Fla. 1994); Johnson v. Singletary, 647 So. 2d 106, 110-11 (Fla. 1994).

206

Further, when the evidence is from a witness to the events that occurred at the time
of the crime, the trial court should also consider the length of the delay and the reason
the witness failed to come forward sooner. Jones, 709 So. 2d at 521-22.
Appellant argues that his due process rights were violated by a failure of the
State to disclose a conversation between Natasha Simmons and Sheriff Greg Ward
of the Geneva County Sheriff’s Office in Alabama. Appellant also claims that Ms.
Simmons approached Sheriff Ward after the murder had occurred, to discuss a
strange encounter she had with Doug Mixon the night of the murder. Ms. Simmons,
in a provided unsworn declaration, stated that Sheriff Ward had told her the case was
closed and sent her away. Defense claims that this conversation was never relayed
to the prosecution or the defense. As such, defense is claiming a Brady6 violation.
In order to obtain a reversal based on Brady, a defendant must prove
four elements:
(1) that the Government possessed evidence favorable to the defendant
(including impeachment evidence); (2) that the defendant does not
possess the evidence nor could he obtain it himself with any reasonable
diligence; (3) that the prosecution suppressed the favorable evidence;
and (4) that had the evidence been disclosed to the defense, a reasonable
probability exists that the outcome of the proceedings would have been
different.
Jones, 709 So. 2d at 512 (citing Robinson v. State, 707 So. 2d 688, 693 (Fla. 1998)
(quoting Hegwood v. State, 575 So. 2d 170, 172 (Fla. 1991))). “There are three
components of a true Brady violation: The evidence at issue must be favorable to the
6

Brady v. Maryland, 373 U.S. 83 (1963).

207

accused, either because it is exculpatory, or because it is impeaching; that the
evidence must have been suppressed by the State, either willfully or inadvertently;
and prejudice must have ensued.” Smith v. State, 931 So. 2d 790, 796 (Fla. 2006)
(quoting Strickler v. Green, 527 U.S. 263, 281-82 (1999)). To establish prejudice, a
defendant must demonstrate that the suppressed evidence is material. Id.
In Turner v. United States, 137 S.Ct. 1885 (2017), the United States Supreme
Court rejected a Brady claim, concluding that the withheld evidence was not
material. Petitioners were convicted of the kidnapping, armed robbery, and murder
of Catherine Fuller in 1985. The victim had been robbed, severely beaten, and
sodomized with a pipe or pole that caused extensive internal injuries. Id. At trial,
two of the co-perpetrators testified against petitioners in exchange for leniency. Id.
Thomas, a 14-year-old, who lived in the neighborhood and who knew some of the
petitioners, also testified as to what he saw the night of the murder. Id.
Years later, in 2010, during postconviction proceedings, Turner raised a Brady
claim, asserting that the prosecution failed to disclose evidence of another possible
suspect, McMillan, who had been seen in the alley near where the victim’s body was
discovered shortly after the murder and impeachment evidence, including
impeachment evidence relating to Thomas. Turner, 137 S.Ct. 1885. Petitioners
argued that if they had been informed of the other suspect, they could have raised as
a defense that a single perpetrator, or two perpetrators at most, had committed the

208

murder. Id. In other words, they could have asserted to the jury that McMillan, alone
or with an accomplice, murdered Fuller. The prosecution admitted that it suppressed
the evidence of McMillan, but asserted the evidence was not material. Id. The
postconviction court held an extensive evidentiary hearing, and then denied the
Brady claim, concluding that the evidence was not material. Id. The appellate court
agreed that the evidence was not material and the United States Supreme Court
affirmed. Id.
The Court first explained that due process is only violated if the prosecution
“withholds evidence that is favorable to the defense and material to the defendant’s
guilt or punishment.” Turner, 137 S.Ct. at 1888 (citing Smith v. Cain, 565 U.S. 73,
75 (2012)). The Court explained that evidence “is ‘material’ within the meaning of
Brady when there is a reasonable probability that, had the evidence been disclosed,
the result of the proceeding would have been different” and that a “reasonable
probability of a different result is one in which the suppressed evidence undermines
confidence in the outcome of the trial.” Id. at 1893. The Court explained that a
determination of materiality was often “factually complex” and required that the
reviewing court “examine the trial record” to “evaluate the withheld evidence in the
context of the entire record.” Id.
The Court then reasoned that the withheld evidence, in the context of the entire
record, was “too little, too weak, or too distant from the main evidentiary points to

209

meet Brady.” Turner, 137 S.Ct. at 1894. The Court noted that the single attacker
defense was inconsistent with the evidence establishing a group attack. Id. The Court
observed that while the witnesses “differed on minor details,” virtually every witness
agreed that the victim “was killed by a large group of perpetrators.” Id. The Court
pointed out that the single attacker defense would have required the jury to believe
that both the co-perpetrators falsely confessed and, through coordinated effort or
coincidence, gave highly similar accounts of how the murder occurred, as well as
believe that Thomas, “a distinterested witness,” wholly fabricated his story. Id. The
Court also concluded that the undisclosed impeachment evidence was “largely
cumulative.” Id.
At the evidentiary hearing, Natasha Simmons claimed that she had told Sheriff
Ward about an interaction between herself and Doug Mixon. (Evid. Hrg. Trans. 10211). However, Sheriff Ward testified at the evidentiary hearing that he knew Natasha
Simmons. (Evid. Hrg. Trans. 398:21-23). He denied ever talking with her about this
case and that she did not tell him that “she had picked up Doug Mixon and Charlie
up from an area of Holmes County, and Doug Mixon had blood on him and was
carrying a gas can.” (Evid. Hrg. Trans. 399:2-4). He did not tell Natasha Simmons
to forget about the incident because a suspect was caught and he confessed to the
crime. (Evid. Hrg. Trans. 399:6-9). Sheriff Ward was adamant that had that kind of
information been relayed to him or any of his deputies, he would have shared it with

210

the “lead agent with AB.” (Evid. Hrg. Trans. 399:13-17). As such, this evidence
could not be considered Brady evidence because the information did not exist for
either the prosecutor or defense to discover and this claim should be denied.
As an alternative argument, defense claims that defense trial counsel was
ineffective for her failure to obtain the exculpatory evidence. To establish ineffective
assistance of counsel (also known as a Strickland claim), Calhoun must satisfy a
two-prong test, establishing both deficient performance and prejudice. Strickland,
466 U.S. 668. To establish deficient performance, a defendant must show that
counsel made specific errors so serious that she was not functioning as the counsel
guaranteed to Calhoun by the Sixth Amendment. Id. at 687; Pietri v. State, 885 So.
2d 245, 252 (Fla. 2004) (“a court deciding an actual ineffectiveness claim must judge
the reasonableness of counsel’s challenged conduct on the facts of the particular
case, viewed as of the time of counsel’s conduct”) (quoting Strickland, 466 U.S. at
690). Strickland refrained from providing specific guidelines to evaluate counsel’s
performance, and held “[t]he proper measure of attorney performance remains
simply reasonableness under prevailing professional norms.” Strickland, 466 U.S. at
688. To establish prejudice, Calhoun must show that there is a reasonable probability
that but for trial counsel’s deficiencies, she would have received a different outcome.
Sears v. Upton, 561 U.S. 945 (2010).

211

Calhoun has failed to meet his burden of showing ineffective assistance of
counsel. Sheriff Ward was adamant that the conversation between him and Natasha
Simmons did not occur. He also stated that he would have conveyed any information
he received about the case to the investigators who were assigned to the case. Ms.
Jewell did a thorough job investigating the case, despite Calhoun refusing to
cooperate and discuss the case with her. Investigator Jordan testified that he followed
any leads he received and would report his findings back to Ms. Jewell. Additionally,
Vermillion and Mr. Contreras testified that Mr. Mixon confessed to them. However,
Vermillion did not receive his “confession” until the summer of 2016, which is well
after the trial. Mr. Contreras claims to have told Officer Morgan that Mr. Mixon
confessed to him, but Officer Morgan very clearly denied that Mr. Contreras, with
whom he was familiar, informed him that Mr. Mixon confessed to him. Ms. Jewell
could not have possibly discovered this evidence. Calhoun has failed to establish
ineffective assistance of counsel and this claim should be denied.
Appellant claims that the emergence of Ms. Simmons supports the defense
theory that Doug Mixon was the person who committed the murder. (Initial Brief at
26). Based on the allegations, Appellant claims that this should be considered newly
discovered evidence and is a basis for a new trial.
For a conviction to be set aside based on newly discovered evidence, two
requirements must be met. Jones, 709 So. 2d at 521. “First, in order to be considered

212

newly discovered, the evidence ‘must have been unknown by the trial court, by the
party, or by counsel at the time of the trial, and it must appear that defendant or his
counsel could not have known [of it] by the use of diligence.’” Id. (citing TorresArboleda v. Dugger, 636 So. 2d 1321, 1324-25 (Fla. 1994)). “Second, the newly
discovered evidence must be of such nature that it would probably produce an
acquittal on retrial.” Id. See also Mansfield v. State, 204 So. 3d 14 (Fla. 2016).
In considering the second prong, the trial court should initially consider
whether the evidence would have been admissible at trial or whether
there would have been any evidentiary bars to its admissibility. See
Johnson v. Singletary, 647 So. 2d 106, 110-11 (Fla. 1994); cf. Bain v.
State, 691 So. 2d 508, 509 (Fla. 5th DCA 1997). Once this is
determined, an evaluation of the weight to be accorded the evidence
includes whether the evidence goes to the merits of the case or whether
it constitutes impeachment evidence. See Williamson v. Dugger, 651
So. 2d 84, 89 (Fla. 1994). The trial court should also determine whether
the evidence is cumulative to other evidence in the case. See State v.
Spaziano, 692 So. 2d 174, 177 (Fla. 1997); Williamson, 651 So. 2d at
89. The trial court should further consider the materiality and relevance
of the evidence and any inconsistencies in the newly discovered
evidence. Where, as in this case, some of the newly discovered
evidence includes the testimony of individuals who claim to be
witnesses to events that occurred at the time of the crime, the trial court
may consider both the length of the delay and the reason the witness
failed to come forward sooner.
Jones, 709 So. 2d at 521-22.

213

In this case, the possible evidence from Ms. Simmons should be evaluated
under the Brady test. This evidence is based on a possible non-disclosure from
Sheriff Ward.
At the evidentiary hearing, Natasha Simmons claimed that she had told Sheriff
Ward about an interaction between herself and Doug Mixon. (Evid. Hrg. Trans. 10211). However, Sheriff Ward testified at the evidentiary hearing that he knew Natasha
Simmons. (Evid. Hrg. Trans. 398:21-23). He denied ever talking with her about this
case and that she did not tell him that “she had picked up Doug Mixon and Charlie
up from an area of Holmes County, and Doug Mixon had blood on him and was
carrying a gas can.” (Evid. Hrg. Trans. 399:2-4). He did not tell Natasha Simmons
to forget about the incident because a suspect was caught and he confessed to the
crime. (Evid. Hrg. Trans. 399:6-9). Sheriff Ward was adamant that had that kind of
information been relayed to him or any of his deputies, he would have shared it with
the “lead agent with AB.” (Evid. Hrg. Trans. 399:13-17).
This evidence would not produce an acquittal at trial. By Vermillion’s own
admission, Mr. Mixon did not admit to committing the murder. He stated that Mr.
Mixon just asked for forgiveness. Mr. Mixon never testified to seeing Natasha
Simmons that night and he claimed that he was with Ms. Faulk the night of the
murder at Mr. Contreras’s house. He never stated he was with Charlie Uttley the
night of the murder. Additionally, Ms. Simmons described Mr. Mixon as more

214

relaxed the night of the murder, but then stated Mr. Mixon repeatedly stated, “that
goddamn Gabby.” (Evid. Hrg. Trans. 329:21-22). Ms. Simmons initially stated that
she saw the news about Mrs. Brown missing the night before her supposed
interaction with Mr. Mixon and Mr. Uttley (Evid. Hrg. Trans. 332); however, she
then backtracked and said she was not sure when she saw the news.
Q: You just know that you had seen this news report the night before?
A: Right.
Q: Do you know that Mrs. Brown wasn’t reported missing until Friday
morning?
A: I was, let me clarify that. I’m not really sure if it was before or after,
but I do recall that being the same area.
(Evid. Hrg. Trans. 332:23-25; 333:1-5). Ms. Simmons then agreed that the earliest
she would have been able to see the news would be Friday night, after the murder
had happened, and she would have picked up Mr. Mixon on Saturday morning.
(Evid. Hrg. Trans. 333).
Ms. Simmons’ inconsistencies, along with Sheriff Ward’s testimony mean
that the outcome of the trial would not have been different. Mr. Mixon was adamant
that he had never confessed to killing Mrs. Brown. “And for one minute, ma’am,
what I was saying a while, I would never confess to something, but if I did or didn’t
do, more or less, in all honesty. But I sure as sin wouldn’t confess to something that
I didn’t do.” (Evid. Hrg. Trans. 320:10-13). When asked if he has ever confessed to
anybody that he had a part in Mrs. Brown’s murder, Mr. Mixon answered with a

215

clear no. “I had nothing to do with it and I don’t know anything about it.” (Evid.
Hrg. Trans. 320:20-21). This evidence would not produce an acquittal at trial and
this claim must be denied.
B. Robert Vermillion
At the evidentiary hearing, the defense called Robert Vermillion, who is
related to the victim’s husband, and he testified that in the summer of 2016, Mr.
Mixon was at his aunt’s house. (Evid. Hrg. Trans. 361). Vermillion claimed that Mr.
Mixon told him that he had done things he was not proud of and he asked for
forgiveness. (Evid. Hrg. Trans. 362). Vermillion admitted that Mr. Mixon “didn’t
come right out and say [he] killed her, but he insinuated it.” (Evid. Hrg. Trans. 365:56). Though he believes that Mr. Mixon knows something about the murder, he does
not know if Mr. Mixon committed the murder. (Evid. Hrg. Trans. 366). During
cross-examination, Vermillion admitted that, before Mr. Mixon said anything to
him, “I wasn’t really harassing him, but I wasn’t not harassing him.” (Evid. Hrg.
Trans. 368:20-21). Vermillion also admitted that he was following Mr. Mixon
around everywhere that night. (Evid. Hrg. Trans. 368). The statement that
Vermillion claims Mr. Mixon made never referenced Mrs. Brown. It never
referenced any murder. Mr. Mixon supposedly just asked for forgiveness for some
unnamed thing. This evidence would not change the outcome of the case. Vermillion
merely stated that he thinks Mr. Mixon knew something about the murder.

216

It is clear from the testimony that Ms. Jewell tried to investigate Doug
Mixon’s alibi to the best of her ability. Calhoun refused to cooperate and did not
even look at the discovery, as testified to by Ms. Jewell and Mr. Jordan. Because
Ms. Jewell and Mr. Jordan were unable to discover any evidence beyond
inadmissible hearsay that Mr. Mixon was involved in this murder, Calhoun has failed
to establish deficient performance by Ms. Jewell and this claim must be denied.
In this case, there was overwhelming evidence of Calhoun’s guilt. The
victim’s blood, hair, and purse were found inside of Calhoun’s trailer, which was in
a disarray. See Calhoun, 138 So. 3d at 366. Calhoun was witnessed asking the victim
for a ride on December 16 and a witness testified that the victim came to the wrong
residence the night she went missing, looking for Calhoun’s trailer. Id. The morning
that Mia Chay Brown and Calhoun were both reported missing, Calhoun was seen
in a white four-door car, which matched the victim’s car, as well as buying cigarettes
at a convenience store in Alabama. Id. He was witnessed with blood and scratches
on his hands and later that day a fire was seen burning. Id. Eventually, Calhoun went
to the home of friends in Alabama, less than 1.5 miles from the victim’s burnt car
where he was informed that he was reported as missing along with the victim. Id. at
367. The victim’s burnt remains were found in the trunk of her car on December 20.
Id. Therefore, defense counsel’s calling Doug Mixon would not have made a

217

difference as it does not pertain to the DNA evidence that was found, the location of
the burnt car, and the sightings of Calhoun and the victim before her death.
C. Jose Contreras
At the evidentiary hearing, the defense called Jose Contreras. Mr. Contreras,
who testified with the aid of an interpreter, stated that he only speaks a little bit of
English. (Evid. Hrg. Trans. 338). At the time of the murder, he had known Mr.
Mixon for three years. (Evid. Hrg. Trans. 339). In September 2010, Mr. Contreras’s
son was arrested for murder. (Evid. Hrg. Trans. 340). He denied that Ms. Faulk ever
lived at his house, but would allow her to stay there occasionally. (Evid. Hrg. Trans.
341-42). Mr. Contreras testified that Mr. Mixon never spent the night at his house
and that he never drank with Mr. Mixon and Ms. Faulk. (Evid. Hrg. Trans. 343). Mr.
Contreras claimed that Mr. Mixon came to his house one night after the murder and
confessed to killing Mrs. Brown. (Evid. Hrg. Trans. 345). He claimed that he went
to Officer Ricky Morgan and told him that Mr. Mixon confessed to the murder.
(Evid. Hrg. Trans. 346). Mr. Contreras admitted that he was the one who turned his
son in for murder. (Evid. Hrg. Trans. 347). During cross-examination, Mr. Contreras
stated that he and Mr. Mixon were only co-workers and did not have a relationship
outside of work. (Evid. Hrg. Trans. 349). Mr. Contreras also admitted that he had no
independent recollection of the night of murder. (Evid. Hrg. Trans. 349).

218

The State, in rebuttal, called Officer Morgan. While he was aware of the case,
he was not involved. (Evid. Hrg. Trans. 405). Officer Morgan knows Jose Contreras
through an investigation. (Evid. Hrg. Trans. 405). He testified that Mr. Contreras
speaks English and that Mr. Contreras never told him that Mr. Mixon confessed to
him. (Evid. Hrg. Trans. 405-06). Officer Morgan knew the officers on the case and
he would have immediately passed the information to them. (Evid. Hrg. Trans. 406).
Mr. Contreras’s testimony is not credible at all. It is highly improbable that
Mr. Mixon would confess murdering Mrs. Brown to someone who claims to barely
speak English and claimed that he had never spent time with Mixon outside of work.
Additionally, Officer Morgan testified that Mr. Contreras never approached him
about this case.
D. Brandon Brown
Appellant argues that at a new trial, Appellant could present evidence pointing
the blame on Brandon Brown, the victim’s husband. (Initial Brief at 32). However,
Appellant had an opportunity to have his trial counsel bring out evidence against Mr.
Brown at trial, but he instructed her not to.
[A]s a matter of strategy and not wanting to attack the husband of the
victim in front of the jury, we made, I made, and I don’t say we, I made
this call, not to lay the blame on Mr. Brown given the fact that Mr.
Calhoun was adamant that it was Doug Mixon and that Mr. Brown was
not involved in it.
(Evid. Hrg. Trans. 84:8-13) (emphasis added).

219

At the evidentiary hearing, counsel asked Ms. Jewell about photographs
depicting bruises. However, no one was able to identify the person in the
photographs, or even testify as to what caused the bruises on the unknown person.
These photographs would not be admissible at a new trial because they cannot be
authenticated. Ms. Jewell testified that no one knows the cause of the injuries and
that it is unknown if Mr. Brown was even the cause of the injuries. (Evid. Hrg. Trans.
100). “I can’t guess and accuse him of something. And, you know, I don’t know
what the cause of those [injuries] are. I mean, I don’t know if she did something.”
(Evid. Hrg. Trans. 100:22-25). Ms. Jewell repeatedly stated that her strategy did not
include placing blame on Mr. Brown, based on her client’s insistence that he had
nothing to do with the murder of Mrs. Brown. The strategy was to place all the blame
on Doug Mixon. (Evid. Hrg. Trans. 102). Ms. Jewell did not have a singular focus,
“[b]ut you can’t blame it on one person, then turn around and blame it on another
because then you lose the jury’s trust.” (Evid. Hrg. Trans. 102:7-9).
Q: As a defense attorney in a case like this, do you see any potential
downfall in blaming grieving husband for a murder, basically, with no
evidence in front of a jury?
A: Yes, you actually garner a lot of disdain out of a jury when you do
that. When you attack a family [ ] member of a victim, unless that
family member is the one who is sitting next to me at this trial, juries
do not like that at all.
Q: Did you have any other type of evidence, anything that had come
out in the case, that Brandon Brown was responsible for this particular
crime?

220

A: Absolutely nothing that I was aware of.
(Evid. Hrg. Trans. 193:25-194:1-11). Ms. Jewell had sound reasons for not trying to
put the blame on Brandon Brown for the murder of Mia Brown.
In this case, there was overwhelming evidence of Calhoun’s guilt. The
victim’s blood, hair, and purse were found inside of Calhoun’s trailer which was in
a disarray. See Calhoun, 138 So. 3d at 366. Calhoun was witnessed asking the victim
for a ride on December 16 and a witness testified that the victim came to the wrong
residence the night she went missing, looking for Calhoun’s trailer. Id. The morning
that Mia Chay Brown and Calhoun were both reported missing, Calhoun was seen
in a white four-door car, which matched the victim’s car, as well as buying cigarettes
at a convenience store in Alabama. Id. He was witnessed with blood and scratches
on his hands and later that day a fire was seen burning. Id. Eventually, Calhoun went
to the home of friends in Alabama, less than 1.5 miles from the victim’s burnt car
where he was informed that he was reported as missing along with the victim, Mia
Chay Brown. Id. at 367. The victim’s burnt remains were found in the trunk of her
car on December 20. Id. With this overwhelming evidence, Calhoun was not
prejudiced by any alleged failure of counsel to object to the testimony of witnesses
regarding issues that did not affect the jury’s verdict. Therefore, the additional
evidence Appellant seeks to use at a retrial would not have made a difference as they

221

do not pertain to the DNA evidence that was found, the location of the burnt car, and
the sightings of Calhoun and the victim before her death.
The circuit court did not err in finding that Appellant is not entitled to relief.
The court clearly made a credibility determination when it found “Ms. Jewell could
not have possibly discovered the false statements of either Vermillion or Contreras.”
(Order at 50) (emphasis added). The court also found that there was no Brady
violation, thereby rejecting the testimony of Ms. Simmons.
As such, this claim was correctly denied.
III.

THE TRIAL COURT WAS CORRECT IN FINDING THAT THERE
WAS NO VIOLATION UNDER BRADY.
Appellant claims that his due process rights were violated by a failure of the

State to disclose a conversation between Natasha Simmons and Sheriff Greg Ward
of the Geneva County Sheriff’s Office in Alabama. (Initial Brief at 36). Appellant
claims that Ms. Simmons approached Sheriff Ward after the murder had occurred,
to discuss a strange encounter she had with Doug Mixon the night of the murder.
Ms. Simmons, in a provided unsworn declaration, stated that Sheriff Ward had told
her the case was closed and sent her away. Appellant claims that this conversation
was never relayed to the prosecution or the defense. As such, Appellent is claiming
a Brady violation.
In order to obtain a reversal based on Brady, a defendant must prove four
elements:

222

(1) that the Government possessed evidence favorable to the defendant
(including impeachment evidence); (2) that the defendant does not
possess the evidence nor could he obtain it himself with any reasonable
diligence; (3) that the prosecution suppressed the favorable evidence;
and (4) that had the evidence been disclosed to the defense, a reasonable
probability exists that the outcome of the proceedings would have been
different.
Jones, 709 So. 2d at 512 (citing Robinson, 707 So. 2d at 693 (quoting Hegwood, 575
So. 2d at 172)). “There are three components of a true Brady violation: The evidence
at issue must be favorable to the accused, either because it is exculpatory, or because
it is impeaching; that the evidence must have been suppressed by the State, either
willfully or inadvertently; and prejudice must have ensued.” Smith v. State, 931 So.
2d at 796 (quoting Strickler, 527 U.S. at 281-82). To establish prejudice, a defendant
must demonstrate that the suppressed evidence is material. Id.
In Turner v. United States, 137 S.Ct. 1885 (2017), the United States Supreme
Court rejected a Brady claim, concluding that the withheld evidence was not
material. Petitioners were convicted of the kidnapping, armed robbery, and murder
of Catherine Fuller in 1985. The victim had been robbed, severely beaten, and
sodomized with a pipe or pole that caused extensive internal injuries. Id. At trial,
two of the co-perpetrators testified against petitioners in exchange for leniency. Id.
Thomas, a 14-year-old, who lived in the neighborhood and who knew some of the
petitioners, also testified as to what he saw the night of the murder. Id.

223

Years later, in 2010, during postconviction proceedings, Turner raised a Brady
claim, asserting that the prosecution failed to disclose evidence of another possible
suspect, McMillan, who had been seen in the alley near where the victim’s body was
discovered shortly after the murder and impeachment evidence, including
impeachment evidence relating to Thomas. Turner, 137 S.Ct. 1885. Petitioners
argued that if they had been informed of the other suspect, they could have raised as
a defense that a single perpetrator, or two perpetrators at most, had committed the
murder. Id. In other words, they could have asserted to the jury that McMillan, alone
or with an accomplice, murdered Fuller. The prosecution admitted that it suppressed
the evidence of McMillan, but asserted the evidence was not material. Id. The
postconviction court held an extensive evidentiary hearing, and then denied the
Brady claim, concluding that the evidence was not material. Id. The appellate court
agreed that the evidence was not material and the United States Supreme Court
affirmed. Id.
The Court first explained that due process is only violated if the prosecution
“withholds evidence that is favorable to the defense and material to the defendant’s
guilt or punishment.” Turner, 137 S.Ct. at 1888 (citing Smith, 565 U.S. at 75). The
Court explained that evidence “is ‘material’ within the meaning of Brady when there
is a reasonable probability that, had the evidence been disclosed, the result of the
proceeding would have been different” and that a “reasonable probability of a

224

different result is one in which the suppressed evidence undermines confidence in
the outcome of the trial.” Id. at 1893. The Court explained that a determination of
materiality was often “factually complex” and required that the reviewing court
“examine the trial record” to “evaluate the withheld evidence in the context of the
entire record.” Id.
The Court then reasoned that the withheld evidence, in the context of the entire
record, was “too little, too weak, or too distant from the main evidentiary points to
meet Brady.” Turner, 137 S.Ct. at 1894. The Court noted that the single attacker
defense was inconsistent with the evidence establishing a group attack. Id. The Court
observed that while the witnesses “differed on minor details,” virtually every witness
agreed that the victim “was killed by a large group of perpetrators.” Id. The Court
pointed out that the single attacker defense would have required the jury to believe
that both the co-perpetrators falsely confessed and, through coordinated effort or
coincidence, gave highly similar accounts of how the murder occurred, as well as
believe that Thomas, “a distinterested witness,” wholly fabricated his story. Id. The
Court also concluded that the undisclosed impeachment evidence was “largely
cumulative.” Id.
This Court must also decide if Sheriff Ward was a member of the prosecution
team. In Kyles v. Whitley, 514 U.S. 419, 437 (1995), the United States Supreme
Court stated an “individual prosecutor has the duty to learn of any favorable evidence

225

known to the others acting on the government’s behalf.” The Eleventh Circuit Court
of Appeals has held “that a claimant must show that the favorable evidence was
possessed by ‘a district’s prosecution team, which includes both investigative and
prosecutorial personnel.’” Moon v. Head, 285 F.3d 1301 (11th Cir. 2002) (quoting
United States v. Meros, 866 F.2d 1304, 1309 (11th Cir. 1989)). A prosecution team
has been defined as “the prosecutor or anyone over whom he has authority.” Meros,
866 F.2d at 1309. In Meros, the Eleventh Circuit held “that a prosecutor in the
Middle District of Florida did not ‘possess’ favorable information known by
prosecutors in the Northern District of Georgia and the Eastern District of
Pennsylvania.” Id. They stated “[a] prosecutor has no duty to undertake a fishing
expedition in other jurisdictions in an effort to find potentially impeaching evidence
every time a criminal defendant makes a Brady request for information regarding a
government witness.” Id.
[K]nowledge on the part of persons employed by a different office of
the government does not in all instances warrant the imputation of
knowledge to the prosecutor, for the imposition of an unlimited duty on
a prosecutor to inquire of other offices not working with the
prosecutor's office on the case in question would inappropriately
require us to adopt “a monolithic view of government” that would
“condemn the prosecution of criminal cases to a state of paralysis.”
United States v. Avellino, 136 F.3d 249, 255 (2d Cir. 1998) (citing United States v.
Gambino, 835 F.Supp. 74, 95 (E.D.N.Y. 1993)). Sheriff Ward is a member of the
Geneva County Sheriff’s Office, which is in Alabama. Sheriff Ward was never listed

226

as a witness by the prosecution. As such, Sheriff Ward was not a member of the
prosecution team and it is not expected that the State would not be impugned with
his knowledge.
At the evidentiary hearing, Natasha Simmons claimed that she had told Sheriff
Ward about an interaction between herself and Doug Mixon. (Evid. Hrg. Trans. 10211). However, Sheriff Ward testified at the evidentiary hearing that he knew Natasha
Simmons. (Evid. Hrg. Trans. 398:21-23). He denied ever talking with her about this
case and that she did not tell him that “she had picked up Doug Mixon and Charlie
up from an area of Holmes County, and Doug Mixon had blood on him and was
carrying a gas can.” (Evid. Hrg. Trans. 399:2-4). He did not tell Natasha Simmons
to forget about the incident because a suspect was caught and had confessed to the
crime. (Evid. Hrg. Trans. 399:6-9). Sheriff Ward was adamant that had that kind of
information been relayed to him or any of his deputies, he would have shared it with
the “lead agent with AB.” (Evid. Hrg. Trans. 399:13-17). As such, this evidence
could not be considered Brady evidence because the information did not exist for
either the prosecutor or defense to discover and this claim was correctly denied.
IV.

CALHOUN’S TRIAL COUNSEL DID NOT RENDER INEFFECTIVE
ASSISTANCE OF COUNSEL.
To establish a claim of ineffective assistance of counsel, a defendant must

prove both deficient performance and prejudice. Strickland, 466 U.S. 668. “Judicial
scrutiny of counsel’s performance must be highly deferential.” Pagan v. State, 29

227

So. 3d 938, 949 (Fla. 2009) (citing Strickland, 466 U.S. at 690). There is a strong
presumption that trial counsel was effective in their representation. Id. (citing
Strickland, 466 U.S. at 689). The standard for evaluation is not whether an attorney
could have done more. Id. “A fair assessment of an attorney’s performance requires
that every effort be made to eliminate the distorting effects of hindsight, to
reconstruct the circumstances of counsel’s challenged conduct, and to evaluate the
conduct from counsel’s perspective at the time.” Id. (citing Strickland, 466 U.S. at
689). “Strategic decisions do not constitute ineffective assistance of counsel if
alternative courses have been considered and rejected and counsel’s decision was
reasonable under the norms of professional conduct.” Id. (quoting Occhicone v.
State, 768 So. 2d 1037, 1048 (Fla. 2000)).
The strong presumption that counsel’s performance was sound is even
stronger when trial counsel is experienced. See Cummings v. Sec’y, Fla. Dept. of
Corr., 588 F.3d 1331, 1356 (11th Cir. 2009) (citing Chandler v. United States, 218
F.3d 1305, 1316 (11th Cir. 2000) (en banc)). In Florida, minimum standards have
been established for appointment of defense attorneys in capital cases. Fla. R. Crim.
P. 3.112. Those rigorous standards govern not just the qualifications of lead counsel
on a capital case, but also co-counsel on a capital case in order to ensure the quality
of representation afforded to a defendant facing capital punishment. As such,
defendants facing capital punishment are often benefited with the legal expertise and

228

experience of some of the most seasoned and knowledgeable lawyers available.
To establish prejudice, the defendant must show there is a reasonable
probability that but for counsel’s unprofessional errors, the result of the proceedings
would have been different. Strickland, 466 U.S. 668. The Florida Supreme Court has
determined that a reasonable probability is a probability sufficient to undermine
confidence in the outcome. Rutherford v. State, 727 So. 2d 216, 219 (Fla. 1998). “To
assess that probability, we consider ‘the totality of the available mitigation evidence
– both adduced at trial, and the evidence adduced in the . . . [post-conviction]
proceedings’ — and ‘reweig[h] it against the evidence in aggravation.’” Porter v.
McCollum, 558 U.S. 30, 41 (2009). Therefore, Calhoun must show that but for
counsel’s alleged errors, he probably would have received an acquittal at trial or a
life sentence during the penalty phase. Gaskin v. State, 822 So. 2d 1243, 1247 (Fla.
2002).
A. Counsel was not ineffective in her investigation of Doug Mixon’s alibi.
Ms. Jewell testified that Calhoun told her not to call Mixon as a witness. (Evid.
Hrg. Trans. 56:2-5). She stated that she had no idea what Mixon’s demeanor would
be during his testimony, or what he would even say. (Evid. Hrg. Trans. 199). Ms.
Jewell stated that Mixon had a crazy look in his eye. (Evid. Hrg. Trans. 56:9-10).
Mixon was under subpoena to testify at trial and it was Calhoun who instructed her
not to call him as a witness, even though he was present in the courthouse. (Evid.

229

Hrg. Trans. 54:20-21). Ms. Jewell testified that she and her investigator, Mr. Jordan,
chased down leads regarding Doug Mixon. (Evid. Hrg. Trans. 197).
We chased down leads. We had doors slammed in our face. We had
denials. We, I know Mr. Jordan had been to the jail several times, with
people asking or wanting to give information about Doug Mixon, I
heard Doug Mixon say this or that. And every time we followed through
the chain of people who were in or around those statements that we had
been made aware of, no one would ever either admit to them or we
couldn’t get past the hearsay of all of it.
(Evid. Hrg. Tran. 197:3-10). Between herself and Mr. Jordan, they recognized that
Mr. Mixon lied about pretty much everything. (Evid. Hrg. Trans. 197:17). They
learned that Mr. Mixon liked to be involved in big time cases. (Evid. Hrg. Trans.
197). On the day Mr. Mixon was set to testify at trial, Ms. Jewell believed Mr. Mixon
to be on some type of drug. (Evid. Hrg. Trans. 200).
Mr. Jordan testified at the evidentiary hearing as well. Mr. Jordan was the lead
investigator that assisted Ms. Jewell in her preparation for the trial. Mr. Jordan only
handled murder, capital cases. (Evid. Hrg. Trans. 280). Of the witnesses Mr. Jordan
was able to speak with, most of their knowledge was based on hearsay, “they had no
firsthand knowledge of anything.” (Evid. Hrg. Trans. 282:18-19). While Mr. Jordan
tried to follow leads he got from the witnesses, “[n]obody wants to own up to
actually knowing what occurred.” (Evid. Hrg. Trans. 283:1-2). Mr. Jordan testified
that he never heard of Natasha Simmons or Amy Salter. (Evid. Hrg. Trans. 284). Mr.
Jordan would have to make a judgment call about who to talk to because, in his

230

experience, he has talked to witnesses who will change their story once they get on
the stand to testify. (Evid. Hrg. Trans. 285). He gets names of possible witnesses
from defendants.
Like I say, based on the assistance I get from the defendant, if they don’t
have anything, if they don’t want to assist me with the case, it makes it
harder for me. And I usually ask them who they want me to talk to or
who can verify, you know, maybe give them an alibi or something. If
they don’t have anything to give me, I have to just go out on my own
and look.
And there are stories about every murder you hear all over every town
you go in. There’s hearsay about everything. And you can’t, I don’t
have the time and energy, you’re right, to chase all that down. Because
some of them told me they called the police and the police hung up on
them because they didn’t want to hear it, so.
(Evid. Hrg. Trans. 285:13-25).
Mr. Jordan testified that Calhoun would not help him with the investigation.
(Evid. Hrg. Trans. 295). “He wouldn’t even read his discovery. He said it was a
bunch of bull.” (Evid. Hrg. Trans. 295:10-11). “He wouldn’t talk about his case.”
(Evid. Hrg. Trans. 299:25). Mr. Jordan believed that Calhoun had knowledge of
what happened based on their limited conversations. (Evid. Hrg. Trans. 300). Mr.
Jordan did state that Calhoun told him hearsay that Mr. Mixon burned Mrs. Brown
in the car, which was consistent with what a lot of people in the area said, and that
Mr. Mixon had a reputation. (Evid. Hrg. Trans. 303). Mr. Jordan stated that his
reputation was that “[h]e was a liar and heavy drug user and he was possibly a serial
killer, according to a lot of people.” (Evid. Hrg. Trans. 303:24-25).

231

Calhoun, during his statement to police, claimed to have been kidnapped. Mr.
Jordan testified that he spoke with Calhoun about the kidnapping. However, “[i]t
never made any sense because the person that kidnapped him, he didn’t know him,
it was the first time he saw him. There was no reason for someone to kidnap him.”
(Evid. Hrg. Trans. 304:10-13). Calhoun made it clear that it was not Mr. Mixon who
kidnapped him, but some redhead, red-bearded man. (Evid. Hrg. Trans. 304).
Calhoun told Mr. Jordan that he had found God. (Evid. Hrg. Trans. 304).
[H]e was satisfied with whatever the outcome of the trial would be. And
I asked him outright, I said, well, do you know who did this or do you
have any idea. They [are] trying to take your life from you, and he said
I’m satisfied with that. If they take my life, whatever.
And he said if they don’t, I’m going to minister to the prisoners once I
get to prison on death row or wherever I go. But he also told me that he
was worried about the safety of his family, that’s why he couldn’t
divulge who was involved. And led me to believe that he did know who
was involved, but for the sake of his family, he couldn’t tell me or
wouldn’t tell me.
(Evid. Hrg. Trans. 304:25; 305:1-12). Mr. Jordan confirmed that he was never able
to find anything other than hearsay that Mr. Mixon was connected to this murder.
(Evid. Hrg. Trans. 305). “[Calhoun] had no knowledge that Doug Mixon did it, it
was hearsay.” (Evid. Hrg. Trans. 306:23-24).7

7

Melody Harrison was also called by the defense. She was the investigator who accompanied Ms.
Jewell to the crime scene. Her involvement was minimal in this case, only when Mr. Jordan was
out of the office due to knee surgery, and Mr. Jordan was the primary investigator, who did almost
all of the investigation. Ms. Harrison’s testimony did not establish any prejudice to Calhoun.

232

At the evidentiary hearing, Doug Mixon was called by the defense. Mr. Mixon
is well aware of his reputation in the community. (Evid. Hrg. Trans. 311). Mr. Mixon
testified that, on the night of murder, he was at the home of Jose Contreras in Geneva.
(Evid. Hrg. Trans. 312). He testified that Mr. Contreras, who was a co-worker of Mr.
Mixon, was not present at the house. (Evid. Hrg. Trans. 313). Mr. Mixon went to the
house to spend time with Gabrielle Faulk, who was living there at the time. (Evid.
Hrg. Trans. 313). He testified that Mr. Contreras was drunk that night and that they
were driving to the store to get more beer when they were pulled over by a Geneva
City police officer. (Evid. Hrg. Trans. 313-14). Mr. Mixon was adamant that he
never told Mr. Contreras or Robert Vermillion that he committed the murder. (Evid.
Hrg. Trans. 317).
The defense also called Jose Contreras. Mr. Contreras, who testified with the
aid of an interpreter, stated that he only speaks a little bit of English. (Evid. Hrg.
Trans. 338). At the time of the murder, he had known Mr. Mixon for three years.
(Evid. Hrg. Trans. 339). In September 2010, Mr. Contreras’s son was arrested for
murder. (Evid. Hrg. Trans. 340). He denied that Ms. Faulk ever lived at his house,
but would allow her to stay there occasionally. (Evid. Hrg. Trans. 341-42). Mr.
Contreras testified that Mr. Mixon never spent the night at his house and that he
never drank with Mr. Mixon and Ms. Faulk. (Evid. Hrg. Trans. 343). Mr. Contreras
claimed that Mr. Mixon came to his house one night after the murder and confessed

233

to killing Mrs. Brown. (Evid. Hrg. Trans. 345). He claimed that he went to Officer
Ricky Morgan and told him that Mr. Mixon confessed to the murder. (Evid. Hrg.
Trans. 346). Mr. Contreras admitted that he was the one who turned his son in for
murder. (Evid. Hrg. Trans. 347). During cross-examination, Mr. Contreras stated
that he and Mr. Mixon were only co-workers and did not have a relationship outside
of work. (Evid. Hrg. Trans. 349). Mr. Contreras also admitted that he had no
independent recollection of the night of murder. (Evid. Hrg. Trans. 349).
The State, in rebuttal, called Officer Morgan. While he was aware of the case,
he was not involved. (Evid. Hrg. Trans. 405). Officer Morgan knows Jose Contreras
through an investigation. (Evid. Hrg. Trans. 405). He testified that Mr. Contreras
speaks English and that Mr. Contreras never told him that Mr. Mixon confessed to
him. (Evid. Hrg. Trans. 405-06). Officer Morgan knew the officers on the case and
he would have immediately passed the information to them. (Evid. Hrg. Trans. 406).
Mr. Contreras is not credible at all. It is highly improbable that Mr. Mixon
would confess murdering Mrs. Brown to someone that barely speaks English and
that he had never spent time with Mixon outside of work. Additionally, Officer
Morgan testified that Mr. Contreras never approached him about this case.
The defense called Robert Vermillion, who is related to Brandon Brown, and
he testified that in the summer of 2016, Mr. Mixon was at his aunt’s house. (Evid.
Hrg. Trans. 361). Vermillion claimed that Mr. Mixon told him that he had done

234

things he was not proud of and he asked for forgiveness. (Evid. Hrg. Trans. 362).
Vermillion admitted that Mr. Mixon “didn’t come right out and say [he] killed her,
but he insinuated it.” (Evid. Hrg. Trans. 365:5-6). Though he believes that Mr.
Mixon knows something about the murder, he does not know if Mr. Mixon
committed the murder. (Evid. Hrg. Trans. 366). During cross-examination,
Vermillion admitted that, before Mr. Mixon said anything to him, “I wasn’t really
harassing him, but I wasn’t not harassing him.” (Evid. Hrg. Trans. 368:20-21).
Vermillion also admitted that he was following Mr. Mixon around everywhere that
night. (Evid. Hrg. Trans. 368). The statement that Vermillion claims Mr. Mixon
made never referenced Mrs. Brown. It never referenced any murder. Mr. Mixon
supposedly just asked for forgiveness for some unnamed thing. This evidence would
not change the outcome of the case. Vermillion merely stated that he thinks Mr.
Mixon knew something about the murder.
It is clear from the testimony that Ms. Jewell tried to investigate Doug
Mixon’s alibi to the best of her ability. Calhoun refused to cooperate and did not
even look at the discovery, as testified to by Ms. Jewell and Mr. Jordan. Because
Ms. Jewell and Mr. Jordan were unable to discover any evidence beyond
inadmissible hearsay that Mr. Mixon was involved in this murder, Calhoun has failed
to establish deficient performance by Ms. Jewell and this claim must be denied.

235

In this case, there was overwhelming evidence of Calhoun’s guilt. The
victim’s blood, hair, and purse were found inside of Calhoun’s trailer, which was in
a disarray. See Calhoun, 138 So. 3d at 366. Calhoun was witnessed asking the victim
for a ride on December 16 and a witness testified that the victim came to the wrong
residence the night she went missing, looking for Calhoun’s trailer. Id. The morning
that Mia Chay Brown and Calhoun were both reported missing, Calhoun was seen
in a white four-door car, which matched the victim’s car, as well as buying cigarettes
at a convenience store in Alabama. Id. He was witnessed with blood and scratches
on his hands and later that day a fire was seen burning. Id. Eventually, Calhoun went
to the home of friends in Alabama, less than 1.5 miles from the victim’s burnt car
where he was informed that he was reported as missing along with the victim, Mia
Chay Brown. Id. at 367. The victim’s burnt remains were found in the trunk of her
car on December 20. Id. Therefore, defense counsel’s calling Doug Mixon would
not have made a difference as it does not pertain to the DNA evidence that was
found, the location of the burnt car, and the sightings of Calhoun and the victim
before her death.
B.
Trial counsel did not render ineffective assistance of counsel when she did
not hire forensic experts.
Calhoun argues that defense counsel was ineffective for failing to retain or
consult with a forensic expert. In particular, Calhoun argues that counsel should have
consulted with a pathologist or medical expert to show how Calhoun received the

236

scratches and injuries to his body. (Initial Brief at 53). In addition, Calhoun asserts
defense counsel should have consulted with a digital forensic expert to ensure that
the SD card seized was not altered in any way as it was used to establish a timeline
for the crime. (Motion at 53).
This Court has repeatedly rejected a claim of ineffectiveness for failing to hire
various experts when the proffered testimony would not have assisted in the defense.
Reed v. State, 875 So. 2d 415, 422-23, 425, 427 (Fla. 2004); Beasley v. State, 18 So.
3d 473 (Fla. 2009) (finding defense counsel was not ineffective for failing to hire
experts, when the experts would not have presented any testimony contrary to the
State’s position). The test to be applied in a claim of ineffective assistance of counsel
for failure to retain an expert is whether counsel’s performance was deficient and
whether the defendant was prejudiced by that deficiency. Reed, 875 So. 2d at 415.
But, in this case, any such testimony from an expert would have been fruitless.
Scratches
In regards to the scratches observed on Calhoun, neither the State nor trial
counsel had experts testify as to how Calhoun obtained the scratches. In closing
arguments, defense counsel argued to the jury that briars or other similar shrubbery
caused the injuries. (T17:1194-95). Even taking Calhoun’s arguments that an expert
would have supported his theory of how he received the scratches, he cannot show
how he was prejudiced. Throughout trial the testimony presented was that Calhoun

237

was in the bushes hiding out which is consistent even with the injuries he sustained.
Therefore, even if an expert had testified that fingernails did not cause the injuries,
the other option did not help Calhoun’s defense. Reed, 875 So. 2d at 423 (finding
there is no prejudice when the employment of an expert would not have assisted the
defense).
Ms. Jewell testified that her strategy for handling the scratches was to let the
State “step on their own toes.” (Evid. Hrg. Trans. 196:21). She thought the State’s
explanation that they were caused by Mrs. Brown was ridiculous and “pretty
outlandish, given what those photographs represented and looked like.” (Evid. Hrg.
Trans. 196:18; 196:24-25). The State did not call an expert to explain the scratches
at trial.
Dr. Willey testified at the evidentiary hearing. He testified that his opinion
was based on only his review of the photographs taken of the scratches and he did
not have any case materials or transcripts. (Evid. Hrg. Trans. 247). Dr. Willey
testified while he did not think the scratches were made by fingernails, he could not
positively assert that the scratches were not made by fingernails either. (Evid. Hrg.
Trans. 249). He stated that he suspected some of the scratches were partially healed.
(Evid. Hrg. Trans. 252). During cross-examination, Dr. Willey admitted that he had
not testified for the State in a case since around 1970. (Evid. Hrg. Trans. 260). Dr.
Willey stated that there are four things that he looks for: lunar, width, multiplicity,

238

and parallel. (Evid. Hrg. Trans. 260-61). He stated that most manual scratches do
not break the skin surface, “much less produce a semilunar mark.” (Evid. Hrg. Trans.
261:16-17). Dr. Willey also testified that some of the scratches were parallel. (Evid.
Hrg. Trans. 262:17-19). While he continued to insist that the scratches were wider
than he would expect, he did not have a scale where he would say for certain how
far the scratches were from each other. (Evid. Hrg. Trans. 263). Dr. Willey could not
testify how the scratches occurred.
Q: . . . But I just ask you to elicit the testimony from you, if you were
to testify in trial, just like you’ve testified here today, you could not
give a definitive opinion or tell the jury or tell us here today, that you
know exactly how these scratches were caused?
A: No. As a matter of fact, I assert I simply don’t know how they
occurred.
(Evid. Hrg. Trans. 264:23-25; 265:1-5).
Ms. Jewell was able to argue that the scratches were caused by Calhoun
running through the woods. Appellant is unable to show how he was prejudiced and
how the calling of Dr. Willey would have changed the outcome of the trial. There
was no dispute that Calhoun had been in the woods prior to being arrested. He
admitted to detectives he was present in the woods during his interview.
Consequently, Calhoun was not prejudiced by any alleged failure of counsel
to call a medical or pathologist expert.

239

SD Card
In regard to the SD card, Calhoun has not shown how testimony of a defense
expert would have changed the outcome of the case. The State called an expert who
was able to approximate the date and timing of the pictures on the victim’s SD card.
(T15:914-22). The expert, Jennifer Roeder, approximated the timing of the photo
from the testimony of the victim’s sister and determined a range of time that the
picture was taken of the roof of the trailer. (T15:921). During cross-examination,
defense counsel was able to get the expert to admit that her testimony was based on
no one resetting the time and date on the camera. (T15:922). Therefore, defense
counsel effectively cross-examined the expert to show the issues with her testimony.
At the evidentiary hearing, Ms. Jewell testified about why she did not hire an
expert. While she agreed that they can be important in some cases, she made the
decision to not hire an expert for this issue. (Evid. Hrg. Trans. 143). The decision
was part of her strategy and did not fall below the standards.
Mr. Sawicki was called by the defense to testify about the SD card. Mr.
Sawicki, who is an expert in digital forensics, testified that he conducted an
examination of the SD card, as well as reviewed reports and the testimony of the
forensic analyst. (Evid. Hrg. Trans. 376). Mr. Sawicki’s testimony was consistent
with that of the Florida Department of Law Enforcement (FDLE) expert called by
the State. He stated that the modified and created dates were consistent with the

240

analysis done on the clock of the digital camera and that the access date was the only
date altered on the SD card. (Evid. Hrg. Trans. 387:16-17; 389:6-11). Even though
Mr. Sawicki testified that having created dates after January 2011 would not be
consistent with the trial testimony, his report that he prepared in this case stated that
many of the photographs had created and modified time stamps after the date of the
murder was consistent with FLDE’s analysis related to the clock on the digital
camera. (Evid. Hrg. Trans. 391:3-11). Mr. Sawicki was not aware of any of the
photographs having their created or modified dates changed to January 17, 2011,
which is when Investigator Raley accessed the SD card. (Evid. Hrg. Trans. 393:1019). Mr. Sawicki also admitted that he could not tell from the metadata that the
officer was lying about how the photographs were accessed. (Evid. Hrg. Trans.
394:13-16).
Ms. Jewell effectively cross-examined Ms. Roeder about the SD card. Mr.
Sawicki’s testimony would have been, at best, cumulative to the other testimony that
was presented to the jury. As Calhoun is unable to demonstrate how calling this
witness would create a reasonable probability of a different result, this claim should
be denied.

241

C. Trial counsel subjected the State’s case to adversarial testing through
investigation, cross-examination, the utilization of available impeachment
evidence, and proper objection and did not render ineffective assistance of
counsel that prejudiced Calhoun.
Calhoun argues that trial counsel failed to test the State’s evidence through
proper objections, available impeachment evidence and effective cross-examination.
(Initial Brief at 66-67). Calhoun listed numerous witnesses that he feels counsel
should have asked more questions, should have objected, or should have impeached
their testimony. (Initial Brief at 67-92).
“Whether to object is a matter of trial tactics which are left to the discretion
of the attorney so long as his performance is within the range of what is expected of
reasonably competent counsel.” Peterka v. State, 890 So. 2d 219, 233 (Fla. 2004)
(quoting Muhammad v. State, 426 So. 2d 533, 538 (Fla. 1982)). The Florida
Supreme Court has held that defense counsel’s decision not to object to minor
hearsay matters are considered trial tactics. Brown v. State, 846 So. 2d 1114, 1122
(Fla. 2003). In the absence of testimony regarding trial counsel’s strategy, a court
presumes trial counsel exercised reasonable professional judgment in all decisions.
Gore v. State, 964 So. 2d 1257, 1269-70 (Fla. 2007) (finding the defendant did not
meet his burden of deficient performance when his lead counsel was not called to
testify during the hearing, and defendant only presented testimony from co-counsel
which criticized the strategy of lead counsel); see Callahan v. Campbell, 427 F.3d
897, 933 (11th Cir. 2005).

242

While courts may not indulge in post hoc rationalization, they also cannot
insist that counsel “confirm every aspect of the strategic basis for his or her actions.”
Harrington v. Richter, 131 S.Ct. 770, 794 (2001). “There is a ‘strong presumption’
that counsel’s attention to certain issues to the exclusion of others reflects trial tactics
rather than ‘sheer neglect.’” Id. at 791 (citing Yarborough v. Gentry, 540 U.S. 1, 8
(2003) (per curiam)). Therefore, with the presentation of each witness defense
counsel is not deemed automatically defective for not choosing the method that
current counsel would have chosen. Further, unlike current counsel, defense counsel
does not have the benefit of hindsight in determining what would be effective and
what would not work. See Pagan, 29 So. 3d at 949.
During Calhoun’s case, trial counsel effectively cross-examined each witness
presented by the State. Through her cross-examination of various witnesses, defense
counsel was able to make it clear that there was no evidence that Calhoun was in the
trailer at the time that the kidnapping occurred, she was able to insinuate that
someone broke in and committed the crime. (T17:1178). Further, defense counsel
challenged the identification of the man who came into the store in Alabama at 6:00
a.m. (T13:659-65; T14:621). During closing arguments, defense counsel went
through the testimony of each witness and explained to the jury why each testimony
was important to show that Calhoun was not guilty. (T17:1179-207).

243

Counsel’s failure to object to the testimony was clearly a strategic decision.
Therefore, defense counsel’s failure to object regarding the alleged hearsay
testimony of Tiffany and Glenda Brooks appears to be a trial tactic by defense
counsel. (T14:783-87, 794-97). The objections would have just drawn attention to
their testimony and would not have assisted in Calhoun’s defense. In addition, by
effectively cross-examining the witnesses presented defense counsel was able to
challenge the timeline of events. Defense counsel questioned Brittany Mixon on her
events the day Calhoun was reported missing and her tampering with the evidence.
(T14:720-45). Defense counsel also questioned Investigator Raley regarding his
investigation, when he asserts everything occurred, and what information he left out.
(T14:774-77; T15:957-62; T16:1080-87, 1092).
Even though, Calhoun may think that defense counsel should have asked more
questions and should have gleaned additional answers, it does not mean that defense
counsel was ineffective in her defense of Calhoun. There is no evidence of neglect
on the part of counsel or that her approach was not strategic. Calhoun also has not
been able to establish prejudice. To establish prejudice, the defendant must show
there is a reasonable probability that but for counsel’s unprofessional errors, the
result of the proceedings would have been different. Strickland, 466 U.S. 668. The
Florida Supreme Court has determined that a reasonable probability is a probability
sufficient to undermine confidence in the outcome. Rutherford, 727 So. 2d at 219.

244

At the evidentiary hearing, Ms. Jewell testified about how she prepared the
case for trial, as well as her actions during the trial. Ms. Jewell testified that Calhoun
was insistent that the murderer was Doug Mixon. (Evid. Hrg. Trans. 54). She also
testified that the strategy for trial was to attack the State’s case and to show that the
State could not prove the case beyond a reasonable doubt. (Evid. Hrg. Trans. 53-54).
Ms. Jewell testified that she had a focused approach because she wanted to maintain
her credibility with the jury. (Evid. Hrg. Trans. 55).
Charles Howe, Dr. Swindle, Dick Mowbry
Charles Howe, Dr. Swindle, and Dick Mowbry were witnesses that the State
used to prove the identification of Mia Brown’s body. Ms. Jewell admitted that she
was not going to object to the witnesses because she did not think their testimony
would be prejudicial. (Evid. Hrg. Trans. 68:6-24). Ms. Jewell agreed that there was
no reason to cross-examine Mr. Howe or Dr. Swindle. (Evid. Hrg. Trans. 69:4-6).
When Mr. Mowbry had testified at trial about the scene being something he would
not forget, Ms. Jewell did not object. She did not think it was as inflammatory as it
seemed and “[a]n objection draws the jury to a fact that that, oh, that was something
that [the jury] was really supposed to be paying close attention to.” (Evid. Hrg.
Trans. 72:1-3). Additionally, Calhoun argues that Mr. Mowbry’s identification of
Mrs. Brown’s ribs multiple times was inflammatory. However, Ms. Jewell stated
that the identification was multiple photographs, and not the same one repeatedly.

245

(Evid. Hrg. Trans. 192-93). The questions asked by Ms. Jewell were clearly part of
her strategy to focus on causing reasonable doubt that Calhoun was the person who
committed the murder and to not present several theories and lose credibility with
the jury. These witnesses were merely called to establish the identification of the
body that was found.
In reference to Mr. Mowbry’s statement that Appellant contends injected
emotion and sympathy into the trial, the postconviction court noted that Ms. Jewell
believed an objection “would have drawn additional attention to testimony given
what was already emotional exhibits.” (Order at 23). The postconviction court found
the decision to not object to be strategic. (Order at 23). Calhoun has failed to show
Ms. Jewell was ineffective in her performance and that he was prejudiced.
Brandon Brown
Ms. Jewell testified that her strategy was to not attack Brandon Brown and
point to him as a possible person who killed Mia Brown.
[A]s a matter of strategy and not wanting to attack the husband of the
victim in front of the jury, we made, I made, and I don’t say we, I made
this call, not to lay the blame on Mr. Brown given the fact that Mr.
Calhoun was adamant that it was Doug Mixon and that Mr. Brown was
not involved in it.
(Evid. Hrg. Trans. 84:8-13) (emphasis added). Ms. Jewell had a reasonable strategy
for not putting the blame on Mr. Brown.

246

At the evidentiary hearing, counsel asked Ms. Jewell about photographs
depicting bruises. However, no one was able to identify the person in the
photographs, or even testify as to what caused the bruises on the unknown person.
These photographs would not be admissible at trial because they cannot be
authenticated. Ms. Jewell testified that no one knows the cause of the injuries and
that it is unknown if Mr. Brown was even the cause of the injuries. (Evid. Hrg. Trans.
100). “I can’t guess and accuse him of something. And, you know, I don’t know
what the cause of those [injuries] are. I mean, I don’t know if she did something.”
(Evid. Hrg. Trans. 100:22-25). Ms. Jewell repeatedly stated that her strategy did not
include placing blame on Mr. Brown, based on Calhoun’s insistence that Mr. Brown
had nothing to do with the murder of Mrs. Brown. The strategy was to place all the
blame on Doug Mixon. (Evid. Hrg. Trans. 102). She “reiterated there was absolutely
no evidence that she was aware of which would point to Brandon Brown as being
responsible for this crime.” (Order at 25). Ms. Jewell did not have a singular focus,
“[b]ut you can’t blame it on one person, then turn around and blame it on another
because then you lose the jury’s trust.” (Evid. Hrg. Trans. 102:7-9).
Q: As a defense attorney in a case like this, do you see any potential
downfall in blaming grieving husband for a murder, basically, with no
evidence in front of a jury?
A: Yes, you actually garner a lot of disdain out of a jury when you do
that. When you attack a family [ ] member of a victim, unless that
family member is the one who is sitting next to me at this trial, juries
do not like that at all.

247

Q: Did you have any other type of evidence, anything that had come
out in the case, that Brandon Brown was responsible for this particular
crime?
A: Absolutely nothing that I was aware of.
(Evid. Hrg. Trans. 193:25-194:1-11). Ms. Jewell had sound reasons for not trying to
put the blame on Brandon Brown for the murder of Mia Brown. (Order at 25).
It is clear that Ms. Jewell did her best to adhere to her strategy and attack the
State’s case, while keeping the jury’s trust. This was a reasonable plan to take by
Ms. Jewell and did not fall below the standards of being a competent attorney. As
such, Calhoun has failed to prove Ms. Jewell was ineffective.
Sherri Bradley
By postconviction counsel’s own statement during the evidentiary hearing,
Ms. Jewell “did a really good job attacking [Ms. Bradley’s] identification, there’s no
question about that.” (Evid. Hrg. Trans. 104:8-9). Ms. Jewell stated that she focused
on the hair issue because that was the strongest issue with Ms. Bradley. (Evid. Hrg.
Trans. 105). “[O]bviously, she couldn’t identify him [Calhoun].” (Evid. Hrg. Trans.
105:7). “[A]t the time, you want to, you know, when you have that point that you
think you have made to a jury, then you let that witness go so that they’re left with
that, you know, she can’t even get it right.” (Evid. Hrg. Trans. 105:10-14).
I mean, you can always, you know, look back and say, well, I probably
could’ve taken that one a little bit further than what I did. But, again, I
know at the time, in my head, it was, you know, this hair issue was the

248

strongest thing, I felt, that the jury could really grab on to because she
was totally identifying the wrong person.
(Evid. Hrg. Trans. 106:6-11). Ms. Jewell clearly had a strategy when questioning
this witness. Ms. Bradley was never called as a witness at the evidentiary hearing
and it is purely speculation as to what she would have testified to had she been asked
the additional questions. As such, Calhoun has failed to meet his burden to show Ms.
Jewell was ineffective.
Darren Batchelor
At the evidentiary hearing, the age difference between Mr. Batchelor and
Calhoun was discussed. At the trial, for the first time, Mr. Batchelor claimed to have
gone to school with Calhoun. (Evid. Hrg. Trans. 110-11). Ms. Jewell stated
[a]nd this is where one of those instances where had we gotten Mr.
Calhoun to actually look at the case and talk to us about these witnesses,
because the first time he told me, no, I don’t know him, was in trial.
And that was specifically what I had warned him about, at the time of
trial is not the time to tell me these things.
(Evid. Hrg. Trans. 111:2-7). Ms. Jewell also stated that her strategy was to play Mr.
Batchelor’s identification off of Ms. Bradley’s identification because they were
inconsistent and she wanted to make that point to the jury. 8 (Evid. Hrg. Trans. 115).
This is not an unreasonable strategy and Calhoun has failed to establish prejudice.

8

Ms. Bradley stated that the person had longer hair; however, Mr. Batchelor stated that the person
had shorter hair. (Evid. Hrg. Trans. 109).

249

Brittany Mixon
Ms. Jewell testified that Brittany Mixon did not make herself out to be a
sympathetic character when she testified. (Evid. Hrg. Trans. 132). She also testified
that she does not know what effect the fact that Ms. Mixon did not make any phone
calls to Charlie’s Deli would have on the jury. (Evid. Hrg. Trans. 131-32). Because
her father is Doug Mixon, Ms. Jewell stated that the implication that Ms. Mixon was
involved in the murder was present. (Evid. Hrg. Trans. 132). Calhoun failed to
establish what prejudice he sustained as a result of Ms. Jewell not asking additional
questions.
Tiffany Brooks, Glenda Brooks
Ms. Jewell testified that when Tiffany Brooks testified about what her
boyfriend told her about the flyer, she did not object to hearsay. She stated that
sometimes, when a defense attorney is sitting at the table with a client sitting next to
them and talking to them while a person is testifying, it is very easy for an objection
to be missed. (Evid. Hrg. Trans. 135). Defense counsel did not elicit any testimony
that would establish how Calhoun was prejudiced by this evidence being presented.
Ms. Jewell testified that Glenda Brooks was difficult during crossexamination. (Evid. Hrg. Trans. 136). She also stated, as with Tiffany Brooks, she
might have just missed the hearsay objection. However, there was no evidence
elicited that would establish how Calhoun was prejudiced by this evidence. By

250

postconviction counsel’s own admission, Ms. Jewell was able to impeach both
Tiffany Brooks and Glenda Brooks with prior inconsistent statements. (Motion at
22-23). Without a showing of any prejudice, Calhoun has failed to establish deficient
performance by Ms. Jewell. (Order at 28).
Jennifer Roeder
Ms. Roeder, who analyzed the SD card, did not testify at the evidentiary
hearing. When asked why she did not have Ms. Roeder testify about the efforts it
takes to remove an SD card from a camera, Ms. Jewell replied, “I, to be honest,
didn’t even think about having her testify to that.” (Evid. Hrg. Trans. 140:18-19).
She further stated, “[a]nd I could’ve, in error, assumed that the jurors, I try not to
assume my jurors are really stupid, but, you know. So, basic information, I don’t get
experts for.” (Evid. Hrg. Trans. 140:21-23).
Calhoun argues that Ms. Jewell should have raised a chain of custody
argument regarding the SD card. However, Ms. Jewell did not believe that the data
had been altered, removed, or added in any way from the SD card. (Evid. Hrg. Trans.
195). There was a reasonable explanation to show why the access dates on the SD
card had been changed.9 Ms. Jewell testified that she did not ask additional questions
about the data because she believed Ms. Roeder had “laid it out” during her direct

9

Investigator Raley testified that he had accessed the SD card to see if there was anything of value
on it.

251

examination and she did not want to “go down a whole nother line of questioning
that mimics the direct.” (Evid. Hrg. Trans. 145:3-10). Ms. Jewell did not ask
questions of Ms. Roeder about the compromised data because she believed the jury
had already heard that the SD card was compromised and that the integrity of it was
questionable. (Evid. Hrg. Trans. 146).
Calhoun failed to show that the additional questions would have caused a
different outcome in the trial and he cannot prove prejudice.
Michael Raley
Calhoun argues because the Florida Supreme Court found that the trial court
erred in excluding Calhoun’s statement to Investigator Raley and the issue was not
preserved for appeal (Motion at 28), that is the definition of ineffective assistance of
counsel. See Calhoun, 138 So. 3d at 360. However, the Florida Supreme Court also
found that, even if the issue had been preserved, Calhoun still would not be entitled
to relief. The Court agreed that the trial court erred in excluding the statements
because they were self-serving, without making a determination based on fairness.
Id. However, the Court further concluded that “any error in excluding these
statements is harmless beyond a reasonable doubt because there is no reasonable
possibility that exclusion of the redacted statements affected the outcome of the
jury’s verdict.” Id. “Additionally, both statements were cumulative to other
information elicited during the trial.” Id. at 361. “The information Calhoun seeks to

252

introduce through the rule of completeness, that he did not know if Brown arrived at
his trailer on December 16 and that his statement that Brown had never been to his
trailer before December 16, was in fact provided to the jury.” Id. Calhoun did not
establish prejudice. This Court has already made findings that any error was
harmless and it would not have affected the outcome of the trial. Id.
Even though Ms. Jewell stated that she would try the case differently now than
before, that does not mean she was ineffective. Ms. Jewell stated that she has called
law enforcement as witnesses more than once. (Evid. Hrg. Trans. 147). “Because
you can often make it look as though something has not been, they’ve not been
forthcoming to a jury and so you get some type of information through them, that
the jury may think, okay, well, why didn’t they tell us that.” (Evid. Hrg. Trans.
147:7-11). She also stated that her strategy was to establish that everything looked
made up. (Evid. Hrg. Trans. 148). Ms. Jewell had wanted to call Doug Mixon, so
that she could establish that he knew the places Calhoun liked to visit. (Evid. Hrg.
Trans. 148). Because Calhoun told her not to call Doug Mixon as a witness, it
changed Ms. Jewell’s strategy. (Evid. Hrg. Trans. 150). Ms. Jewell was still able to
make the arguments and attack the credibility of the investigation. Calhoun has
failed to prove prejudice.

253

Harvey Glen Bush
Calhoun argues that Ms. Jewell failed to effectively cross-examine Harvey
Glen Bush. However, Calhoun has failed to establish deficient performance by Ms.
Jewell, as well as prejudice. At the evidentiary hearing, Mr. Bush was not called to
testify about how he would have answered had Ms. Jewell asked the additional
questions. Ms. Jewell testified that she took the deposition of Mr. Bush. (Evid. Hrg.
Trans. 75). During the deposition, Ms. Jewell asked Mr. Bush if it was a regular
occurrence for Charlie’s Deli to close early “so that we avoided the look that, you
know, the store closed at the exact same time every day so something was obviously
off if it closed at a different time.” (Evid. Hrg. Trans. 76:9-12).
Calhoun has failed to prove Ms. Jewell performed deficiently as his trial
attorney and has failed to prove prejudice. As such, Calhoun has not proven
ineffective assistance of counsel.
In this case, there was overwhelming evidence of Calhoun’s guilt. The
victim’s blood, hair, and purse were found inside of Calhoun’s trailer which was in
a disarray. See Calhoun, 138 So. 3d at 366. Calhoun was witnessed asking the victim
for a ride on December 16 and a witness testified that the victim came to the wrong
residence the night she went missing, looking for Calhoun’s trailer. Id. The morning
that Mia Chay Brown and Calhoun were both reported missing, Calhoun was seen
in a white four-door car, which matched the victim’s car, as well as buying cigarettes

254

at a convenience store in Alabama. Id. He was witnessed with blood and scratches
on his hands and later that day a fire was seen burning. Id. Eventually, Calhoun went
to the home of friends in Alabama, less than 1.5 miles from the victim’s burnt car
where he was informed that he was reported as missing along with the victim, Mia
Chay Brown. Id. at 367. The victim’s burnt remains were found in the trunk of her
car on December 20. Id. With this overwhelming evidence, Calhoun was not
prejudiced by any alleged failure of counsel to object to the testimony of witnesses
regarding issues that did not affect the jury’s verdict. Therefore, defense counsel’s
objections and additional questions during cross-examination would not have made
a difference as they do not pertain to the DNA evidence that was found, the location
of the burnt car, and the sightings of Calhoun and the victim before her death. Ms.
Jewell had a clear strategy for how she handled the case that was not “so patently
unreasonable that no competent attorney would have chosen it.” Dingle v. Sec’y
Dept. of Corr., 480 F.3d 1092, 1099 (11th Cir. 2007) (quoting Adams v. Wainwright,
709 F.2d 1443, 1445 (11th Cir. 1983)). As such, this claim should be denied.
D.
Calhoun was not prejudiced by the testimony of Glenda Brooks and
Investigator Raley during the defense’s case-in-chief at trial.
Calhoun argues that defense counsel was ineffective for eliciting potentially
damaging evidence in the defense’s case-in-chief. Calhoun challenges defense
counsel’s decision to recall Ms. Brooks and Investigator Raley to testify again when

255

the information they presented could have been elicited during cross-examination in
the State’s case-in-chief. (Initial Brief at 92-96).
This Court has held that there is a strong presumption that defense counsels
render effective assistance and the assessment of their performance cannot be based
on hindsight. “[A]n attorney is not ineffective for decisions that are part of trial
strategy that in hindsight, did not work out to the defendant’s advantage.” Mansfield
v. State, 911 So. 2d 1160, 1174 (Fla. 2005). “Even if counsel’s decision appears to
have been unwise in retrospect, the decision will be held to have been ineffective
assistance, only if it was ‘so patently unreasonable that no competent attorney would
have chosen it.’” Dingle, 480 F.3d at 1099. The defendant on the other hand has to
overcome the burden that what the attorney did is not considered trial strategy. See
Darling v. State, 966 So. 2d 366 (Fla. 2007).
Ms. Jewell recalled Ms. Glenda Brooks and elicited testimony that Ms.
Brooks did not want Calhoun in her home after she received the call from her
daughter’s boyfriend. (T16:1076). Although, Calhoun asserts he did not know why
defense counsel recalled Ms. Brooks, defense counsel made it clear at side bar and
during closing arguments. At side bar, defense counsel told the court she was trying
to get information regarding Calhoun’s statement to Ms. Brooks regarding the
victim. (T16:1078).
Your Honor, this is opening up me to ask her about what he told her
when he got there. They said they wondered why he didn’t call the

256

police, because he had told them that he was kidnapped and tied up. So
I think if we go to that direction, that opens the door.
(T16:1078). However, this was not allowed in by the trial court and trial counsel was
not able to get this testimony in through the witness. During closing arguments, trial
counsel again reiterated that Ms. Brooks’ testimony the day after the incident was
different than her testimony at the time of trial. (T17:1191-92). It is clear that trial
counsel was trying to show the inconsistent statements of this witness, while also
attempting to get this information to the jury.
At the evidentiary hearing, Ms. Jewell testified she believed she called Ms.
Brooks during the defense’s case-in-chief to ask her why Ms. Brooks did not want
Calhoun at her home. (Evid. Hrg. Trans. 137). Ms. Jewell testified that she had a
conversation with Calhoun and that Ms. Brooks did not want another person at the
house and it was not specific to Calhoun. (Evid. Hrg. Trans. 137-38). This shows
clear strategy to imply to the jury that Ms. Brooks was not afraid of Calhoun when
she asked him to leave her home.
Through the testimony of Investigator Raley, trial counsel was able to show
the State was withholding information. Trial counsel questioned Investigator Raley
about Doug Mixon, who was known to fight with Calhoun in an effort to show that
there was a possible second suspect. (T16:1082). During closing arguments defense
counsel stated that she wanted to show that there was doubt that Calhoun was
actually seen buying cigarettes since he already had some. (T17:1197-99). Defense

257

counsel also argued that the information regarding an unknown shoe print did not
belong to Calhoun and was hidden by the State because it did not match the State’s
theory of the case. (T16:1084; T17:1195-98).
At the evidentiary hearing, Ms. Jewell testified that, as a matter of strategy,
she will routinely call law enforcement witnesses during the defense case-in-chief to
make it appear that they were not forthcoming to the jury and to make the jury
wonder why the witness did not disclose that information previously. (Evid. Hrg.
Trans. 147). Ms. Jewell had a strategy for calling Investigator Raley. Although
Calhoun argues that defense counsel’s decision to recall Investigator Raley was
puzzling, defense counsel was able to show that the State was hiding information
that did not work for their case. Therefore, trial counsel was not ineffective for
presenting evidence that put doubt on the State’s case.
Further, Calhoun has not shown how he was prejudiced. Both of these
witnesses testified in the State’s case-in-chief and there was substantial evidence of
Calhoun’s guilt that was presented throughout trial. Therefore, their testimony does
not undermine the jury’s verdict. See Everett v. State, 54 So. 3d 464, 478 (Fla. 2010).
Consequently, Calhoun has failed to show prejudice by any testimony of Ms. Brooks
or Investigator Raley in the defense’s case and this claim should be denied.

258

V.

THE POSTCONVICTION COURT DID NOT ABUSE ITS
DISCRETION BY NOT ALLOWING CALHOUN TO AMEND HIS
MOTION FOURTEEN DAYS PRIOR TO THE START OF THE
EVIDENTIARY HEARING.
On September 1, 2017, Appellant filed a motion to amend his 3.851 motion,

raising a claim of newly discovered evidence involving Robert Vermillion. The
evidentiary hearing was set to begin on September 15, 2017, and resume on
September 19, 2017. On November 1, 2017, over a month after the evidentiary
hearing, Appellant filed another motion to amend, raising a claim of newly
discovered evidence involving Keith Ellis.
Fla. R. Crim. P. 3.851(f)(4) states that a trial court may grant a motion to
amend provided that the motion was filed at least 45 days prior to the evidentiary
hearing. Denials of motions to amend are reviewed under the abuse of discretion
standard. See Doorbal v. State, 983 So. 2d 464 (Fla. 2008) (finding no abuse of
discretion where motion to amend was filed less than 30 days before the evidentiary
hearing); Smith v. State, 213 So. 3d 722 (Fla. 2017) (finding no abuse of discretion
when motion to amend was filed after the evidentiary hearing).
Calhoun, through counsel, filed the motion to supplement 14 days prior to the
evidentiary hearing. On September 15, the postconviction court, in accordance with
the rule, denied the motion to amend. However, the court allowed Appellant to
present the testimony of Vermillion and his testimony was considered by the court
in its order denying relief. In rejecting the claim of newly discovered evidence filed

259

under Claim 16, the postconviction court found with Simmons’ inconsistencies and
Sheriff Ward’s testimony, the outcome of the trial would not have been different.
(Order at 52). The court stated that Mixon was adamant that he had never confessed
to the murder of Mrs. Brown. (Order at 52). “But I sure as sin wouldn’t confess to
something that I didn’t do.” (Evid. Hrg. Trans. at 320). The court clearly found
Mixon’s denial believable. The court did not abuse its discretion in denying the
untimely motion to amend and Appellant was still able to argue the evidence of
Vermillion’s testimony at the evidentiary hearing.10
The November 1st motion to amend was also untimely, as it was filed more
than a month after the evidentiary hearing. The postconviction court did not abuse
its discretion in denying the motion. Additionally, counsel for Appellant
acknowledged in the motion to amend that the claims could be filed in a successive
3.851 motion.11 (Fifth Amended Motion at 4). Appellant is still able to bring his
claims and is not prejudiced. Because the postconviction court did not abuse its
discretion in denying either motion to amend, this claim is meritless and must be
denied.

10

The postconviction court noted that Vermillion admitted at the evidentiary hearing that Mixon
did not confess to the murder of Mrs. Brown to him. (Order at 51).
11
On August 17, 2018, Appellant filed a successive motion to vacate in the trial court, raising
claims of newly discovered evidence with Vermillion and Ellis, which was stayed by this Court
on August 22, 2018.

260

VI.

THE STATE DID NOT COMMIT ANY VIOLATIONS UNDER
GIGLIO AND CALHOUN’S DUE PROCESS RIGHTS WERE NOT
VIOLATED.
Calhoun claims that he was denied his right to fair trial based on the testimony

of Investigator Raley and Sherri Bradley, as well as the State’s closing arguments.
(Initial Brief at 103-07).
To establish a Giglio violation, it must be shown that: (1) the testimony given
was false; (2) the prosecutor knew the testimony was false; and (3) the statement
was material. Giglio v. United States, 405 U.S. 150 (1972); Guzman v. State, 868
So. 2d 498, 505 (Fla. 2003). Satisfying the second prong requires more than an
incidental inconsistency in a prosecution witness’s testimony, it requires evidence
establishing that the prosecutor knew12 the testimony was false. Guzman, 868 So.
2d at 505 (holding knowledge prong met where informant and lead detective
testified falsely that informant received no benefit for her testimony other than not
being arrested; in fact, the detective paid the informant $500); Ventura v. State, 794
So. 2d 553, 562-63 (Fla. 2001) (holding knowledge prong met where co-defendant
testified that no promises were made to him in exchange for his testimony; the
prosecutor in the case wrote letters to the U.S. Attorney's Office seeking favorable
treatment for co-defendant).

12

Knowledge is imputed onto the prosecutor if other State agents, such as law enforcement
officers, withheld correct information. Gorham v. State, 597 So. 2d 782, 784 (Fla. 1992).

261

In this case, Investigator Raley testified that Calhoun told him that police were
closing in on him at least three times while he was in the woods. (T15:955). As the
postconviction court stated in its order, “[t]here was sufficient testimony presented
at trial that Calhoun went to the Brooks’ home, which is 1.5 miles away from where
the car was burnt.” (Order at 39; T15:948-49, 953). There was sufficient evidence to
establish that Calhoun was near where the car was burnt. (Order at 39). Additionally,
Ms. Bradley’s testimony was corroborated by another witness who saw Calhoun in
the store at the same time. (Order at 39). Her statement about the news was not
material to her testimony and is not a Giglio violation.
Calhoun also claims that during closing arguments, the State made improper
statements that were misleading and false. However, the postconviction court
correctly found that the claim should have been raised on direct appeal. (Order at
39). Additionally, the State’s statements during closing arguments would not fall
under Giglio because, as the jury was properly instructed, what the lawyers say
during their opening statements and closing arguments is not evidence. (T13:514;
T17:1148). As such, this claim was properly denied by the postconviction court.
VII. THE POSTCONVICTION COURT RELIED ON ESTABLISHED
LAW AND PROPERLY APPLIED THE LAW TO THE EVIDENCE
THAT WAS PRESENTED AT THE EVIDENTIARY HEARING.
Calhoun claims that the postconviction court violated his right to due process
when the court, in its order, used much of the same language as what was submitted

262

by the State in its written closings. (Initial Brief at 107-11). Appellant claims that
the court relied on the State’s “proposed order,” but this is simply not true. The State
did not submit any proposed order; however, it did submit written closings, as did
defense. The fact that the court arrived at the same legal conclusions as the State,
does not mean that the court did not conduct on independent analysis of the evidence.
The court relied on established law and applied it to the evidence that was presented
at the hearing. This claim is meritless and should be denied.
CONCLUSION
Based upon the foregoing, the State respectfully requests that this Court
affirm the postconviction court’s order denying Appellant relief. Appellant
committed the brutal murder of Mia Chay Brown. The evidence of guilt was
overwhelming. “When a defendant challenges a death sentence . . . the question is
whether there is a reasonable probability that, absent the errors, the sentencer . . .
would have concluded that the balance of aggravating and mitigating circumstances
did not warrant death.” Strickland, 466 at 695. “A court making the prejudice inquiry
must ask if the defendant has met the burden of showing that the decision reached
would reasonably likely have been different absent the errors.” Id. at 696. The record
affirmatively demonstrates beyond a doubt that even if defense counsel had
committed each of the errors complained of in the Motion for Postconviction Relief,
there is no chance that the outcome would have been different.

263

In conclusion, Appellee respectfully requests that this Honorable Court affirm
the postconviction court’s Order granting Appellant a new penalty phase and
denying his guilty phase claims.

Respectfully submitted,
PAMELA JO BONDI
ATTORNEY GENERAL
/s/ Lisa A. Hopkins
Lisa A. Hopkins
Assistant Attorney General
Florida Bar No. 99459
Office of the Attorney General
PL-01, The Capitol
Tallahassee, Florida 32399
Telephone: (850)414-3336
Facsimile: (850)414-0997
capapp@myfloridalegal.com
Lisa.Hopkins@myfloridalegal.com
COUNSEL FOR APPELLEE

264

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that, on this 26th day of September, 2018, I
electronically filed the foregoing with the Clerk of the Court by using the Florida
Courts E-Portal Filing System which will send a notice of electronic filing to the
following: Kathleen Pafford, at Kathleen.pafford@ccrc-north.org, and Elizabeth
Salerno, at Elizabeth.salerno@ccrc-north.org, Attorneys for Appellant.

CERTIFICATE OF FONT COMPLIANCE
I HEREBY CERTIFY that the size and style of the type used in this brief is
14-point Times New Roman, in compliance with Fla. R. App. P. 9.210(a)(2).
/s/ Lisa A. Hopkins
COUNSEL FOR APPELLEE

265

Filing # 75161253 E-Filed 07/18/2018 03:55:19 PM

IN THE SUPREME COURT OF FLORIDA
Case No. SC
______________________________________________

RECEIVED, 07/18/2018 03:58:25 PM, Clerk, Supreme Court

JOHNNY MACK SKETO CALHOUN,
Petitioner,
v.
JULIE JONES
SECRETARY, DEPARTMENT OF CORRECTIONS
Respondent.
______________________________________________
PETITION FOR WRIT OF HABEAS CORPUS
______________________________________________
ROBERT S. FRIEDMAN
Capital Collateral Regional Counsel –
North
KATHLEEN PAFFORD
Assistant CCRC – North
Florida Bar No. 99527
ELIZABETH SALERNO
Assistant CCRC-North
Florida Bar No. 1002602
OFFICE OF THE CAPITAL
COLLATERAL REGIONAL COUSNEL
– NORTH
1004 DeSoto Park Drive
Tallahassee, Florida 32301
COUNSEL FOR PETITIONER

266

TABLE OF CONTENTS
TABLE OF CONTENTS………………………………...…………………………i
TABLES OF AUTHORITIES……………………………………………………..ii
PRELIMINARY STATEMENT……………………………...……………………1
REQUEST FOR ORAL ARGUMENT……………………………………….……1
JURISDICTION TO ENTERTAIN PETITION AND GRANT HABEAS
CORPUS RELIEF………………………………………………………………….2
GROUNDS FOR HABEAS CORPUS RELIEF……………………………….…..2
PROCEDURAL HISTORY………………………………………………………..3
ARGUMENT 1: APPELLATE COUNSEL FAILED TO RAISE ON APPEAL
MERITORIOUS ISSUES WHICH WARRANT REVERAL OF MR.
CALHOUN’S CONVICTIONS…………………………………………...……….5
A. Introduction……………………………………………………………...…..5
B. Appellate counsel was ineffective for failing to challenge the trial court’s
exclusion of Mr. Calhoun’s statement related to where and when he was in
the woods with law enforcement…………………………………….………6
C. Appellate counsel was ineffective for failing to raise the flawed jury
instruction regarding venue and jurisdiction given in Calhoun’s case……..12
1. Venue………………………………………………………...…………13
2. Jurisdiction…………………………………………...…………………15
D. Appellate counsel was ineffective for failing to raise the issue of improper
introduction of victim impact evidence during the guilt phase of Calhoun’s
capital trial…………………………………………………………...……..19
CONCLUSION AND RELIEF SOUGHT…………………..……………………21
CERTIFICATE OF SERVICE ………………………………………………...…22
CERTIFICATE OF FONT………………………………………………………..22

267

TABLE OF AUTHORITIES
Cases
Anderson v. State, 841 So. 2d 390 (Fla. 2003)…………...……………………….11
Ashmore v. State, 214 So. 2d 67 Fla. 1st DCA 1968)………………. …………..21
Barclay v. Wainwright, 444 So. 2d 956 (Fla. 1984)………………………………..6
Brady v. Maryland, 83 S. Ct. 1194 (1963)…………………………………..……..4
Brown v. Wainwright, 392 So. 2d 1327 (Fla. 1981)………………………..………2
Calhoun v. Florida, 135 S. Ct. 236 (2014)………………………………..………..3
Calhoun v. State, 138 So. 3d 350 (Fla. 2013)…………………………...……passim
Deaton v. Dugger, 635 So. 2d 4 (Fla. 1993)…………………………………..….15
Fitzpatrick v. Wainwright, 490 So. 2d 938 (Fla. 1986)………………...…………..6
Hathaway v. State, 100 So. 2d 662 (Fla. 3d DCA 1958)…………………….……21
Huff v. State, 495 So. 2d 145 (Fla. 1986)…………………………………………..4
Hurst v. Florida 136 S. Ct. 616 (2016)…………………………………………….3
Lane v. State, 388 So. 2d 1022 (Fla. 1980)……………………….………14, 15, 18
Leverette v. State, 295 So. 2d 372 (Fla. 1st DCA 1974)………………...………..13
Pope v. Wainwright, 496 So. 2d 798 (Fla. 1986)…………………………………..6
Spencer v. State, 615 So. 2d 688 (Fla. 1993)………………………….……………3
State v. DiGuilio, 491 So. 2d 1129 (Fla. 1986)……………………...……………..6
Stephens v. State, 787 So. 2d 747 (Fla. 2001)………………………………….…13
Strickland v. Washington, 466 U.S. 668 (1984)……………………………………5
Wilson v. Wainwright, 476 So. 2d 1162 (Fla. 1985)……………………….………6
Statutes
Fla. Stat. §782.04(2)……………………………………………………………....17
Fla. Stat. §787.01……………………………………………………………...…..17

268

Fla. Stat. §787.02…………………………………………………..……………...17
Fla. Stat. § 921.141(7)…………………………………………………………….19

Other authorities
Fla. Const. art. V. §3(b)(1)…………………………………………...…………….2
Fla. Const. art. V. §3(b)(9)……………………………………………………..…..2
Fla. Const. art. I, § 13………………………………………………………………1
Fla. R. App. Pro. 9.030(a)(3)……………………………………………………….2
Fla. R. App. Pro. 9.100(a)……………………………………………….………….1
Fla. R. Crim. P. 3.985………………………………………………………….….13
Fla. Std. Jury Instr. (Crim.) 3.8(e)………………...…….…………………….13, 14
U.S. Const. amends. V, VI, VIII, XIV…………………………….…………….1, 3

269

PRELIMINARY STATEMENT
Article I, Section 13 of the Florida Constitution provides: “The writ of
habeas corpus shall be grantable of right, freely and without cost.” This petition for
habeas corpus relief is filed to address substantial claims of error under the Fifth,
Sixth, Eighth and Fourteenth Amendments to the United States Constitution and
the corresponding provisions of the Florida Constitution. The claims allege
ineffective assistance of Mr. Calhoun’s direct appeal counsel.
Citations to the record on direct appeal to this Court shall be designated by
“R.”, followed by the appropriate page number. Citations to the trial transcript on
direct appeal to this Court shall be designated by “T.”, followed by the appropriate
page number. All other citations will be self-explanatory.
REQUEST FOR ORAL ARGUMENT
Johnny Mack Sketo Calhoun has been sentenced to death. The resolution of
issues in this action will determine whether he lives or dies. This Court has not
hesitated to allow oral argument in other capital cases in a similar posture. A full
opportunity to air the issues through oral argument would be appropriate in this
case, given the seriousness of the claims at issue and the stakes involved. Johnny
Mack Sketo Calhoun, through counsel, respectfully requests this Court grant oral
argument.

270

JURISDICTION TO ENTERTAIN PETITION AND GRANT HABEAS
CORPUS RELIEF
This is an original action under Florida Rule of Appellate Procedure
9.100(a). Article I, Section 13 of the Florida Constitution provides that, [t]he writ
of habeas corpus shall be grantable of right, freely and without cost. It shall be
returnable without delay, and shall never be suspended unless, in case of rebellion
or invasion, suspension is essential to the public safety.” This Court has original
jurisdiction pursuant to Florida Rule of Appellate Procedure 9.030(a)(3) and Fla.
Cont. Art V, §3(b)(1) and (9). This petition presents constitutional issues which
directly concerns the judgement of the Florida State courts and Mr. Calhoun’s
death sentence.
This Court has jurisdiction and the inherent power to do justice. Brown v.
Wainwright, 392 So. 2d 1327 (Fla. 1981). The ends of justice call on the Court to
grant the relief sought in this case. The petition raises claims involving
fundamental state and federal constitutional error. This Court’s exercise of its
habeas corpus jurisdiction and of its authority to correct constitutional errors is
warranted in this action. As the petition shows, habeas corpus relief is proper on
the basis of Mr. Calhoun’s claims.
GROUNDS FOR HABEAS CORPUS RELIEF

271

Mr. Calhoun asserts that his conviction was obtained in violation of his
rights guaranteed by the Fifth, Sixth, Eighth and Fourteenth Amendments to the
United States Constitution and the corresponding provisions of the Florida
Constitution because his appellate counsel rendered ineffective assistance of
counsel during his direct appeal. This renders Mr. Calhoun’s conviction
unconstitutional.
PROCEDURAL HISTORY
On February 28, 2011, the grand jury for the Fourteenth Judicial Circuit, in
and for Holmes Court, indicted Calhoun for the offense of first-degree murder.
Calhoun pled not guilty to all charges and the guilt phase of his capital trial began
on February 20, 2012. On February 28, 2012, the jury returned a verdict finding
Calhoun guilty as charged. (R. 960). His penalty phase took place the following
day, wherein the jury recommended death by a vote of 9 to 3. The Spencer1
hearing took place on August 4, 2012. Mr. Calhoun was sentenced to death on
May 18, 2012.
On direct appeal, this Court affirmed Calhoun’s convictions and sentence.
Calhoun v. State, 138 So. 3d 350 (Fla. 2013). Calhoun filed a Petition for Writ of
Certiorari in the United States Supreme Court, which was denied on October 6,
2014. Calhoun v. Florida, 135 S. Ct. 236 (2014).

1

Spencer v. State, 615 So. 2d 688 (Fla. 1993).
272

Mr. Calhoun filed a timely Motion to Vacate Judgments of Conviction and
Sentence on September 26, 2016.2 The State filed its response on November 24,
2015. (PCR. 1138). The circuit court held a Huff3 hearing on April 21, 2016.
(PCR. 3928). Following the Huff hearing, the circuit court issued an order,
granting Calhoun an evidentiary hearing on some issues and denying a hearing on
the remaining issues. (PCR. 1343).
An evidentiary hearing commenced on September 15, 2017, and continued on
September 19 and 20. On November 1, 2017, Calhoun filed a sixth Motion to
Amend, seeking to amend with a claim of newly discovered evidence . (PCR. 2418).
Calhoun also sought to reopen the evidentiary hearing to present evidence related to
the claim. The circuit court denied Calhoun’s Motion to Amend and Reopen in an
order dated November 2, 2017. (PCR. 2437). The circuit court filed an order
denying relief on all claims on January 3, 2018 . (PCR. 2557). This timely appeal

2

Calhoun filed the following Motions to Amend: (1) February 11, 2016 Motion to
Amend with a claim premised upon Hurst v. Florida 136 S. Ct. 616 (2016) (PCR.
1138); (2) August 16, 2016 Motion to Amend with a claim based on a conflict of
interest (PCR. 1378); (3) May 22, 2017 Motion to Amend with an additional claim
of ineffective assistance of counsel (PCR. 1535); (4) June 22, 2017 Motion to
Amend seeking to add one claim based on a Brady v. Maryland, 83 S. Ct. 1194
(1963) violation and a second claim based on newly discovered evidence (PCR.
1845); (5) September 1, 2017 Motion to Amend with a claim based on newly
discovered evidence. (PCR. 2003).
3
Huff v. State, 495 So. 2d 145 (Fla. 1986).
273

follows. Calhoun has timely appealed the denial of his Motion to Vacate and his
Initial Brief was filed in Case SC18-340 simultaneously with this habeas petition.
ARGUMENT I
APPELLATE COUNSEL FAILED TO RAISE ON APPEAL
MERITORIOUS ISSUES WHICH WARRANTS REVERSAL OF MR.
CALHOUN’S CONVICTION AND SENTENCE
A. Introduction
Appellate counsel has the “duty to bring such skill and knowledge as will
render [the appeal] a reliable adversarial testing process.” Strickland v.
Washington, 466 U.S. 668, 688 (1984). To establish that counsel was ineffective,
Strickland requires a defendant to demonstrate: (1) specific errors or omissions
which show that appellate counsel’s performance deviated from the norm or fell
outside the range of professional acceptable performance; and (2) the deficiency of
that performance compromised the appellate process to such a degree as to
undermine confidence in the fairness and correctness of the appellate result.
Wilson v. Wainwright, 476 So. 2d 1162. 1163 (Fla. 1985).
In order to grant habeas relief based on ineffectiveness of appellate counsel,
this Court must determine “whether the alleged omissions are of such magnitude as
to constitute a serious error or substantial deficiency falling measurably outside the
range of professionally acceptable performance and, second, whether the
deficiency in performance compromised the appellate process to such a degree as

274

to undermine confidence in the correctness of the result.” Pope v. Wainwright, 496
So. 2d 798, 800 (Fla. 1986).
Appellate counsel’s failure to raise the meritorious issues addressed in this
petition proves his advocacy involved “serious and substantial deficiencies” which
establishes that “confidence in the outcome is undermined.” Fitzpatrick v.
Wainwright, 490 So. 2d 938, 940 (Fla. 1986); Barclay v. Wainwright, 444 So. 2d
956, 959 (Fla. 1984); Wilson v. Wainwright, 474 So. 2d 1162 (Fla. 1985).
This Court has held that “constitutional errors, with rare exceptions, are
subject to harmless error analysis.” State v. DiGuilio, 491 So. 2d 1129, 1134 (Fla.
1986). Harmless error analysis:
Requires an examination of the entire record by the appellate court including
a close examination of the permissible evidence on which the jury could
have legitimately relied, and in addition an even closer examination of the
impermissible evidence which might have possibly influenced the verdict.
Id. at 1135. Once error is found, it is presumed harmful unless the state can prove
beyond a reasonable doubt that the error “did not contribute to the verdict, or,
alternatively stated, that there is no reasonable probability that the error contributed
to the [verdict].” Id. at 1138.
B. Appellate counsel was ineffective for failing to challenge the trial court’s
exclusion of Mr. Calhoun’s statement related to where and when he was
in the woods with law enforcement
The State introduced as admissions against interests five statements that

275

Calhoun made during an interrogation by law enforcement. Calhoun’s trial
counsel objected, arguing that the entirety of Calhoun’s statement should be
admitted under the rule of completeness. The trial court denied trial counsel’s
objection, and trial counsel failed to proffer the remainder of Calhoun’s statement
for review.
On direct appeal, appellate counsel raised a claim challenging the exclusion of
Calhoun’s entire statement to law enforcement based on the circuit court’s
misunderstanding of the rule of completeness. Appellate counsel focused his
argument on two portions of Calhoun’s statement: (1) that Calhoun admitted to
being at the Brooks’ residence on Saturday, December 18, 2010 and (2) that
Calhoun told law enforcement that Mia Brown had never been to Calhoun’s trailer
located on the property of the junkyard. Calhoun, 138 So. 3d at 359. Appellate
counsel failed to include in his argument that the State also selectively chose a
statement from Calhoun’s interrogation, where he placed himself in the woods
with law enforcement and then mischaracterized his statement to argue that he
essentially confessed to being at the crime scene.
The statement at issue was relayed to the jury by Lt. Michael Raley. In
response to being asked if Calhoun made any statements concerning being in the
woods with law enforcement in the days leading up to December 20, 2010, Lt.
Raley testified “He leaned over and he made the statement that there were three

276

times that he was close enough to (tapping on desk) he tapped the side of my leg
with his foot.” (T. 955). The State then took this testimony, which was presented
out of context, and argued the following to the jury:
And one other thing. It was kind of fast testimony and it might have went by
you a little quick. Mike Raley, I asked him, I said did you ever discuss with
him about being in the woods the same time as law enforcement? He said
Johnny Mack Sketo Calhoun leaned forward and looked at Michael Raley
and said there was a couple times where y’all were close enough (kick
podium three times) and could have kicked me three times. Now, why is
that important? Friday, December 17th, this car’s on fire at 11:00, 11:30 in
the morning, right here. Two o’clock that day, about three hours later,
Michael Raley is taken right here by Brittany Mixon, but it had started
raining.
Now, you heard Dick Mabry, Mowbray talk about that the area around the
car burnt severely and then, he couldn’t tell why, but it just quit burning
there. Well, it started raining that afternoon. So when, in all the evidence
that you’ve heard in the last week and a half, is the defendant in the woods
with law enforcement, that we know of, that you have evidence of? It’s
Friday afternoon when Michael Raley is right there in the same woods
where the defendant is, where that car was burned.
(T. 1210-1211).
The State clearly wanted the jury to believe that Calhoun placed himself in
right near Mia Brown’s burned car and body, within hours of the car being burned.
The inference is obvious – if Calhoun was a stone’s throw from Mia Brown’s burnt
car, he must have been the one who burnt it. There can be no doubt that the jury
made this connection and came to the conclusion that Calhoun’s location in the
woods, so close to the burnt car, was due to his involvement in the crime. After

277

all, the circuit court reached that very conclusion, writing in its sentencing order
that “The defendant would later boast to law enforcement at about 2:00 p.m., that
same rainy afternoon, he remained concealed near the campsite and was close
enough to reach out and touch a deputy.” (T. 1077).
However, at no point in time did Calhoun ever tell law enforcement that he
was with them in the woods on December 17, 2010, close to Mia Brown’s car and
body.
The actual exchange between Lt. Raley and Calhoun was as follows:
Hamilton:

About what time did you get back to the trailer?

Calhoun:

Last night.

Hamilton:

Last night?

Calhoun:

Yeah, Ya’ll was tightening up the noose last night when I was
in the woods man.

Raley:

Why do you say that?

Calhoun:

Ya’ll was just getting close to me man. Ya’ll don’t even know
how close ya’ll was several times.

Raley:

Huh?

Calhoun:

I’d say more than three times a deputy could have reached out
and done like that.

Raley:

Where was that at?

Calhoun:

Down there, close to Bethlehem Campground. I don’t really

278

know where I was in the woods.
Raley:

Bethlehem Campground. Talking about down here in Florida?

Calhoun:

Yeah.

Raley:

You made it all the way down there?

Calhoun:

Yeah.

(R. 103). It is clear Calhoun never placed himself in the woods by Mia Brown’s
car.
It was error for appellate counsel not to raise the above misleading statement
on Calhoun’s direct appeal. It is apparent from the record that the State took
Calhoun’s statement completely out of context and then outright lied to the jury in
closing argument. Appellate counsel had the benefit of both the State’s closing
argument and a transcript of Calhoun’s statement. Appellate counsel clearly knew
that the purpose of the rule of completeness was to “avoid the potential for creating
misleading impressions by taking statements out of context.” Calhoun, 138 So. 3d
at 360, and should have argued to this Court that the portion of Calhoun’s
statement at issue should have been admitted to provide a proper context. Id. at
359.
As the foregoing illustrates, it is clear that the testimony about Calhoun
being in the woods with law enforcement created a misleading impression when
not placed in the proper context, which, of course, it was not. Yet, appellate

279

counsel inexplicitly omitted any mention of it to this Court in litigating Calhoun’s
rule of completeness argument. His failure to raise this issue fell outside the range
of professionally acceptable performance.
Appellate counsel’s error compromised the appellate process to such a
degree as to undermine confidence in the fairness and correctness of the appellate
result. On direct appeal, this Court found that the trial court erred in excluding
Calhoun’s statements, but found the issue was not preserved due to the failure of
trial counsel to properly preserve the issue for appellate review. Calhoun v. State,
138 So. 3d 350, 360 (Fla. 2013). Due to trial counsel’s failures, this Court was
then forced to determine whether the trial court’s error was fundamental. Id.
Fundamental error is “define as error that reaches down into the validity of the trial
itself to the extent that a verdict of guilty could not have been obtained without the
assistance of the alleged error.” Anderson v. State, 841 So. 2d 390, 403 (Fla. 2003).
This Court ultimately determined that the trial court’s error in refusing to admit
Calhoun’s statement was harmless beyond a reasonable doubt because “The
statements with which Calhoun asserts error were only two statements out of the
extensive record in this case. Calhoun at 361. (emphasis supplied).
This Court’s fundamental error analysis was clearly hampered by appellate
counsel’s failure to raise the issue of Calhoun’s statements regarding being in the
woods with law enforcement. Had appellate counsel done so, this Court would

280

have been able to conclude that the trial court’s error reached down into the
validity of the trial itself. After all, the State portrayed Calhoun’s statement, taken
out of context, to be something akin to a confession. This is important because the
case against Calhoun was a purely circumstantial one. Calhoun at 365. The State
was unable to provide the jury any direct evidence that Calhoun was the one
responsible for Mia Brown’s death. There was no motive, no eyewitnesses, and no
confession. Calhoun, allegedly placing himself in the same vicinity of Mia
Brown’s burned car, on the day and within hours of when it was set fire to it, was
the strongest evidence the State had tying Calhoun to the crime. Without this
statement, it is unlikely the State could have obtained a guilty verdict.
Unlike the statements that appellate counsel raised on direct appeal, the
statement about Calhoun being in the woods with law enforcement was not
cumulative to any other information elicited during the trial. There is more than a
reasonable probability that the misleading testimony and subsequent false
argument affected the jury’s verdict, thus, the error could not be harmless beyond a
reasonable doubt. Appellate counsel’s failure to raise this issue fell far outside the
range of professionally acceptable performance. Due to this failure, there can be
no confidence in the correctness of the appellate process. Relief in the form of a
new trial is required.
C. Appellate counsel was ineffective for failing to raise the flawed jury
instruction regarding venue and jurisdiction given in Calhoun’s case

281

The circuit court failed to properly instruct the jury in Calhoun’s case
regarding the issues of venue and jurisdiction. The improper instructions given to
the jury essentially relieved that State of its burden of proof. Appellate counsel
failed to raise this issue on direct appeal, rendering ineffective assistant of counsel.
1. Venue
The State proposed a special jury instruction on venue, arguing that the Florida
Standard Jury Instruction (Crim.) 3.8(e) did not adequately set out the law as it
applied to the facts of the case. (R. 959).
As a preliminary matter, a venue instruction is only given when requested by
the defense. See Fla. Std. Jury Instr. (Crim.) 3.8(e) What’s more, standard jury
instructions are presumed correct and are preferred over special instructions.
Stephens v. State, 787 So. 2d 747 (Fla. 2001). When a standard instruction
accurately and adequately states the law, it should be given in the absence of
extraordinary circumstances. Leverette v. State, 295 So. 2d 372 (Fla. 1st DCA
1974). When a trial court deviates from the standard instructions, the court is
required to state on the record, or in a separate written order, why the standard
instruction is inadequate. Fla. R. Crim. P. 3.985. No explanation was provided by
the trial court in Calhoun’s case.

282

Here, there was no dispute that if Florida had jurisdiction to prosecute the
crimes at issue, Holmes County was the proper venue. Thus, the crux of the issue
was jurisdiction, not venue, and there was no reason for the giving of the venue
instruction. To aggravate matters, the State’s proposed instruction set out a
truncated and simplified law of jurisdiction. The jury was told, before it was even
instructed on the issue of jurisdiction, that “If the commission of an offense
commenced within this State and is consummated outside the State, the offender
shall be tried in the county where the offense is commenced.” (T. 1236). This
erroneous instruction was never even identified as a venue instruction. It is likely
then, that the jury in Calhoun’s case failed to understand that venue and
jurisdiction were separate and distinct issues, with different burdens of proof. See
Fla. Std. Jury Instr. (Crim.) 3.8(e)(venue must be proved only to a reasonable
certainty); Lane v. State, 388 So. 2d 1022 (Fla. 1980) (territorial jurisdiction must
be proven beyond a reasonable doubt). Thus, the jury likely believed that all the
State needed to prove for it to find Calhoun guilty was that “something” happened
in Holmes County, even if that “something” was only tangentially related to the
crime.
Appellate counsel’s failure to raise on direct appeal the trial court’s
erroneous giving of the venue instruction at the State’s behest clearly fell outside
the range of professional acceptable performance. There can be no excuse, as the

283

standard jury instructions themselves state that the venue instruction is only to be
given if requested by the defense. Fla. Std. Jury Instr. (Crim.) 3.8(e) It is obvious
from the record that it was the State, not the defense who requested the venue
instruction. (R. 959; T. 1119). Appellate counsel’s error allowed the jury’s
alleviating the State of its burden of proof to go unchecked, thereby compromising
the appellate process. There can be no confidence in the correctness of the
appellate result.
2. Jurisdiction
The instruction given to the jury on the issue of jurisdiction was fundamentally
flawed. At trial, defense counsel proposed a special instruction on jurisdiction,
based on Lane v. State, comprising two pages. (R. 940-41). The State objected to
all of the language contained on the second page and the instruction was not given
to the jury. (T. 1118).
The State must establish beyond a reasonable doubt that the essential
elements of an offense are committed within the jurisdiction of the State of Florida.
Deaton v. Dugger, 635 So. 2d 4 (Fla. 1993), citing Lane v. State at 1028. The
issue of jurisdiction is a factual one to be determined by the jury upon appropriate
instruction. Id. Territorial jurisdiction must be proved beyond a reasonable doubt.
Id. at 1029. Upon request of the defendant, the court should instruct the jury on
jurisdiction when the evidence is in conflict on the issue. Deaton at 7.

284

The jurisdiction instruction that was given to the jury was a misstatement of
the law, as it allowed for jurisdiction to be found without a finding by the jury that
the intent to commit murder originated in Florida. The critical part of the
instruction given to the jury reads as follow:
To prove that the State of Florida has jurisdiction to prosecute the crime or
crimes charged, the State must prove only one of the following:
1. Mia Chat Brown was burned or suffocated by smoke inhalation within
the State of Florida.
2. Mia Chay Brown died within the State of Florida.
3. Mia Chay Brown was taken against her will by Johnny Mack Sketo
Calhoun from the State of Florida; OR
4. Johnny Mack Sketo Calhoun formed the premeditated intent to kill Mia
Chay Brown within the State of Florida.
(R. 940; T. 1236-37) (emphasis added).
Calhoun was charged with felony murder, the underlying felonies being
arson and/or kidnapping. (R. 39). All of the evidence presented by the State
indicated that the act of arson was committed solely in the State of Alabama. No
evidence was presented to even infer that the intent to commit arson was formed in
Florida. Additionally, all of the evidence presented by the State indicated that Mia
Brown died in Alabama, rendering paragraphs one and two of the jury instruction
moot. Thus, the critical issues as it related to jurisdiction were found in paragraphs

285

three and four of the instruction. Paragraph three essentially defines the elements
of false imprisonment. Paragraph four defines first degree premeditated murder.
Simply put, kidnapping is the felonious act of a confinement or abduction
with specific intent. See Fla. Stat. §787.01. In Calhoun’s case, the specific
felonious intent was to commit first degree murder. Therefore, to prove that
Florida had jurisdiction over the prosecution of the case, the State was required to
prove that Calhoun not only took Mia Brown from the State of Florida against her
will, but he did so with the intent to kill her. Simply taking Mia Brown from the
State of Florida against her will is false imprisonment. See Fla. Stat. §787.02.
False imprisonment is not a qualifying felony under the felony murder rule. Fla.
Stat. §782.04(2).
Therefore, in order for the jury to find that the State of Florida had
jurisdiction to prosecute Calhoun under the felony murder theory, the jury had to
find that Calhoun took Mia Brown from the State of Florida against her will and
he did so with the premeditated intent to kill her. The jury was not instructed on
this.
Whether or not the State of Florida had jurisdiction to prosecute Calhoun for
Mia Brown’s murder was a glaring issue in this case. Appellate counsel had notice
of the flawed jury instructions, as they appear in the trial transcript. (T. 1236-37).
The mere fact that Mia Brown’s death actually occurred in Alabama should have

286

alerted appellate counsel to a potential jurisdiction issue in and of itself. Appellate
counsel’s failure to raise the flawed jury instructions fell outside the range of
professional acceptable performance.
Jurisdiction is an essential element of a crime, and must be proven beyond a
reasonable doubt. Lane at 1029. Had the jury been properly instruction, it would
not have been able to find jurisdiction beyond a reasonable doubt. The evidence
against Calhoun was entirely circumstantial. There was no direct evidence of
Calhoun’s intent. Nor was there any evidence of when an intent to kill was
formed. The State’s theory is that Mia Brown was tied up in her trunk when Sherri
Bradley claims to have seen Calhoun at an Alabama gas station, but that was not
proven. Bradley claimed to see Calhoun between 5:30 and 6:00 a.m. and testified
that after he left her store, he headed south. (T. 658, 652). Calhoun’s father did not
arrive to the junkyard until after 7:30 a.m. (T. 1005). Further, according to the
State, the car was not burned until 11:30 a.m. (T. 762). There is absolutely no
evidence regarding where Mia Brown was during that time. Appellate counsel’s
failure to raise this issue on appeal further alleviated the State of its high burden of
proof. There can be no doubt that appellate counsel’s deficiency compromised the
appellate process to such a degree as to undermine confidence in the fairness and
correctness of the result.

287

D. Appellate counsel was ineffective for failing to raise the issue of
improper introduction of victim impact evidence during the guilt phase
of Calhoun’s capital trial
Through the first two witnesses at the guilt phase of Calhoun’s capital trial,
the State introduced impermissible victim impact evidence. Fla. Stat. § 921.141(7)
provides for the introduction of victim impact evidence at the penalty phase of a
capital trial. However, it prohibits characterizations and opinions about the crime,
the defendant, and the appropriate sentence. Id. It also prohibits the introduction
of the evidence until the prosecution has provided evidence of one or more
aggravating factors. Id.
Charles Howe was the first witness to testify for the State. (T. 543).
After establishing that Mia Brown worked for him, he went on to identify a picture
of her and her employment application. (T. 545-46). The employment application
was introduced into evidence, without objection, as State’s exhibit 2. During
Howe’s testimony, the State elicited details regarding the characteristics of Mrs .
Brown’s signature, namely that she dots her “I” and ends her name with a heart . (T.
548). Notably, at no point during trial did the State ask Howe questions aimed at
authenticating Mrs. Brown’s signature. Instead, the State’s entire line of questioning
focused on the unique characteristics of Mrs. Brown’s signature, i.e. “her little
hearts.” (T. 548).

288

The State continued to emphasize this impermissible victim impact evidence
with its second witness, Dr. Swindle. Dr. Swindle was Mia Brown’s dentist. (T.
549). Through him, the State published exhibits 4C and 4F, which were forms that
included Mia Brown’s signature, complete with the hearts Charles Howe
previously testified to. The State made certain to ask Dr. Swindle more than once
whether Mia Brown’s signature was on the forms, again emphasizing her heartedsignature. (T.552, 555).
It is clear from the record that the evidence pertaining to Mia Brown’s
signature was introduced purely to stress the unique characteristics of it,
presumably to drive home the State’s point that Mia Brown was a pretty, sweet
girl.4 Just as clear is the prohibition against victim impact evidence in the guilt
phase of a capital trial. This emotional and inflammatory testimony was not
simply elicited in the guilt phase of Calhoun’s capital trial, it was the very first
thing the jury heard. With the injection of this victim impact evidence into the trial
at its very onset, it is hard to imagine a juror would not be overcome with emotion
and sympathy.

The State’s opening line in closing argument to the jury stressed this very point:
“Like a good Baptist sermon, the State’s case has three points. This pretty girl
died a horrible death. And Johnny Mack Calhoun did it; Johnny Mack Calhoun
did it.” (T. 1148)(emphasis added).
4

289

Appellate counsel’s failure to raise this issue on direct appeal fell outside the
range of professionally acceptable performance. Aside from being prohibited, the
evidence at issue was also entirely unnecessary, as it was not needed to prove Mia
Brown’s identity. Avoiding prejudicial personal details of the victim by utilizing
alternative methods of identification is a “fundamental proposition of trial practice
according to the decisional law of this State.” Ashmore v. State, 214 So. 2d 67, 69
(Fla. 1st DCA 1968). The case law in this area is very clearly motivated by policy
considerations meant to ensure the State “present their evidence in the manner
most likely to secure for the accused a fair trial, free, insofar as possible, from any
suggestion which might bring before the jury any matter not germane to the issue
of guilt.” Hathaway v. State, 100 So. 2d 662, 664 (Fla. 3d DCA 1958).
The objectionable evidence, introduced through the State’s first two
witnesses, set the tone for an emotionally charged trial in which the jurors were
biased against Calhoun from the very beginning. By failing to raise this issue,
appellate counsel compromised the appellate process to such a degree as to
undermine confidence in the fairness and correctness of the result.
CONCLUSION AND RELIEF SOUGHT
For all the reasons discussed herein, Mr. Calhoun respectfully urges this
Court to grant habeas relief and set aside his conviction.

290

CERTIFICATE OF SERVICE
I hereby certify that true and correct copy of the foregoing petition has been
electronically filed with the Clerk of the Florida Supreme Court, and electronically
served upon Lisa Hopkins, Assistant Attorney General on the 18th day of July, 2018 .

/s/ KATHLEEN PAFFORD
Kathleen Pafford
Assistant CCRC-North
Florida Bar No. 99527
1004 DeSoto Park Drive
Tallahassee, FL 32301
(850) 487-0922
Elizabeth Salerno
Assistant CCRC-North
Florida Bar No.
COUNSEL FOR THE APPELLANT

CERTIFICATE OF FONT
I hereby certify that the foregoing Initial Brief was generated in Times New
Roman 14 point font, pursuant to Fla. R. App. P. 9.210.
/s/ KATHLEEN PAFFORD
Kathleen Pafford
Assistant CCRC-North
Florida Bar No. 99527

291

Filing # 78428385 E-Filed 09/26/2018 09:20:23 AM

IN THE SUPREME COURT OF FLORIDA
JOHNNY MACK SKETO CALHOUN,
Petitioner,
CASE NO. SC18-1174
vs.
STATE OF FLORIDA,

RECEIVED, 09/26/2018 09:23:25 AM, Clerk, Supreme Court

Respondent.
___________________________/
RESPONSE TO PETITIONER FOR WRIT OF HABEAS CORPUS
COMES NOW, Respondent, the STATE OF FLORIDA, by and through
the undersigned counsel, and hereby responds to the Petition for
Writ of Habeas Corpus filed herein, pursuant to this Court’s Order
of July 20, 2018. Respondent respectfully submits that the petition
should be denied as meritless.
FACTS AND PROCEDURAL HISTORY
The relevant facts concerning the murder of Mia Chay Brown
are recited in this Court’s opinion on direct appeal:
Johnny Mack Sketo Calhoun and Mia Chay Brown were both
reported missing on December 17, 2010. On December 20,
Brown's remains were found bound and burnt in her car,
which had been lit on fire in the woods of Alabama.
Calhoun, thought to be the last person to see Brown
alive, was found hiding in the frame of his bed inside
his trailer on December 20.
Guilt Phase
Brown worked at Charlie's deli and grocery store in Esto,
Florida. Harvey Glenn Bush saw Brown working at
Charlie's deli around 1 to 1:30 p.m. on December 16,
2010, and knew Brown drove a white car. Bush heard

292

Calhoun ask Brown for a ride that evening and Brown
responded that she would pick him up after work at
approximately 8 to 9 p.m.
Brown drove to Jerry Gammons' trailer in a light colored,
four-door car and knocked on his door at about 8:40 p.m.
on December 16. Brown asked for Calhoun, and Gammons
told her that Calhoun did not live there. America's
Precious Metals junkyard, where Calhoun's trailer was
located, is approximately one road down from Gammons'
trailer.
Brandon Brown, Brown's husband, talked with Brown at
lunch time on December 16 while she was working at
Charlie's deli. Brown usually got off of work at
approximately 9 p.m. Brandon called Brown at 10 p.m.
because she was not home. Brandon fell asleep on the
couch at about 10:30 p.m., and when he woke up at 2 a.m.,
his wife was still not home. It was unusual for Brown
not to come home; Brandon started calling family members
to find her.
Sherry Bradley, the manager at Gladstone's convenience
store located between Enterprise and Hartford, Alabama,
testified that Calhoun came into her store between 5:30
and 6:00 a.m. on December 17, 2010, and bought
cigarettes. Bradley noticed scratches and dried blood on
his hands and sores on his face. Calhoun was wearing a
white shirt that had spots of blood on it and there was
something black underneath his fingernails. She asked
Calhoun about his appearance, and he responded that he
had been deer hunting. Calhoun was driving a white, fourdoor car with a Florida license plate. Darren
Bratchelor, a former schoolmate of Calhoun's, also saw
Calhoun at the convenience store at about 6 a.m. After
that day, Bradley left town for a few days, but when she
returned, another employee had posted a missing persons
flyer in the store, on which she recognized Calhoun's
photograph.
Chuck White, a patrol officer for Holmes County,
Florida, arrived at America's Precious Metals at 8 a.m.

293

on December 17. White looked in Calhoun's trailer and
found clothes and trash scattered everywhere. Calhoun
was not there. On cross-examination, White testified
that Sketo Calhoun (“Sketo”) and Terry Ellenburg, coowners of America's Precious Metals, told him that there
had been a break-in at the junkyard, that there were pry
marks on Calhoun's trailer door, and that the skid steer
loader, or Bobcat, had been hot-wired and moved. White
noticed many tire tracks around the yard. White
acknowledged that he did not secure Calhoun's trailer
before he left the yard.
Brett Bennett, a cattle broker in Geneva, Alabama,
noticed smoke from the highway on December 17 at
approximately
11
a.m.
Keith
Brinley,
a
school
maintenance employee in Geneva, Alabama, also saw a big
fire behind the Bennett residence at about that same
time.
Tiffany Brooks, a resident of Hartford, Alabama, found
Calhoun in her family's shed on the morning of December
18, 2010. Calhoun was on the ground wrapped in sleeping
bags that the family kept around the freezer. Calhoun
was wearing overalls and a white t-shirt and was wet and
dirty. Brooks brought Calhoun into the house and the
family washed his clothes, gave him new clothes, let him
shower and nap, and gave him some food. Steven Bledshoe,
Tiffany's boyfriend, called the Brooks' residence and
told them about the missing persons flyer he saw with
Calhoun and Brown's pictures on it. Calhoun told the
Brooks he did not know Brown but she was probably the
person who was supposed to pick him up at his trailer
the night before. Calhoun had the Brooks drop him off at
a dirt road. Glenda Brooks, Tiffany's mother, also
testified to these events.
Brittany Mixon, Calhoun's ex-girlfriend, testified that
she went to school with Brown and that Brown knew Calhoun
through her and from working at the convenience store.
On December 16, Mixon stayed at her father's house and
expected Calhoun to come over that night but he never
came. Mixon drove to America's Precious Metals on the

294

morning of December 17 to find Calhoun because he did
not have a phone to call. Mixon used to live in Calhoun's
trailer with him but moved out in October of that year.
She testified that they had lost the key to the trailer
so they had had to pry the door open to get inside the
trailer. Mixon asked Sketo if he had seen Calhoun, but
he had not. Mixon looked inside Calhoun's trailer; no
one was inside, but the trailer was ransacked.
Lieutenant Michael Raley of the Holmes County Sheriff's
Office investigated Brown's missing persons report. He
called Mixon, who told Raley about a campsite in
Hartford,
Alabama,
approximately
ten
miles
from
America's Precious Metals, where Mixon and Calhoun would
camp. The campground was on the property of Charlie
Skinnard, Calhoun's brother-in-law. Mixon met the Brooks
family once while camping with Calhoun. She took Raley
to the campsite. Raley noted that the burnt car was off
of Coleman Road, approximately 1,488 feet away from
Calhoun's
campsite.
The
Brooks'
residence
was
approximately 1.5 miles from the burnt car.
Angie Curry, Priscilla Strickland, and Mixon went to
Calhoun's trailer around 4 p.m. on December 17. Mixon
went into the trailer and found wine, a purse, and
menthol cigarettes. They took the items and called the
police. Brandon identified the purse as belonging to
Brown. When Mixon gave Brown's purse to Raley, Raley
sent a police officer to Calhoun's trailer to secure it
until they got a search warrant. On cross-examination,
Mixon acknowledged that Sketo and Ellenburg told her
that the trailer had been broken into and not to go in
it, but she did anyway. She stated that Calhoun did not
smoke cigarettes and did not have cable television
service in his trailer.
Dick Mowbry, former game warden for Geneva County,
Alabama, participated in a search for Brown and Brown's
vehicle on December 20, 2010. He found a burnt, white
Toyota with no license plate. The entire inside of the
car was burnt and while he was looking through the front
of the car, he saw a rib cage in the trunk, so he called
the police.

295

Mike Gillis, with the Alabama Bureau of Investigation,
responded on December 20 to the call regarding the burnt
vehicle. Remains of a body were in the trunk of the car.
There was what looked like coaxial cable wrapped around
the wrists of the body; duct tape was also found in the
car.
On December 21, 2010, Dr. Stephen Boudreau, a medical
examiner for Alabama, received the human remains found
inside the burnt car. The remains were badly burnt; the
hands and lower limbs had been burnt off. Dr. Boudreau
was able to identify the remains as female because the
uterus and vagina were not destroyed, but the sex organs
were denatured, or heated, to such an extent that there
was no way to analyze them. He found coaxial cable
wrapped around what was left of the remains' upper arms
and tape on the neck. Dr. Boudreau determined that the
cause of death was smoke inhalation and thermal burns
and that the death was a homicide. He found soot embedded
in the airway of the lungs' mucus blanket and carbon
monoxide in the back tissue, meaning that the victim had
inhaled smoke. Dental x-rays matched those of Brown's.
On cross-examination, the defense elicited that no
foreign DNA was found in Brown's vagina. Dr. Boudreau
also acknowledged that no ends of the coaxial cable were
found, and that he could not determine whether Brown was
conscious or not when she inhaled the smoke or at what
point in time she would have lost consciousness.
On December 20, 2010, Jeffery Lowry, deputy state fire
marshal with the Alabama Fire Marshal's Office, took
debris samples from the burnt car and sent them to the
Alabama and Florida laboratories. Jason Deese, an arson
investigator for the Florida Bureau of Fire and Arson,
testified that on December 22, 2010, he inspected the
car. The vehicle identification number (VIN) was matched
to a 2000 Toyota Avalon. Brown owned a four-door 2000
Toyota Avalon. The fire originated in the driver's seat
and passenger compartment; it was not an engine fire.
Perry Koussiafes, senior crime laboratory analyst for
the Florida Fire Marshal's Office, received six samples
from the car on December 30, 2010. The samples from the

296

right front quarter and left quarter of the car tested
positive for ignitable liquid.
Trevor Seifret, a crime lab analyst for the Florida
Department of Law Enforcement (FDLE), testified that
blood found on the cardboard of a roll of duct tape taken
from Calhoun's trailer was a major donor match to Brown
and a minor donor partial match to Calhoun. Blood found
on blankets taken from Calhoun's trailer were total
matches to Calhoun and Brown. DNA from hair found in
Calhoun's trailer also matched Brown; Seifret testified
that DNA is found on hair only when the hair is pulled
out of the scalp.
Jennifer Roeder, a digital evidence crime analyst for
FDLE, testified that an SD memory card found in Calhoun's
trailer was from Brown's camera, and based on the time
and date stamps of other pictures on the camera, the
last picture was taken between 3:30 and 4:00 a.m. on
December 17, assuming no one reset the clock on the
camera.
On December 20, 2010, Harry Hamilton, captain of the
Holmes County Sheriff's Department, seized Calhoun's
trailer pursuant to a search warrant. He noticed that
the evidence tape on the door had been broken. He found
Calhoun hiding under his mattress in the bed frame in
his trailer. Calhoun had scratches on his hands, arms,
and neck.
Raley executed a second search of Calhoun's trailer on
December 28 at the impound yard of the Holmes County
Sheriff's office after Brown's remains had been found.
He found a TV face down on the mattress of the bed and
a DVD player. A VCR was on the floor and the top was
off, with wires tangled in the corner. A converter box
with outputs for a coaxial cable and a TV with a coaxial
coupling were found, but no coaxial cable was found in
the trailer.
The State rested, and the defense provided witnesses as
follows. José Martinez, owner of the Friendly Mini-Mart,

297

testified that Calhoun came to his store on December 16
and bought a pack of cigars, wine, and apple cider. He
never knew Calhoun to buy cigarettes.
Matt Crutchfield who lived near America's Precious
Metals was awakened on December 17 between 1 and 3:30
a.m. by a loud bang. He had heard the noise before and
thought it came from the recycling plant. Monica
Crutchfield, his wife, was also awakened by a loud noise
that came from America's Precious Metals, but she
testified that she had never heard that noise before.
Darlene Madden, who lived one block from America's
Precious Metals, awoke to a loud noise that sounded like
cars colliding at approximately 2:30 to 3:00 a.m. She
testified that she may have heard a second noise but did
not get up to investigate it.
John Sketo, Calhoun's father and co-owner of America's
Precious Metals, testified that Calhoun's trailer was
located beside the scrap yard. Sketo arrived at the scrap
yard at approximately 7:30 a.m. on December 17 and
noticed that the Bobcat was missing from the place it
had been the day before. He also noticed that the door
to Calhoun's trailer was open. Sketo testified that none
of this was like that the day before. Ellenburg called
the police. Ellenburg and Sketo found the Bobcat by the
loading dock, and they thought it had pushed something
off of the dock. Tread marks on the ground had not been
there the day before. Sketo looked in Calhoun's trailer
and it looked like someone had searched it; drawers were
open and things were strewn about. Sketo saw a small
grill on Calhoun's bed, which usually remained outside
the trailer. Sketo did not see anyone in the trailer. He
did not see a purse on the floor of the trailer. Sketo
exited the trailer and left the door open.
Mixon arrived at the junkyard and asked if Sketo had
seen Calhoun. Sketo replied that he had not and told
Mixon not to go into the trailer because someone had
broken into it, but Mixon went into the trailer anyway.
Mixon was in the trailer for about one minute. Then Mixon
left the junkyard. Sketo went back into the trailer and

298

found Calhoun's gun leaning against the couch on the
floor. Sketo testified that if the gun had been there
the first time he went into the trailer he would have
noticed it. He stated that the gun was not there before
Mixon went into the trailer. On cross-examination, the
State elicited from Sketo that he did not see Mixon carry
the gun or anything else into the trailer.
Ellenburg testified that he arrived at the junkyard at
approximately 7:30 a.m. on December 17. He stated that
Calhoun's door did not have pry marks on it the day
before, and Calhoun's trailer was not in disarray the
day before. He did not see a gun in the trailer the first
time he looked. He stated that the tire tracks near the
loading dock and next to the Bobcat looked like they
were made by a dual-wheeled vehicle. A corner of the
cement steps was also knocked off, and had not been like
that the day before.
Lieutenant Raley searched a barn in Pine Oak Community
in Geneva, Alabama, and a license tag bracket matching
the description of one on Brown's car was found at the
property. There was also a piece of cardboard that had
oil and tire marks on it. Brown's family told Raley that
her car had a small oil leak. However, Raley could not
trace the oil stain or the bracket to Brown's car.
On February 28, 2012, the jury returned a verdict of
guilty of first-degree murder and kidnapping.
Penalty Phase
The State moved for admission of all evidence from the
guilt phase into the penalty phase and rested.
The defense provided witnesses as follows. Pastor A.J.
Lombarin, Cliff Jenkins, and Ryan George, all ministers
to Calhoun, each testified that Calhoun was devoted to
Christian study and ministered to other inmates while
awaiting the instant trial. Patrick O'Dell, an inmate,
testified that Calhoun invited him to bible study and
was his mentor, teacher, and minister, and changed the

299

course of O'Dell's life by telling him to take
responsibility for his actions. Jerry Pappas, an inmate,
testified that Calhoun was like a brother to him and
changed his life for the better. Darryl Williams, a
former inmate, testified that Calhoun helped him change
and encouraged him to witness to others outside of the
jail.
Lieutenant Bill Pate, a security officer at the Holmes
County jail, testified that Calhoun had no behavioral
problems while incarcerated and that his only prior
criminal record was driving while his license was
suspended and violating probation.
Charlie Skinner, Calhoun's brother-in-law, testified
that Calhoun was generous to a fault and that he had
given his life to God. Sharon Calhoun, Calhoun's mother,
testified that Calhoun and his father had a close
relationship. Calhoun has a son with whom he is very
close and to whom he is a good father. Calhoun also
treated Mixon's son like his own son. Sharon testified
that Calhoun was a good student, a boy scout, never got
into trouble, and sends preachers to his father to help
counsel him.
The jury recommended a sentence of death by a vote of
nine to three.
Spencer1 Hearing
Betsy Spann, Calhoun's sister, testified that Calhoun
was like her best friend and kept her out of trouble
while they were growing up. Sharon Calhoun testified
that Calhoun had found God and that Calhoun was innocent.
John Searcy, a minister who had gone to counsel Calhoun
on the night of the verdict, testified that Calhoun had
actually counseled him that night. Following the
conclusion of the Spencer hearing, the trial court
allowed victim impact statements from Brown's family
members.

1

Spencer v. State, 615 So. 2d 688 (Fla. 1993).

300

The trial court found three aggravators: (1) cold,
calculated, and premeditated (CCP)—very great weight;
(2) during the commission of a kidnapping—great weight;
and (3) for the purpose of avoiding arrest—very great
weight. The trial court found one statutory mitigator:
no significant history of criminal activity—significant
weight, and five nonstatutory mitigators: (1) good jail
conduct pending and during trial—little weight; (2)
positive role model to other inmates—some weight; (3)
capable of forming loving relationships—little weight;
(4) childhood history—little weight; and (5) defendant
will be incarcerated for the remainder of his life with
no danger to others—minimal weight. The trial court gave
the jury recommendation of death great weight. The trial
court concluded that the aggravating circumstances far
outweighed the mitigating circumstances and sentenced
Calhoun to death for the murder of Brown and 100 years
of imprisonment for the kidnapping of Brown.
Calhoun v. State, 138 So. 3d 350, 354-59 (Fla. 2013) (internal
page numbers omitted).
On direct appeal, this Court addressed five issues: (1)
whether the trial court erred in excluding Calhoun’s exculpatory
statements to the police under the rule of completeness; (2)
whether the trial court erred in finding the aggravators of cold,
calculated, and premeditated (CCP) and avoiding arrest; (3) a
Ring2

claim;

(4)

sufficiency

of

the

evidence;

and

(5)

proportionality.
On October 31, 2013, after briefing and oral argument, this
Court issued its opinion striking the avoid arrest aggravator and
rejecting the remainder of Calhoun’s issues on appeal. This Court

2

Ring v. Arizona, 536 U.S. 584 (2002).

301

also found the evidence was sufficient to support Calhoun’s
conviction for one count of first-degree murder. On October 6,
2014, the United States Supreme Court denied the petition for writ
of certiorari. Calhoun v. Florida, 135 S.Ct. 236 (2014).
On September 25, 2015, the Appellant filed a Motion to Vacate
Judgment and Sentence under Rule 3.851 with Special Leave to Amend.
The State filed its Answer on November 24, 2015. Thereafter,
Appellant, through counsel, amended his motion on February 11,
2016, raising Claim 13, a Hurst v. Florida3 claim. The State
addressed the claim at the Huff4 hearing held on April 21, 2016.
Subsequently, on August 16, 2016, Appellant filed a Second Amended
Motion to Vacate Judgments of Conviction and Sentence, raising
Claim 14. The postconviction court ordered the State to respond
within 20 days pursuant to rule 3.851(f)(4). The State filed its
response on October 3, 2016. On June 22, 2017, Appellant filed a
Motion to Supplement and Amend Defendant’s Third Amended Motion to
Vacate

Judgments

of

Conviction

and

Sentence,

raising

two

additional claims. The State filed its response on July 7, 2017.
An evidentiary hearing was held on September 15, 19, and 20, 2017,
where Calhoun presented testimony and exhibits to support his
Motions. Because the evidentiary hearing did not produce any
evidence that entitled Calhoun to relief, the postconviction court

3
4

Hurst v. Florida, 136 S.Ct. 616 (2016).
Huff v. State, 622 So. 2d 982 (Fla. 1993).

302

issued an order denying him relief on his guilt-phase claims and
ordered a new penalty phase under Hurst. The appeal is currently
pending in SC18-340. The initial brief in that appeal was filed
simultaneously with Calhoun’s Petition.
ARGUMENT IN OPPOSITION TO CLAIMS RAISED
Calhoun’s

petition

alleges

that

extraordinary

relief

is

warranted because he was denied the effective assistance of counsel
in

his

direct

appeal.

The

standard

of

review

applicable

to

ineffective assistance of appellate counsel claims mirrors the
Strickland v. Washington, 466 U.S. 688 (1984), standard for claims
of trial counsel ineffectiveness. See Valle v. Moore, 837 So. 2d
905 (Fla. 2002); Rutherford v. Moore, 774 So. 2d 637, 645 (Fla.
2000). Such a claim requires an evaluation of whether counsel’s
performance was so deficient that it fell outside the range of
professionally acceptable performance and, if so, whether the
deficiency was so egregious that it compromised the appellate
process to such a degree that it undermined the confidence in the
correctness of the result. Groover v. Singletary, 656 So. 2d 424,
425 (Fla. 1995); Byrd v. Singletary, 655 So. 2d 67, 68-69 (Fla.
1995). A review of the record demonstrates that neither deficiency
nor prejudice has been shown in this case.
CLAIM I
Calhoun first argues that appellate counsel was ineffective
for failing to challenge the trial court’s exclusion of Calhoun’s

303

statement related to where and when he was in the woods with law
enforcement. (Petition at 6-7). The arguments Calhoun relies upon
are the same arguments made during the direct appeal. This Court
ruled that, even if trial counsel had preserved the claim, Calhoun
was not entitled to relief. Calhoun, 138 So. 3d at 360. This Court
held that any error in excluding the statements was harmless
because “there [was] no reasonable possibility that exclusion of
the

redacted

statements

affected

the

outcome

of

the

jury’s

verdict.” Id. “The statements with which Calhoun asserts error
were only two statements out of the extensive record in this case.
Additionally, both statements were cumulative to other information
elicited during the trial.” Id. at 361.
Calhoun's statement that he was at the Brooks' residence
on December 18 was cumulative to the testimonies of
Tiffany and Glenda Brooks, who both testified that
Calhoun was in their shed on the morning of December 18.
Regarding Calhoun's statement that Brown had never been
to Calhoun's trailer before, Calhoun contends that he
should have been allowed to clarify that the statement
meant any time before the night of December 16 and that
he did not know if Brown made it to his trailer on
December 16. This information that Calhoun contends
should have been admitted is cumulative to the
testimonies of Glenda and Tiffany Brooks that Calhoun
told the Brooks that Brown was probably the girl who was
supposed to pick him up. This implies that Calhoun was
not at his trailer when Brown arrived the night she was
supposed to pick him up. Additionally, during the
defense's
case-in-chief,
the
defense
introduced
testimony from Sketo and Ellenburg that someone had
broken into Calhoun's trailer the night of December 16.
This also implies that someone other than Calhoun was at
Calhoun's trailer when Brown arrived and therefore,
Calhoun did not know if Brown arrived at his trailer
that night. Thus, the information Calhoun seeks to

304

introduce through the rule of completeness, that he did
not know if Brown arrived at his trailer on December 16
and that his statement that Brown had never been to his
trailer before December 16, was in fact provided to the
jury. Accordingly, any error in not admitting these
statements under the rule of completeness is harmless
beyond a reasonable doubt.
Id. The State’s argument that Calhoun was in the woods near law
enforcement was a reasonable inference from Calhoun’s statement
that law enforcement came near him three times. (T15:955). The
Brookses testified that Calhoun came to their home, which was
merely 1.5 miles away from where the burnt car was found. (T15:94849, 953). This Court would have clearly found no prejudice to
Calhoun

had

appellate

counsel

raised

these

additional

issues

because the claims are meritless. See Rutherford, 774 So. 2d 637
(finding no ineffective assistance of appellate counsel where
“[i]f a legal issue ‘would in all probability have been found to
be without merit’ had counsel raised the issue on direct appeal,
the failure of appellate counsel to raise the meritless issue will
not

render appellate counsel's

performance

ineffective”

citing

Williamson v. Dugger, 651 So. 2d 84, 86 (Fla. 1996)).
As such, this claim must be denied.
Claim II
Calhoun argues that appellate counsel was ineffective at the
direct appeal for failing to raise a claim regarding the jury
instruction for venue and jurisdiction given in his case. (Petition
at 12-18). As previously noted, claims of ineffective assistance

305

of appellate counsel are evaluated under a standard similar to
Strickland. See Valle, 837 So. 2d 905; Rutherford, 774 So. 2d at
645. Calhoun concedes that if Florida had jurisdiction to prosecute
the crimes, Holmes County was the proper venue. (Petition at 14).
This claim is waived and should be denied. Where a defense
attorney requests or affirmatively agrees to an erroneous jury
instruction, fundamental error review is waived. Universal Ins.
Co. of North America v. Warfel, 80 So. 3d 47, 65 (Fla. 2012)
(citing

State

v.

Lucas,

645

So.

2d

425,

427

(Fla.

1994)).

“Fundamental error is waived under the invited error doctrine
because ‘a party may not make or invite error at trial and then
take advantage of the error on appeal.’” Id. (citing Sheffield v.
Superior Ins. Co., 800 So. 2d 197, 202 (Fla. 2001)). This Court
has extended this concept to capital murder cases. See Boyd v.
State, 200 So. 3d 685, 702 (Fla. 2015).
In the present case, trial counsel specifically agreed that
the instruction on venue was appropriate under the law. (T16:111819). After discussion of changing the language for the instruction
on jurisdiction, trial counsel agreed to the instruction as given.
(T16:1130). Trial counsel gave explicit agreement to use the
jurisdiction and venue instructions as they were given. The jury
was properly instructed that they had to determine jurisdiction
beyond a reasonable doubt. (T17:1236). Pursuant to Warfel, trial
counsel’s agreement not only fails to preserve this issue for

306

appeal but waives fundamental error review as well. This claim
should be denied as waived.
Should this Court reach the merits of this claim, Calhoun’s
argument is meritless and should be denied. The jury was given
instructions on venue and on jurisdiction and both instructions
were correctly written, accurately reflecting the law. Although
Calhoun asserts an instruction on venue was not needed, prior to
jury selection, trial counsel presented an oral motion for change
of venue. (R5:889). “There is a ‘strong presumption’ that counsel’s
attention to certain issues to the exclusion of others reflects
trial tactics rather than ‘sheer neglect.’” Harrington v. Richter,
131 S.Ct. 770, 791 (2001) (citing Yarborough v. Gentry, 540 U.S.
1, 8 (2003) (per curiam)). The instruction on venue was properly
before the jury and it did not affect the verdict of the jury.
Trial

counsel

accurately

presented

instructions

on

jurisdiction, which was accepted by the trial court. When the
instructions were being reviewed, after both sides had rested,
trial counsel informed the court that she had done research
regarding jurisdiction and got her sample from Lane. Lane v. State,
388 So. 2d 1022 (Fla. 1980). In Lane, this Court gave specific
instructions to be given to a jury to find beyond a reasonable
doubt:
(1) The fatal blow to the victim occurred in Florida;
(2) The death of the victim occurred in Florida;

307

(3) Or an essential element of the offense which was
part of one continuous plan, design, and intent leading
to the eventual death of the victim occurred in Florida.
Id.

at

1029.

Defense

counsel’s

recommended

jury

instruction

applied this standard and the only requirement is that an essential
element of the crime be proven beyond a reasonable doubt. (R6:99798; T16:1128-30; T17:1236).
This Court, on direct appeal, looked at the sufficiency of
the evidence and found that the evidence supported the verdicts of
first-degree murder and kidnapping.
As

to

the

first

first-degree

murder,

this

Court

found

specifically:
Harvey Glenn Bush saw Calhoun ask Brown for a ride on
December 16, 2010, and Brown responded that she would
pick him up after work. Brown drove a 2000 white, fourdoor Toyota Avalon. Brown drove up to Jerry Gammons'
trailer in a light colored, four-door car and knocked on
his door at about 8:40 p.m. on December 16, and asked
for Calhoun. Calhoun's trailer was located approximately
one road from Gammons' trailer.
Brown's purse was found in Calhoun's trailer. Blood
found on a roll of duct tape in Calhoun's trailer was a
major donor match to Brown's DNA and a minor donor
partial match to Calhoun's DNA. Blood found on blankets
taken from Calhoun's trailer matched Calhoun and Brown.
DNA from hair that had been pulled out of the scalp and
found in Calhoun's trailer also matched Brown.
Calhoun came into the convenience store in which Sherry
Bradley worked in the early morning of December 17.
Bradley noticed scratches and dried blood on Calhoun's
hands. Calhoun had on a white shirt that had spots of
blood on it and his fingernails had black underneath
them. Calhoun was driving a white, four-door car with a
Florida license plate.

308

Witnesses noticed smoke from the highway in Geneva,
Alabama, on December 17, at approximately 11 a.m. Dick
Mowbry found a burnt white Toyota with no license plate
on December 20. The VIN on the car was matched to a 2000
Toyota Avalon. Samples from the right front quarter and
left quarter of the car tested positive for ignitable
liquid. The entire inside of the car was burnt and
Brown's remains were found in the trunk. The hands and
lower limbs had been burnt off. Dr. Stephen Boudreau,
the medical examiner, determined that the cause of death
was smoke inhalation and thermal burns and that the death
was a homicide.
Tiffany Brooks found Calhoun in her family's shed on
December 18, on the ground wrapped in sleeping bags.
Investigator Raley went to the site of Brown's car on
December 20. Raley noted that the car was near Coleman
Road approximately 1,488 feet from Calhoun's campsite.
The Brooks' residence was approximately 1.5 miles from
Brown's car.
Calhoun, 138 So. 3d at 366-67.
This Court specifically found regarding kidnapping:
[W]itnesses placed Brown as having been last seen headed
toward Calhoun's trailer on the night of December 16 and
witnesses heard Brown tell Calhoun she would pick him up
that night. Her blood and hair were found in his trailer.
Brown's remains were found in the trunk of her car in
the woods in Alabama with coaxial cable wrapped around
what remained of her upper arms and duck tape around her
neck. The medical examiner testified that smoke and
carbon dioxide were found in her lung tissue, indicating
that Brown was alive while she was bound in the trunk of
the car and the car was lit on fire. As provided above,
the medical examiner testified that Brown died as a
result of smoke inhalation and thermal burns, and that
the death was a homicide.
Calhoun, 138 So. 3d at 367. Calhoun’s argument that the jury would
have not found jurisdiction had it been instructed differently, is
without merit. The evidence clearly shows that the crime began in

309

Holmes County, which retained jurisdiction. The jury was properly
instructed, and this claim is without merit.
Because the State was still held to its burden of proof, there
was no error and this claim should be denied.
Claim III
Calhoun claims appellate counsel was ineffective for failing
to raise the issue of victim impact evidence during the guilt phase
of the trial. (Petition at 19-21). As previously noted, claims of
ineffective assistance of appellate counsel are evaluated under a
standard

similar

to

Strickland.

See

Valle,

837

So.

2d

905;

Rutherford, 774 So. 2d at 645. Calhoun argues that the testimony
of Charles Howe and Dr. Swindle introduced victim impact evidence
into the guilt phase of the trial.
Florida State Statute § 921.141(8) provides that once the
State has proven one or more aggravating factors, the State may
introduce

evidence

“designed

to

demonstrate

the

victim’s

uniqueness as an individual human being and the resultant loss to
the community’s members by the victim’s death,” known as victim
impact evidence. Failure to object to improper victim impact
evidence “renders the claim procedurally barred absent fundamental
error.” Sexton v. State, 775 So. 2d 923, 932 (Fla. 2000); see also
McGirth v. State, 48 So. 3d 777, 790 (Fla. 2010). For there to be
fundamental error, “the error must reach down into the validity of
the trial itself to the extent that a verdict of guilty could not

310

have been obtained without the assistance of the alleged error.”
State v. Delva, 575 So. 2d 643, 644-45 (Fla. 1991); see also
Roberts v. State, 242 So. 3d 296, 298 (Fla. 2018).
In this case, trial counsel did not object to the testimony
of Charles Howe, and Dr. Swindle, who identified the victim’s
unique signature as a way to identify the body found in the car.
As such, any claim appellate counsel made on direct appeal would
be procedurally barred because it was not preserved, and the
fundamental error standard would apply. The identification of the
forms that contained the victim’s signature was to aid the State
in proving the identity of the body found by police. As was
testified, the victim’s lower legs and hands were burned off.
Calhoun, 138 So. 3d at 356. The medical examiner was only able to
make an identification using dental records. Id. The testimony was
limited to her signature and did not go into the effect of her
death.
Because the testimony does not qualify as victim impact
evidence, appellate counsel was not deficient for not raising a
meritless claim. As such, this claim must be denied.
CONCLUSION
Respondent respectfully requests that this Honorable Court
DENY the instant petition for writ of habeas corpus.

311

Respectfully submitted,
PAMELA JO BONDI
ATTORNEY GENERAL
/s/ Lisa A. Hopkins
Lisa A. Hopkins
Assistant Attorney General
Florida Bar No. 99459
Office of the Attorney General
PL-01, The Capitol
Tallahassee, Florida 32399
Telephone: (850)414-3336
Facsimile: (850)414-0997
capapp@myfloridalegal.com
Lisa.Hopkins@myfloridalegal.com
COUNSEL FOR RESPONDENT
CERTIFICATE OF SERVICE
I HEREBY CERTIFY that, on this 26th day of September, 2018, I
electronically filed the foregoing with the Clerk of the Court by
using the Florida Courts E-Portal Filing System which will send a
notice of electronic filing to the following: Stacy Biggart, at
stacy.biggart@ccrc-north.org,

and

Elizabeth

Salerno,

at

Elizabeth.salerno@ccrc-north.org, attorneys for Appellant.
CERTIFICATE OF FONT COMPLIANCE
I HEREBY CERTIFY that the size and style of the type used in
this brief is 12-point Courier New, in compliance with Fla. R.
App. P. 9.210(a)(2).
/s/ Lisa A. Hopkins
COUNSEL FOR RESPONDENT

312

Filing # 104567947 E-Filed 03/09/2020 03:04:37 PM

IN THE SUPREME COURT OF FLORIDA
JOHNNY MACK SKETO CALHOUN,
Appellant,

CASE NO. SC18-340
DEATH PENALTY CASE

v.

RECEIVED, 03/09/2020 03:06:30 PM, Clerk, Supreme Court

STATE OF FLORIDA,
Appellee.
____________________________________/
MOTION TO RECALL MANDATE
Appellee, State of Florida, moves this Court pursuant to Florida Rules of
Appellate Procedure 9.340 and 9.300, and Florida Statute § 43.44, to recall the
mandate that was issued on February 28, 2020, in this case, and as grounds therefore
states:
1. This Court entered a decision affirming the trial court’s order on November
21, 2019, and the mandate issued on February 28, 2020.
2. Pursuant to Florida Rule of Appellate Procedure 9.340 and Florida Statute §
43.44, this Court may, within 120 days of it being issued, direct the clerk to
recall the mandate to require, reconsider, revise, reform, or modify its own
opinions for the purpose of making them accord with law and justice. Because
this motion is well within that 120-day window, Appellee requests this Court

313

recall the mandate and remand the case to the lower court to address the
pending Motion to Reinstate the Death Sentence.
3. In the trial court prior to this appeal, Calhoun filed a motion for postconviction
relief alleging several guilt-phase and penalty-phase claims, one of which was
a claim to vacate his death sentence pursuant to this Court’s opinion in Hurst
v. State, 202 So. 3d 40 (Fla. 2016), and his non-unanimous jury verdict for
death. The trial court granted Hurst relief, granting Calhoun a new penalty
phase, but rejected his other claims for relief.
4. Calhoun appealed to this Court, and as the Court’s precedent had been decided
uniformly against the State in non-unanimous death cases, at that time the
State did not file a cross-appeal on the Hurst issue. This Court ultimately
affirmed the trial court’s order, and as noted above, the mandate related to that
opinion issued on February 28, 2020.
5. Prior to the mandate being issued, this Court issued its opinion in State v.
Poole, 2020 WL 370302 (Fla. Jan. 23, 2020) (SC18-245), largely receding
from its holdings in Hurst. In Poole, this Court overruled the Hurst case
“except to the extent it requires a jury unanimously to find the existence of a
statutory aggravating circumstance beyond a reasonable doubt.” Id. at *15.

314

6. Recalling this mandate to allow for the case to be remanded to address the
Motion to Reinstate the Death Sentence would allow this Court to revise its
decision so it can accord with law and justice, as required by Fla. Stat. § 43.44.
7. It would be an enormous waste of both the bench and bar’s time, in addition
to the time of the citizens who are called for jury duty, as well as taxpayers’
money, to require new penalty phases based on a decision that this Court in
State v. Poole acknowledged “got it wrong.” State v. Poole, 2020 WL 370302
at *14. The Poole Court explained that Hurst v. State was incorrectly decided
on a myriad of levels including mischaracterizing weighing as a fact and
ignoring the Florida Constitution’s conformity clause regarding the Eighth
Amendment when it held that all the jury’s additional findings and final
recommendation had to be made unanimously. Id. at *11-*13; id. at *8 (noting
the United States Supreme Court’s decision in Hurst v. Florida “did not
address Hurst’s Eighth Amendment argument”).
8. In light of the number and magnitude of the legal errors in Hurst v. State, this
Court should not require the prosecutors and citizens of Florida to have to go
through the empty formality and enormous waste of resources of new penalty
phases based on that erroneous decision. New penalty phases in capital cases
are quite time consuming in the trial court and will result in dozens of appeals
in this Court as well. The victim’s family also must endure yet another penalty

315

phase and the additional years of delay starting over again will cause.
Moreover, new penalty phases are dangerous. One egregious example of this
is Michael Hernandez whose death sentence was vacated based on Hurst v.
State and who consequently was released into the general population of the
prison where he murdered again. Hernandez v. Jones, 217 So. 3d 1032 (Fla.
2017). And transporting inmates is dangerous, especially in inmate murder
resentencings where many of the witnesses are inmates too. Van Poyck v.
State, 116 So. 3d 347, 349 (Fla. 2013) (noting the victim was a correctional
officer who was transporting an inmate to the doctor’s office, who was
murdered by the defendant during an escape attempt). These numerous new
penalty phases required by the now-repudiated Hurst v. State decision will
consume massive amounts of prosecutorial resources that are better spent in
prosecuting other cases. To prevent this massive waste that serves no purpose,
a belated cross-appeal should be permitted.
9. In State v. Poole, this Court explained that Hurst v. State was not entitled to
stare decisis protection because the erroneous Hurst v. State decision “serves
no one well and only undermines the integrity and credibility of the court.”
State v. Poole, 2020 WL 370302 at *14 (citation omitted). And instead of
being a “narrow and predictable ruling that should have had limited practical
effect on the administration of the death penalty in our state,” Hurst v. State

316

had the opposite result. Id. But not allowing the State to cross-appeal would
result, in the end, in mandating Florida courts follow the repudiated Hurst v.
State decision and continue the deleterious effect on the administration of the
death penalty in Florida caused by that decision. In the interest of justice, as
well as to give full effect to the State v. Poole decision, a belated cross-appeal
should be permitted. The interests of justice and judicial economy support
allowing a cross-appeal.
10.In this case, under State v. Poole, there was no violation of the right-to-a-jurytrial. In this case, the court found three aggravators, including that the capital
felony was committed while the defendant was engaged in the commission of
a kidnapping, which was based on the jury’s contemporaneous unanimous
conviction of Calhoun for kidnapping. The jury specifically found the felony
murder aggravator in convicting him of kidnapping during the guilt phase.
Here, as in State v. Poole, the jury made the required finding of one aggravator
by convicting Calhoun of this felony. State v. Poole, 2020 WL 370302 at *15
(noting that in addition to the capital murder, the jury convicted Poole of
attempted first-degree murder, sexual battery, armed burglary, and armed
robbery and under “a correct understanding of Hurst v. Florida, this satisfied
the requirement that a jury unanimously find a statutory aggravating
circumstance beyond a reasonable doubt”).

317

11.Since this Court issued its opinion in this case, the Supreme Court has
expressly recognized that Hurst v. Florida was limited to the finding of an
aggravating circumstance that renders a defendant eligible for the death
penalty. Notably, the Court also held that Hurst v. Florida, like Ring before
it, is not retroactive. See McKinney v. Arizona, 140 S.Ct. 702 (2020).
CONCLUSION
Accordingly, this Court should permit the belated cross-appeal and
supplemental briefing on the Hurst v. State issue in light of this Court’s new decision
in State v. Poole.
Respectfully submitted,
ASHLEY B. MOODY
ATTORNEY GENERAL
S/ Lisa A. Hopkins
LISA A. HOPKINS
Assistant Attorney General
Florida Bar No. 99459
Office of the Attorney General
PL-01, The Capitol
Tallahassee, Florida 32399
Telephone: (850) 414-3300
Facsimile: (850) 487-0997
capapp@myfloridalegal.com
Lisa.Hopkins@myfloridalegal.com
COUNSEL FOR APPELLEE

318

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that, on this 9th day of March, 2020, I electronically
filed the foregoing with the Clerk of the Court by using the Florida Courts E-Portal
Filing System which will send a notice of electronic filing to the following: Stacy
Biggart,

at

stacy.biggart@ccrc-north.org,

and

Elizabeth

Spiaggi,

at

Elizabeth.salerno@ccrc-north.org, attorneys for Appellant.
CERTIFICATE OF FONT COMPLIANCE
I HEREBY CERTIFY that the size and style of type used in this response is
14-point Times New Roman, in compliance with Fla. R. App. P. 9.100(l).
Respectfully submitted,
ASHLEY B. MOODY
ATTORNEY GENERAL
S/ Lisa A. Hopkins
LISA A. HOPKINS
COUNSEL FOR APPELLEE

319

Supreme Court of Florida
WEDNESDAY, APRIL 1, 2020
CASE NOs.: SC18-340 & SC18-1174
Lower Tribunal No(s).:
302011CF000011CFAXMX
JOHNNY MACK SKETO
CALHOUN

vs.

STATE OF FLORIDA

JOHNNY MACK SKETO
CALHOUN

vs.

MARK S. INCH, ETC.

Appellant/Petitioner(s)

Appellee/Respondent(s)

The proceedings in the circuit court and in this Court in the above case are
stayed pending disposition of State of Florida v. Michael James Jackson, Case No.
SC20-257 and State of Florida v. Bessman Okafor, Case No. SC20-323, which are
pending in this Court.
A True Copy
Test:

kc
Served:
LISA HOPKINS
STACY R. BIGGART
ELIZABETH SPIAGGI
HON. CHRISTOPHER NIDA PATTERSON, CHIEF JUDGE
HON. KYLE HUDSON, CLERK
BRANDON YOUNG

320

